Audit Report




OIG-08-012
Audit of the Department of the Treasury’s Special-Purpose
Financial Statements for Fiscal Years 2007 and 2006
November 17, 2007




Office of
Inspector General
Department of the Treasury
THIS PAGE INTENTIONALLY LEFT BLANK
Contents


Transmittal Memorandum


Section I – Independent Auditors’ Report on Special-Purpose
             Financial Statements


Section II – Department of the Treasury’s Special-Purpose Financial
             Statements for Fiscal Years 2007 and 2006
THIS PAGE INTENTIONALLY LEFT BLANK
                                        DEPARTMENT OF THE TREASURY
                                              W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                              November 17, 2007


            MEMORANDUM FOR FAYE McCREARY, DIRECTOR
                           FINANCIAL REPORTS DIVISION
                           FINANCIAL MANAGEMENT SERVICE

                                     LYNDA DOWNING, ASSISTANT DIRECTOR
                                     FINANCIAL MANAGEMENT AND ASSURANCE
                                     GOVERNMENT ACCOUNTABILITY OFFICE

                                     DANNY WERFEL, ACTING CONTROLLER
                                     OFFICE OF MANAGEMENT AND BUDGET

            FROM:                    Michael Fitzgerald /s/
                                     Director, Financial Audits

            SUBJECT:                 Audit of the Department of the Treasury’s Special-Purpose
                                     Financial Statements for Fiscal Years 2007 and 2006

            I am pleased to transmit the attached audited Department of the Treasury
            (Department) special-purpose financial statements for fiscal years 2007 and 2006.
            Under a contract monitored by the Office of Inspector General, KPMG LLP, an
            independent certified public accounting firm, performed an audit of the
            Department’s special-purpose financial statements as of September 30, 2007 and
            2006 and for the years then ended. The contract required that the audit be
            performed in accordance with generally accepted government auditing standards
            and Office of Management and Budget Bulletin No. 07-04, Audit Requirements for
            Federal Financial Statements.

            KPMG LLP issued an Independent Auditors’ Report on Special-Purpose Financial
            Statements, which is incorporated in the attachment.

            In its audit, KPMG LLP found:

                    •   that the special-purpose financial statements were fairly presented, in all
                        material respects, in conformity with U.S. generally accepted accounting
                        principles and the presentation pursuant to the requirements of
                        Chapter 4700 of the Department’s Treasury Financial Manual (TFM).
Page 2


      •   no deficiencies in internal control over the financial reporting for the
          special-purpose financial statements that were considered material
          weaknesses, and

      •   no instances of reportable noncompliance with Chapter 4700 of the TFM.

In connection with the contract, we reviewed KPMG LLP’s report and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit in accordance with generally accepted government auditing
standards, was not intended to enable us to express, and we do not express, an
opinion on the special-purpose financial statements or conclusions about the
effectiveness of internal control over the financial reporting or compliance with
Chapter 4700 of the TFM. KPMG LLP is responsible for the attached auditors’
report dated November 17, 2007 and the conclusions expressed in the report.
However, our review disclosed no instances where KPMG LLP did not comply, in all
material respects, with generally accepted government auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a
member of your staff may contact Susan Barron, Audit Manager, Financial Audits
at (202) 927-5776.

Attachment
             SECTION I

  INDEPENDENT AUDITORS’ REPORT ON
SPECIAL-PURPOSE FINANCIAL STATEMENTS
THIS PAGE INTENTIONALLY LEFT BLANK
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




             Independent Auditors’ Report on Special-Purpose Financial Statements


Inspector General
U.S. Department of the Treasury

We have audited the accompanying Closing Package Financial Statement Report – Balance
Sheets of the U.S. Department of the Treasury (Department) as of September 30, 2007 and 2006,
the related Closing Package Financial Statement Reports – Statement of Net Cost and Statement
of Changes in Net Position, and the accompanying Financial Report (FR) Notes Report (except
for Section F in FR Notes Report Note 16, Section A in FR Notes Report No. 25, and Sections A
and B in FR Notes Report Note 26) for the years then ended; the accompanying Additional Note
No. 27, the accompanying Trading Partner Summary Note Report – Balance Sheet as of
September 30, 2007 and 2006, and the related Trading Partner Summary Note Reports –
Statement of Net Cost and Statement of Changes in Net Position for the years then ended
(hereinafter collectively referred to as the special-purpose financial statements). We did not audit
the amounts and other information included in the special-purpose financial statements of the
Internal Revenue Service (IRS), a component entity of the Department. The financial statements
of the IRS were audited by another auditor whose report has been provided to us. Our opinion on
the special-purpose financial statements, insofar as it relates to the fiscal year 2007 and 2006
amounts and other information included from the financial statements of the IRS, is based solely
on the report of the other auditor. These special-purpose financial statements are the
responsibility of the Department’s management. Our responsibility is to express an opinion on
these special-purpose financial statements based on our audits and the report of the other auditor.

We conducted our audits in accordance with auditing standards generally accepted in the United
States of America; the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and Office of Management
and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements.
Those standards and OMB Bulletin No. 07-04 require that we plan and perform the audits to
obtain reasonable assurance about whether the special-purpose financial statements are free of
material misstatement. An audit includes consideration of internal control over financial
reporting as a basis for designing audit procedures that are appropriate in the circumstances, but
not for the purpose of expressing an opinion on the effectiveness of the Department’s internal
control over financial reporting. Accordingly, we express no such opinion. An audit also
includes examining, on a test basis, evidence supporting the amounts and disclosures in the
special-purpose financial statements and assessing the accounting principles used and significant
estimates made by management, as well as evaluating the overall special-purpose financial
statement presentation. We believe that our audits provide a reasonable basis for our opinion.

The accompanying special-purpose financial statements have been prepared for the purpose of
complying with the requirements of Chapter 4700 of the U.S. Department of the Treasury’s
Treasury Financial Manual (TFM), as described in Additional Note No. 27, solely for the
purpose of providing financial information to the U.S. Department of the Treasury and the U.S.




                               KPMG LLP, a U.S. limited liability partnership, is the U.S.
                               member firm of KPMG International, a Swiss cooperative.
Government Accountability Office (GAO) to use in preparing and auditing the Financial Report
of the U.S. Government, and are not intended to be a complete presentation of the Department’s
consolidated financial statements.

In accordance with TFM Chapter 4700, the Department prepared FR Notes Report Nos. 1
through 26, except for FR Notes Report No. 21, which is not applicable to the Department. The
Department included Additional Note No. 27, to disclose other data not contained in the
special-purpose financial statements, but which is necessary to make the special-purpose financial
statements more informative.

In our opinion, based on our audits and the report of the other auditor, the special-purpose
financial statements referred to above present fairly, in all material respects, the financial position
of the Department as of September 30, 2007 and 2006, and its net costs and changes in net
position for the years then ended in conformity with U.S. generally accepted accounting
principles and the presentation pursuant to the requirements of TFM Chapter 4700, as described
in Additional Note No. 27.

The Department also prepared Other Data Report Nos. 1 through 17, except for Other Data
Report Nos. 4 through 8, and 14 which were not applicable to the Department. The information
included in Section A in FR Notes Report No. 25, and Sections A and B in FR Notes Report Note
26, and the Other Data Report Nos. 1 through 3, 9 through 13, 15 through 17, is presented for the
purpose of additional analysis and is not a required part of the special-purpose financial
statements, but is supplementary information required by U.S. generally accepted accounting
principles and the TFM Chapter 4700. We, and the other auditor, have applied certain limited
procedures, which consisted principally of inquiries of management regarding the methods of
measurement and presentation of this information. However, we and the other auditor, did not
audit this supplementary information, and accordingly, we express no opinion on it.

The information entitled “Threshold” in FR Notes Report Nos. 2, 3, 4A, 6, 7, 9, 11, 14, 15, and
19, the information in the Closing Package Line Reclassification Summary Report – Balance
Sheet; the information in the Closing Package Line Reclassification Summary Reports –
Statement of Net Cost and Statement of Changes in Net Position, and the information in Closing
Package Line Reclassification Summary Report - Custodial Activity, is presented for purposes of
additional analysis and is not a required part of the special-purpose financial statements. This
information has not been subjected to the auditing procedures applied in the audits of the special-
purpose financial statements and, accordingly, we express no opinion on it.

The TFM Chapter 4700 requires agencies to use the Governmentwide Financial Reporting
System to input certain data as described in Additional Note No. 27. Except as discussed in this
report, we express no opinion on information maintained in that system.

In accordance with Government Auditing Standards and OMB Bulletin No. 07-04, we have also
issued a combined report dated November 14, 2007, which presents our opinion on the
Department’s consolidated financial statements; our consideration of the Department’s internal
controls over financial reporting and performance measures; and the results of our tests of its
compliance with certain provisions of laws, regulations, contracts, and grant agreements, and
other matters that are required to be reported under Government Auditing Standards. That report
is an integral part of the audits of the consolidated balance sheets of the Department as of
September 30, 2007 and 2006, the related consolidated statements of net cost, and changes in net
position, the combined statements of budgetary resources, and statements of custodial activity



                                                  2

(hereinafter collectively referred to as consolidated financial statements) for the years then ended,
performed in accordance with Government Auditing Standards and OMB Bulletin No. 07-04, and
should be read in conjunction with this report in considering the results of our audits of the
special-purpose financial statements. Our audit of the consolidated financial statements of the
Department as of and for the year ended September 30, 2007, disclosed the following material
weakness, significant deficiencies, and compliance and other matters:

Material Weakness

•   Financial Management Practices at the IRS (Repeat Condition)

Other Significant Deficiencies

•   Information System Controls (Repeat Condition)

•   Financial Management Practices at the Departmental Level

Compliance and Other Matters

Compliance

•   Noncompliance with Internal Revenue Code Section 6325

•   Noncompliance with Federal Information Security Management Act of 2002

•   Substantial Noncompliance with Federal Financial Management Improvement Act of 1996

Other Matters

•   Potential Anti-deficiency Act Violation

Management is responsible for establishing and maintaining effective internal control. In
planning and performing our audit of the fiscal year 2007 special-purpose financial statements,
we also considered the Department’s internal control over financial reporting by obtaining an
understanding of the Department’s internal control over the financial reporting process for the
special-purpose financial statements and performing tests of controls as a basis for designing our
auditing procedures for the purpose of expressing our opinion on the special-purpose financial
statements, but not for the purpose of expressing an opinion on the effectiveness of the
Department’s internal control over financial reporting. Accordingly, we do not express an
opinion on the effectiveness of the Department’s internal control over financial reporting.

Our consideration of internal control over the financial reporting process for the special-purpose
financial statements was for the limited purpose described in the preceding paragraph and would
not necessarily identify all deficiencies in the internal control over financial reporting for the
special-purpose financial statements that might be significant deficiencies or material weaknesses.

A control deficiency exists when the design or operation of a control does not allow management
or employees, in the normal course of performing their assigned functions, to prevent or detect
misstatements on a timely basis. A significant deficiency is a control deficiency, or combination
of control deficiencies, that adversely affects the Department’s ability to initiate, authorize,


                                                 3

record, process, or report financial data reliably in accordance with U.S. generally accepted
accounting principles such that there is more than a remote likelihood that a misstatement of the
Department’s consolidated special-purpose financial statements that is more than inconsequential
will not be prevented or detected by the Department’s internal control over financial reporting for
special-purpose financial statements. A material weakness is a significant deficiency, or
combination of significant deficiencies, that results in more than a remote likelihood that a
material misstatement of the consolidated special-purpose financial statements will not be
prevented or detected by the Department’s internal control.

In our fiscal year 2007 audit, we did not identify any deficiencies in internal control over
financial reporting for the special-purpose financial statements that we consider to be material
weaknesses as defined above.

Management is responsible for complying with laws, regulations (including TFM Chapter 4700),
contracts and grant agreements applicable to the Department. As part of obtaining reasonable
assurance about whether the Department’s fiscal year 2007 special-purpose financial statements
are free of material misstatement, we performed tests of its compliance with certain provisions of
laws, regulations, contracts, and grant agreements, noncompliance with which could have a direct
and material effect on the determination of financial statement amounts. However, providing an
opinion on compliance with those provisions or on compliance with TFM Chapter 4700
requirements was not an objective of our fiscal year 2007 audit of the special-purpose financial
statements and, accordingly, we do not express such an opinion.

The results of our tests of compliance with TFM Chapter 4700 disclosed no instances of
noncompliance or other matters that are required to be reported under Government Auditing
Standards or OMB Bulletin No. 07-04.

RESTRICTED USE

This report is intended solely for the information and use of the Department’s management, the
Department’s Office of Inspector General, U.S. Department of Treasury, OMB, and GAO, in
connection with the preparation and audit of the Financial Report of the U.S. Government, and is
not intended to be and should not be used by anyone other than these specified parties.




November 17, 2007




                                                4

             SECTION II

    DEPARTMENT OF THE TREASURY’S
SPECIAL-PURPOSE FINANCIAL STATEMENTS
   FOR FISCAL YEARS 2007 AND 2006
THIS PAGE INTENTIONALLY LEFT BLANK
                                                                                                                                                   11/14/2007
                                                                U.S Department of the Treasury
                                                                 Financial Management Service

                                                            Governmentwide Financial Report System


                                                       GF003F-Closing Package Financial Statement Report

Entity:       2000-Department of the Treasury                Fiscal Year:    2007                                    Period:   SEPTEMBER

                                                             Reported In:    MILLIONS                                Decimal: ZERO


Statement: BALANCE SHEET

          Amounts presented as debits and credits(-)

                                                       2007-SEPTEMBER                        2006-SEPTEMBER                       Previously Reported

          Assets:
          Non-Federal
          Cash and Other Monetary Assets                          107,757                                   81,496                            81,496
          Accounts and Taxes Receivable                            27,658                                   22,041                            22,041
          Loans Receivable                                            175                                      288                               288
          Inventory and Related Property                              638                                      389                               389
          Property, Plant and Equipment                             2,086                                    2,182                             2,182
          Securities and Investments                               10,074                                    9,325                             9,325
          Other Assets                                              5,540                                    5,510                             5,510
          Total Non-Federal Assets                                153,928                                  121,231                           121,231

          Federal
          Fund Balance with Treasury                               74,767                                   71,153                            71,153
          Federal Investments                                           0                                        0                                 0
          Accounts Receivable                                         466                                      483                               483
          Interest Receivable                                       1,516                                    1,971                             1,971
          Loans Receivable                                        245,474                                  252,867                           252,867
          Transfers Receivable                                          0                                        0                                 0
          Benefit Program Contributions                                 0                                        0                                 0
          Receivable
          Advances to Others and                                        32                                     78                                 78
          Prepayments
          Other Assets (without reciprocals)                     9,052,624                             8,540,195                           8,540,195
          Total Federal Assets                                   9,374,879                             8,866,747                           8,866,747
          Total Assets                                           9,528,807                             8,987,978                           8,987,978

          Liabilities




      I = Inactive                                                                  -1­
                                                                                                                                                     11/14/2007
                                                                U.S Department of the Treasury
                                                                 Financial Management Service

                                                            Governmentwide Financial Report System


                                                       GF003F-Closing Package Financial Statement Report

Entity:       2000-Department of the Treasury                Fiscal Year:        2007	                                Period:   SEPTEMBER

                                                             Reported In:        MILLIONS	                            Decimal: ZERO


Statement: BALANCE SHEET

          Amounts presented as debits and credits(-)

                                                       2007-SEPTEMBER	                         2006-SEPTEMBER                      Previously Reported

          Non-Federal
          Accounts Payable                                          (2,446)                                 (704)                                 (704)
          Federal Debt Securities Held by the                   (5,054,250)                           (4,844,074)                           (4,844,074)
          Public
          Federal Employee and Veteran                                (611)	                                  (635)                              (635)
          Benefits Payable
          Environmental and Disposal                                        0	                                    0                                  0
          Liabilities
          Benefits Due and Payable                                       0	                                    0                                     0
          Loan Guarantee Liabilities                                     0	                                    0                                     0
          Insurance Programs                                           (18)	                                 (13)                                  (13)
          Other Liabilities                                        (32,129)                              (33,704)                              (33,704)
          Total Non-Federal Liabilities                         (5,089,454)                           (4,879,130)                           (4,879,130)

          Federal
          Accounts Payable                                             (92)                                  (92)                                  (92)
          Federal Debt                                          (3,940,220)                           (3,641,439)                           (3,641,439)
          Interest Payable                                         (48,760)	                             (45,842)                              (45,842)
          Loans Payable                                                  0                                     0                                     0
          Transfers Payable                                              0                                     0                                     0
          Benefit Program Contributions                               (183)	                                (176)                                 (176)
          Payable
          Advances from Others and                                     (35)	                                    (36)                               (36)
          Deferred Credits
          Other Liabilities (without                              (328,964)	                               (306,349)                         (306,349)
          reciprocals)
          Total Federal Liabilities                             (4,318,254)	                          (3,993,934)                           (3,993,934)




      I = Inactive	                                                                      -2­
                                                                                                                                                  11/14/2007
                                                                U.S Department of the Treasury

                                                                 Financial Management Service

                                                            Governmentwide Financial Report System


                                                       GF003F-Closing Package Financial Statement Report

Entity:       2000-Department of the Treasury                Fiscal Year:     2007                                Period:   SEPTEMBER


                                                             Reported In:     MILLIONS                            Decimal: ZERO



Statement: BALANCE SHEET

          Amounts presented as debits and credits(-)

                                                       2007-SEPTEMBER                        2006-SEPTEMBER                    Previously Reported

          Total Liabilities                                     (9,407,708)                           (8,873,064)                        (8,873,064)

          Net Position
          Net Position-Non-Earmarked                               (85,514)                                (83,098)                        (83,098)
          Funds
          Net Position-Earmarked Funds                             (35,585)                                (31,816)                        (31,816)
I         Net Position-Earmarked Funds and                               0                                       0                               0
          General Government
          Total Net Position                                      (121,099)                             (114,914)                          (114,914)
          Total Liabilities and Net Position                    (9,528,807)                           (8,987,978)                        (8,987,978)




      I = Inactive                                                                   -3­
                                                                                                                                                   11/14/2007
                                                                U.S Department of the Treasury
                                                                 Financial Management Service

                                                            Governmentwide Financial Report System


                                                       GF003F-Closing Package Financial Statement Report

Entity:       2000-Department of the Treasury                Fiscal Year:       2007                                 Period:   SEPTEMBER

                                                             Reported In:       MILLIONS                             Decimal: ZERO


Statement: STATEMENT OF NET COST

          Amounts presented as debits and credits(-)

                                                       2007-SEPTEMBER                        2006-SEPTEMBER                       Previously Reported

          Gross Cost:
          Non-Federal Gross Cost                                   20,337                                   19,607                            19,607
          Interest on Debt Held by the Public                     238,896                                  221,527                           221,527
          Total Non-Federal Gross Cost                            259,233                                  241,134                           241,134

          Federal Gross Cost
          Benefit Program Costs                                     1,766                                    1,708                             1,708
          Imputed Costs                                               740                                      733                               733
          Buy/Sell Costs                                            1,550                                    1,625                             1,625
          Federal Securities Interest Expense                     193,909                                  182,584                           182,584
          Borrowing and Other Interest                              4,633                                    5,437                             5,437
          Expense
          Borrowing Losses                                             10                                        0                                 0
          Total Federal Gross Cost                                202,608                                  192,087                           192,087

          Department Total Gross Cost                             461,841                                  433,221                           433,221

          Earned Revenue
          Non-Federal Earned Revenue                                (6,334)                                 (4,136)                           (4,136)

          Federal Earned Revenue
          Benefit Program Revenue                                           0                                    0                                 0
          (exchange)
          Buy/Sell Revenue                                            (582)                                  (712)                              (712)
          Federal Securities Interest Revenue                            0                                      0                                  0
          (exchange)
          Borrowing and Other Interest                             (13,586)                                (14,526)                          (14,526)




      I = Inactive                                                                     -4­
                                                                                                                                                   11/14/2007
                                                                U.S Department of the Treasury

                                                                 Financial Management Service

                                                            Governmentwide Financial Report System


                                                       GF003F-Closing Package Financial Statement Report

Entity:       2000-Department of the Treasury                Fiscal Year:     2007                                   Period:   SEPTEMBER


                                                             Reported In:     MILLIONS                               Decimal: ZERO



Statement: STATEMENT OF NET COST

          Amounts presented as debits and credits(-)

                                                       2007-SEPTEMBER                        2006-SEPTEMBER                       Previously Reported

          Revenue (Exchange)
          Borrowings Gains                                             (18)                                    (12)                              (12)
          Other Revenue (without                                         0                                       0                                 0
          reciprocals)
          Total Federal Earned Revenue                             (14,186)                                (15,250)                          (15,250)

          Department Total Earned Revenue                          (20,520)                                (19,386)                          (19,386)

          Net Cost                                                441,321                                  413,835                           413,835




      I = Inactive                                                                   -5­
                                                                                                                                                     11/14/2007
                                                                U.S Department of the Treasury
                                                                 Financial Management Service

                                                            Governmentwide Financial Report System


                                                       GF003F-Closing Package Financial Statement Report

Entity:       2000-Department of the Treasury                Fiscal Year:       2007                                  Period:   SEPTEMBER

                                                             Reported In:       MILLIONS                              Decimal: ZERO


Statement: STATEMENT OF CHANGES IN NET POSITION

          Amounts presented as debits and credits(-)

                                                       2007-SEPTEMBER                        2006-SEPTEMBER                        Previously Reported

          Beginning Net Position                                  (114,914)                                (115,308)                         (115,308)
          Non-Federal Prior Period                                       0                                        0                                 0
          Adjustments (Not Restated)
          Federal Prior Period Adjustments                                  0                                     0                                  0
          (Not Restated)
          Adjusted Beginning Net Position                         (114,914)                                (115,308)                         (115,308)
          Balance

          Non-Federal Nonexchange
          Revenue
          Individual Income Tax and Tax                         (1,940,409)                           (1,789,023)                           (1,789,023)
          Witholdings
          Corporation Income Taxes                                (367,170)                             (349,963)                             (349,963)
          Unemployment Taxes                                        (7,289)                               (7,390)                               (7,390)
          Excise Taxes                                             (64,910)                              (71,704)                              (71,704)
          Estate and Gift Taxes                                    (26,009)                              (27,408)                              (27,408)
          Custom Duties                                                  0                                     0                                     0
          Other Taxes and Receipts                                 (40,194)                              (37,784)                              (37,784)
          Miscellaneous Earned Revenue                                   0                                    (1)                                   (1)
          Total Non-Federal Nonexchange                         (2,445,981)                           (2,283,273)                           (2,283,273)
          Revenue

          Federal Nonexchange Revenue
          Federal Securities Interest Revenue                            0                                        0                                  0
          Borrowing and other interest                                  (1)                                       0                                  0
          revenue
          Benefit Program Revenue                                           0                                     0                                  0




      I = Inactive                                                                     -6­
                                                                                                                                                    11/14/2007
                                                                U.S Department of the Treasury
                                                                 Financial Management Service

                                                            Governmentwide Financial Report System


                                                       GF003F-Closing Package Financial Statement Report

Entity:       2000-Department of the Treasury                Fiscal Year:       2007                                  Period:   SEPTEMBER

                                                             Reported In:       MILLIONS                              Decimal: ZERO


Statement: STATEMENT OF CHANGES IN NET POSITION

          Amounts presented as debits and credits(-)

                                                       2007-SEPTEMBER                        2006-SEPTEMBER                        Previously Reported

          (nonexchange)
          Other taxes and receipts                                       0                                        0                                 0
          Total Federal Nonexchange                                     (1)                                       0                                 0
          Revenue

          Budgetary Financing Sources:
          Appropriations received as adjusted                     (451,077)                                (417,488)                         (417,766)
          (rescissions and other adjustments)
          Appropriation of unavailable                                      0                                     0                                 0
          special or trust fund receipts
          transfers-in
          Appropriation of unavailable                                      0                                     0                                 0
          special or trust fund receipts
          transfers-out
          Nonexpenditure transfers-in of                               (27)                                     (14)                                0
          unexpended appropriations and
          financing sources
          Nonexpenditure transfers-out of                                   8                                    28                                 0
          unexpended appropriations and
          financing sources
          Expenditure transfers-in of                                  (11)                                       0                                 0
          financing sources
          Expenditure transfers-out of                                  11                                        0                                 0
          financing sources
I         Unexpended Appropriations                                         0                                     0                               (14)
          transferred in
I         Unexpended Appropriations                                         0                                     0                                 0




      I = Inactive                                                                     -7­
                                                                                                                                                    11/14/2007
                                                                U.S Department of the Treasury

                                                                 Financial Management Service

                                                            Governmentwide Financial Report System


                                                       GF003F-Closing Package Financial Statement Report

Entity:       2000-Department of the Treasury                Fiscal Year:       2007                                  Period:   SEPTEMBER

                                                             Reported In:       MILLIONS                              Decimal: ZERO


Statement: STATEMENT OF CHANGES IN NET POSITION

          Amounts presented as debits and credits(-)

                                                       2007-SEPTEMBER                        2006-SEPTEMBER                        Previously Reported

          transferred out
I         Other Adjustments (recissions, etc.)                           0                                     0                                  278
I         Appropriation transfers-in                                     0                                     0                                    0
I         Appropriation transfers-out                                    0                                     0                                   28
          Other Financing Sources                                2,450,288                             2,288,014                            2,288,014
          Total Budgetary Financing Sources                      1,999,192                             1,870,540                            1,870,540

          Other Financing Sources:
          Transfers-in Without                                              0                                    (1)                               (1)
          Reimbursement
          Transfers-out Without                                         24                                       25                                25
          Reimbursement
          Imputed Financing Source                                    (740)                                   (732)                              (732)
          Total Other Financing Sources                               (716)                                   (708)                              (708)


          Net Cost                                                441,321                                  413,835                            413,835

          Ending Net Position Balance                             (121,099)                                (114,914)                         (114,914)




      I = Inactive                                                                     -8­
                                                              U.S.Department of the Treasury                                          11/15/2007
                                                              Financial Management Service
                                                          Governmentwide Financial Report System

                                                       GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                           Fiscal Year: 2007                             Period: SEPTEMBER


Entity:     2000 - Department of the Treasury                      Reported in: MILLIONS                   Decimal Point: ZERO



Agency FS            CP Line Description                           Acct Type      NB                FY 2007-SEPTEMBER FY 2006-SEPTEMBER
 BS                  Accounts Receivable                           A              D                                466               483
                                                                                  Variance:                            0                    0


     TP     Trading Partner Name                    FY 2007-SEPTEMBER     FY 2006-SEPTEMBER              FY 2006­             FY 2006­
                                                                                                     SEPTEMBER Prev.       SEPTEMBER Line
                                                                                                           Rpt.               item chgs.
     1200   Department of Agriculture                                14                        14                   14                      0
     1300   Department of Commerce                                    0                         1                    1                      0
     1400   Department of the Interior                               49                        55                   55                      0
     1500   Department of Justice                                     2                         1                    1                      0
     1601   Department of Labor                                       1                         1                    1                      0
     1800   United States Postal Service                              6                         1                    1                      0
     1900   Department of State                                       1                         1                    1                      0
     2800   Social Security Administration                            3                         3                    3                      0
     3600   DEPARTMENT OF VETERANS                                   52                        56                   56                      0
            AFFAIRS
     4700   General Services Administration                         132                       101                  101                      0
     4900   National Science Foundation                               3                         0                    0                      0
     5000   Securities and Exchange Commission                        1                         0                    0                      0
     5100   Federal Deposit Insurance Corporation                     1                         1                    1                      0
     6800   Environmental Protection Agency                          18                        22                   22                      0
     6900   Department of Transportation                              1                         2                    2                      0
     7000   Department of Homeland Security                           8                        15                   15                      0
     7200   Agency for International Development                     11                        10                   10                      0
     7500   Department of Health and Human                           47                        48                   48                      0
            Services

             * I = Inactive                                                 -1­
                                                                 U.S.Department of the Treasury
                                         11/15/2007

                                                                 Financial Management Service

                                                             Governmentwide Financial Report System


                                                          GF004F - Trading Partner Summary Note Report


Statement: BALANCE SHEET                                               Fiscal Year: 2007                            Period: SEPTEMBER


Entity:     2000 - Department of the Treasury                          Reported in: MILLIONS                  Decimal Point: ZERO




     8600 Department of Housing and Urban                                1                         2                      2                    0
          Development
     8900 Department of Energy                                           6                         5                    5                      0
     9500 Independent and Other Agencies                                 4                         3                    3                      0
     9999 Unidentified                                                   0                         1                    1                      0
     DE00 Department of Defense                                        105                       140                  140                      0
                                      Total                            466                       483                  483                      0


Agency FS            CP Line Description                              Acct Type      NB                FY 2007-SEPTEMBER FY 2006-SEPTEMBER
 BS                  Advances to Others and Prepayments               A              D                                 32                78
                                                                                     Variance:                            0                    0


     TP     Trading Partner Name                   FY 2007-SEPTEMBER         FY 2006-SEPTEMBER              FY 2006­             FY 2006­
                                                                                                        SEPTEMBER Prev.       SEPTEMBER Line
                                                                                                              Rpt.               item chgs.
     1400 Department of the Interior                                    23                        60                   60                      0
     1500 Department of Justice                                          0                         3                    3                      0
     1800 United States Postal Service                                   1                         1                    1                      0
     3600 DEPARTMENT OF VETERANS                                         1                         0                    0                      0
          AFFAIRS
     4700 General Services Administration                                2                         6                      6                    0
     7300 Small Business Administration                                  0                         3                      3                    0


             * I = Inactive                                                    -2­
                                                              U.S.Department of the Treasury                                          11/15/2007
                                                              Financial Management Service
                                                          Governmentwide Financial Report System

                                                       GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                           Fiscal Year: 2007                              Period: SEPTEMBER


Entity:     2000 - Department of the Treasury                      Reported in: MILLIONS                    Decimal Point: ZERO




     9500 Independent and Other Agencies                              3                         3                      3                    0
     DE00 Department of Defense                                       2                         2                      2                    0
                                      Total                          32                        78                    78                     0



Agency FS            CP Line Description                           Acct Type      NB                FY 2007-SEPTEMBER FY 2006-SEPTEMBER
 BS                  Interest Receivable                           A              D                               1,516             1,971
                                                                                  Variance:                            0                    0


     TP     Trading Partner Name                    FY 2007-SEPTEMBER     FY 2006-SEPTEMBER              FY 2006­             FY 2006­
                                                                                                     SEPTEMBER Prev.       SEPTEMBER Line
                                                                                                           Rpt.               item chgs.
     1200   Department of Agriculture                               364                       708                   708                     0
     1400   Department of the Interior                              513                       663                   663                     0
     1800   United States Postal Service                              3                         0                     0                     0
     3600   DEPARTMENT OF VETERANS                                   27                         0                     0                     0
            AFFAIRS
     4700   General Services Administration                          38                        39                    39                     0
     5100   Federal Deposit Insurance Corporation                     1                         0                     0                     0
     6000   Railroad Retirement Board                                73                        72                    72                     0
     6400   Tennessee Valley Authority                                2                         1                     1                     0
     6900   Department of Transportation                              2                         5                     5                     0

             * I = Inactive                                                 -3­
                                                             U.S.Department of the Treasury                                              11/15/2007

                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                          Fiscal Year: 2007                                  Period: SEPTEMBER


Entity:     2000 - Department of the Treasury                     Reported in: MILLIONS                        Decimal Point: ZERO




     7000   Department of Homeland Security                        366                          354                    354                     0
     7200   Agency for International Development                    24                            0                      0                     0
     7300   Small Business Administration                            0                            1                      1                     0
     8600   Department of Housing and Urban                         96                          107                    107                     0
            Development
     8900   Department of Energy                                    (8)                           3                      3                     0
     9100   Department of Education                                  4                            2                      2                     0
     9500   Independent and Other Agencies                          10                           13                     13                     0
     DE00   Department of Defense                                    1                            3                      3                     0
                                       Total                     1,516                        1,971                  1,971                     0


Agency FS            CP Line Description                          Acct Type       NB                   FY 2007-SEPTEMBER FY 2006-SEPTEMBER
 BS                  Loans Receivable                             A               D                                 245,474           252,867
                                                                                  Variance:                               0                    0


     TP     Trading Partner Name                   FY 2007-SEPTEMBER      FY 2006-SEPTEMBER                 FY 2006­             FY 2006­
                                                                                                        SEPTEMBER Prev.       SEPTEMBER Line
                                                                                                              Rpt.               item chgs.
     1200 Department of Agriculture                             74,737                        83,044                83,044                     0
     1300 Department of Commerce                                   646                           422                   422                     0
     1400 Department of the Interior                               345                           394                   394                     0


             * I = Inactive                                                 -4­
                                                             U.S.Department of the Treasury                                    11/15/2007
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                          Fiscal Year:
 2007                       Period: SEPTEMBER


Entity:     2000 - Department of the Treasury                     Reported in:
 MILLIONS             Decimal Point: ZERO




     1500   Department of Justice                                   20                      20                20                  0
     1601   Department of Labor                                 10,057                   9,632             9,632                  0
     1800   United States Postal Service                         4,200                   2,100             2,100                  0
     1900   Department of State                                      2                       1                 1                  0
     2700   Federal Communications Commission                      106                     449               449                  0
     3600   DEPARTMENT OF VETERANS                               1,052                     982               982                  0
            AFFAIRS
     4700   General Services Administration                      2,151                   2,192             2,192                  0
     6000   Railroad Retirement Board                            2,945                   2,958             2,958                  0
     6800   Environmental Protection Agency                         16                      19                19                  0
     6900   Department of Transportation                         1,039                     834               834                  0
     7000   Department of Homeland Security                     17,786                  17,092            17,092                  0
     7200   Agency for International Development                   474                     474               474                  0
     7300   Small Business Administration                       11,383                   9,330             9,330                  0
     8300   Export-Import Bank of the United States              4,364                   4,911             4,911                  0
     8600   Department of Housing and Urban                      5,364                   7,142             7,142                  0
            Development
     8900   Department of Energy                                 2,241                   2,482             2,482                  0
     9100   Department of Education                            104,288                 105,678           105,678                  0
     9500   Independent and Other Agencies                       1,952                   2,332             2,332                  0
     DE00   Department of Defense                                  306                     379               379                  0
                                      Total                    245,474                 252,867           252,867                  0


             * I = Inactive                                               -5­
                                                                 U.S.Department of the Treasury                                           11/15/2007
                                                                 Financial Management Service
                                                             Governmentwide Financial Report System

                                                          GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                               Fiscal Year: 2007                              Period: SEPTEMBER


Entity:     2000 - Department of the Treasury                          Reported in: MILLIONS                    Decimal Point: ZERO



Agency FS            CP Line Description                              Acct Type       NB                FY 2007-SEPTEMBER FY 2006-SEPTEMBER
 BS                  Other Assets (without reciprocals)               A               D                             9,052,624         8,540,195
                                                                                      Variance:                            0                    0


     TP     Trading Partner Name                      FY 2007-SEPTEMBER       FY 2006-SEPTEMBER              FY 2006-             FY 2006­
                                                                                                         SEPTEMBER Prev.       SEPTEMBER Line
                                                                                                               Rpt.               item chgs.
     9900 Treasury General Fund                                   9,052,624                 8,540,195              8,540,195                    0
                                       Total                      9,052,624                 8,540,195              8,540,195                    0


Agency FS            CP Line Description                              Acct Type       NB                FY 2007-SEPTEMBER FY 2006-SEPTEMBER
 BS                  Accounts Payable                                 L               C                                 92                92
                                                                                      Variance:                            0                    0


     TP     Trading Partner Name                      FY 2007-SEPTEMBER       FY 2006-SEPTEMBER              FY 2006­             FY 2006­
                                                                                                         SEPTEMBER Prev.       SEPTEMBER Line
                                                                                                               Rpt.               item chgs.
     1200 Department of Agriculture                                     23                         0                      0                     0
     1500 Department of Justice                                         13                         4                      4                     0
     1601 Department of Labor                                           14                        16                     16                     0
     1800 United States Postal Service                                   2                         0                      0                     0
     1900 Department of State                                            0                        22                     22                     0
     2400 Office of Personnel Management                                 1                         1                      1                     0
     3600 DEPARTMENT OF VETERANS                                         2                         1                      1                     0
          AFFAIRS
     4700 General Services Administration                               11                        18                     18                     0

             * I = Inactive                                                     -6­
                                                                 U.S.Department of the Treasury                                           11/15/2007

                                                                 Financial Management Service
                                                             Governmentwide Financial Report System

                                                        GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                              Fiscal Year: 2007                              Period: SEPTEMBER


Entity:     2000 - Department of the Treasury                         Reported in: MILLIONS                    Decimal Point: ZERO




     7000 Department of Homeland Security                              11                        14                     14                      0
     7500 Department of Health and Human                                9                        11                     11                      0
          Services
     9100 Department of Education                                       4                          4                     4                      0
     9500 Independent and Other Agencies                                1                          4                     4                      0
     9999 Unidentified                                                  0                         (4)                   (4)                     0
     DE00 Department of Defense                                         1                          1                     1                      0
                                      Total                           (92)                       (92)                  (92)                     0


Agency FS            CP Line Description                             Acct Type       NB                 FY 2007-SEPTEMBER FY 2006-SEPTEMBER
 BS                  Advances from Others and Deferred Credits       L               C                                  35                36
                                                                                     Variance:                             0                    0


     TP     Trading Partner Name                    FY 2007-SEPTEMBER        FY 2006-SEPTEMBER               FY 2006­             FY 2006­
                                                                                                         SEPTEMBER Prev.       SEPTEMBER Line
                                                                                                               Rpt.               item chgs.
     1500   Department of Justice                                       7                        10                     10                      0
     1900   Department of State                                         4                         3                      3                      0
     4700   General Services Administration                             1                         1                      1                      0
     7000   Department of Homeland Security                             8                         8                      8                      0
     7200   Agency for International Development                       11                        10                     10                      0


             * I = Inactive                                                    -7­
                                                                 U.S.Department of the Treasury                                            11/15/2007
                                                                 Financial Management Service
                                                             Governmentwide Financial Report System

                                                        GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                              Fiscal Year: 2007                               Period: SEPTEMBER


Entity:     2000 - Department of the Treasury                         Reported in: MILLIONS                     Decimal Point: ZERO




     8600 Department of Housing and Urban                               2                           2                       2                    0
          Development
     9500 Independent and Other Agencies                                2                           2                       2                    0
                                      Total                           (35)                        (36)                  (36)                     0


Agency FS            CP Line Description                             Acct Type       NB                  FY 2007-SEPTEMBER FY 2006-SEPTEMBER
 BS                  Benefit Program Contributions Payable           L               C                                  183               176
                                                                                     Variance:                              0                    0


     TP     Trading Partner Name                    FY 2007-SEPTEMBER        FY 2006-SEPTEMBER                FY 2006-             FY 2006­
                                                                                                          SEPTEMBER Prev.       SEPTEMBER Line
                                                                                                                Rpt.               item chgs.
     1601 Department of Labor                                         120                        117                    117                      0
     2400 Office of Personnel Management                               45                         45                     45                      0
     9900 Treasury General Fund                                        18                         14                     14                      0
                                      Total                          (183)                       (176)                 (176)                     0




             * I = Inactive                                                    -8­
                                                              U.S.Department of the Treasury                                              11/15/2007
                                                              Financial Management Service
                                                          Governmentwide Financial Report System

                                                       GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                            Fiscal Year: 2007                                 Period: SEPTEMBER


Entity:     2000 - Department of the Treasury                       Reported in: MILLIONS                       Decimal Point: ZERO



Agency FS            CP Line Description                           Acct Type       NB                   FY 2007-SEPTEMBER FY 2006-SEPTEMBER
 BS                  Federal Debt                                  L               C                                3,940,220         3,641,439
                                                                                   Variance:                               0                    0


     TP     Trading Partner Name                    FY 2007-SEPTEMBER      FY 2006-SEPTEMBER                 FY 2006-             FY 2006­
                                                                                                         SEPTEMBER Prev.       SEPTEMBER Line
                                                                                                               Rpt.               item chgs.
     1200   Department of Agriculture                                94                            82                    82                     0
     1400   Department of the Interior                            7,228                         8,670                 8,670                     0
     1500   Department of Justice                                 1,886                         1,246                 1,246                     0
     1601   Department of Labor                                  75,131                        66,455                66,455                     0
     1602   PENSION BENEFIT GUARANTY                             14,523                        15,150                15,150                     0
            CORPORATION
     1800   United States Postal Service                             979                     4,232                     4,232                    0
     1900   Department of State                                   14,412                    13,910                    13,910                    0
     2400   Office of Personnel Management                       775,580                   735,801                   735,801                    0
     2500   National Credit Union Administration                   7,142                     6,765                     6,765                    0
     2700   Federal Communications Commission                      4,950                     4,418                     4,418                    0
     2800   Social Security Administration                     2,182,091                 1,995,307                 1,995,307                    0
     3600   DEPARTMENT OF VETERANS                                12,247                    12,683                    12,683                    0
            AFFAIRS
     5100   Federal Deposit Insurance Corporation                53,745                    51,640                    51,640                     0
     6000   Railroad Retirement Board                             1,970                     1,893                     1,893                     0
     6800   Environmental Protection Agency                       5,710                     5,328                     5,328                     0
     6900   Department of Transportation                         21,057                    19,625                    19,625                     0
     7000   Department of Homeland Security                       2,778                       634                       634                     0
     7500   Department of Health and Human                      361,291                   337,665                   337,665                     0

             * I = Inactive                                                  -9­
                                                          U.S.Department of the Treasury                                                  11/15/2007

                                                          Financial Management Service
                                                      Governmentwide Financial Report System

                                                   GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                        Fiscal Year: 2007                                    Period: SEPTEMBER


Entity:     2000 - Department of the Treasury                   Reported in: MILLIONS                          Decimal Point: ZERO




            Services
     7802   Farm Credit System Insurance                       2,369                          2,107                   2,107                     0
            Corporation
     8000   National Aeronautics and Space                        17                             17                      17                     0
            Administration
     8600   Department of Housing and Urban                  30,955                           30,170                30,170                      0
            Development
     8900   Department of Energy                             26,758                       25,050                    25,050                      0
     9500   Independent and Other Agencies                    7,457                        7,173                     7,173                      0
     DE00   Department of Defense                           329,850                      295,418                   295,418                      0
                                       Total              (3,940,220)                  (3,641,439)               (3,641,439)                    0


Agency FS            CP Line Description                        Acct Type         NB                   FY 2007-SEPTEMBER FY 2006-SEPTEMBER
 BS                  Interest Payable                           L                 C                                  48,760            45,842
                                                                                  Variance:                               0                     0


     TP     Trading Partner Name                FY 2007-SEPTEMBER       FY 2006-SEPTEMBER                   FY 2006­              FY 2006­
                                                                                                        SEPTEMBER Prev.        SEPTEMBER Line
                                                                                                              Rpt.                item chgs.
     1200 Department of Agriculture                                1                              1                       1                     0
     1300 Department of Commerce                                   1                              0                       0                     0
     1400 Department of the Interior                              23                             44                      44                     0


             * I = Inactive                                              - 10 ­
                                                         U.S.Department of the Treasury                                    11/15/2007
                                                         Financial Management Service
                                                     Governmentwide Financial Report System

                                                  GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                      Fiscal Year:
 2007                       Period: SEPTEMBER


Entity:    2000 - Department of the Treasury                  Reported in:
 MILLIONS             Decimal Point: ZERO




     1500 Department of Justice                                  2                       2                 2                  0
     1601 Department of Labor                                  883                     745               745                  0
     1602 PENSION BENEFIT GUARANTY                               1                      15                15                  0
          CORPORATION
     1800 United States Postal Service                           0                      1                  1                  0
     1900 Department of State                                  195                    192                192                  0
     2400 Office of Personnel Management                     9,817                  9,541              9,541                  0
     2500 National Credit Union Administration                  69                     55                 55                  0
     2700 Federal Communications Commission                     24                     11                 11                  0
     2800 Social Security Administration                    27,726                 25,630             25,630                  0
     3600 DEPARTMENT OF VETERANS                               207                    191                191                  0
          AFFAIRS
     5100 Federal Deposit Insurance Corporation                681                   681                 681                  0
     6000 Railroad Retirement Board                             12                    11                  11                  0
     6800 Environmental Protection Agency                       43                    39                  39                  0
     6900 Department of Transportation                          87                    85                  85                  0
     7000 Department of Homeland Security                       23                     4                   4                  0
     7500 Department of Health and Human                     4,582                 4,310               4,310                  0
          Services
     7802 Farm Credit System Insurance                          15                      17                17                  0
          Corporation
     8600 Department of Housing and Urban                      315                     255               255                  0
          Development
     8900 Department of Energy                                 119                     115               115                  0


            * I = Inactive                                            - 11 ­
                                                                      U.S.Department of the Treasury                                                11/15/2007
                                                                      Financial Management Service
                                                                  Governmentwide Financial Report System

                                                               GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                                    Fiscal Year: 2007                                   Period: SEPTEMBER


Entity:     2000 - Department of the Treasury                               Reported in: MILLIONS                         Decimal Point: ZERO




     9500 Independent and Other Agencies                                      73                             68                    68                     0
     DE00 Department of Defense                                            3,861                          3,829                 3,829                     0
                                        Total                            (48,760)                     (45,842)                (45,842)                    0



Agency FS            CP Line Description                                    Acct Type         NB                  FY 2007-SEPTEMBER FY 2006-SEPTEMBER
 BS                  Other Liabilities (without reciprocals)                L                 C                                328,964           306,349
                                                                                              Variance:                              0                    0


     TP     Trading Partner Name                       FY 2007-SEPTEMBER            FY 2006-SEPTEMBER                  FY 2006­             FY 2006­
                                                                                                                   SEPTEMBER Prev.       SEPTEMBER Line
                                                                                                                         Rpt.               item chgs.
     1400   Department of the Interior                                        0                            1                        1                     0
     4700   General Services Administration                                  (4)                          (2)                      (2)                    0
     7000   Department of Homeland Security                                   0                           (1)                      (1)                    0
     9500   Independent and Other Agencies                                   (3)                          (1)                      (1)                    0
     9900   Treasury General Fund                                       328,973                      306,352                  306,352                     0
     9999   Unidentified                                                     (2)                          (1)                      (1)                    0
     DE00   Department of Defense                                             0                            1                        1                     0
                                        Total                           (328,964)                    (306,349)               (306,349)                    0



             * I = Inactive                                                          - 12 ­
                                                                 U.S.Department of the Treasury                                                11/15/2007
                                                                 Financial Management Service
                                                             Governmentwide Financial Report System

                                                         GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                        Fiscal Year: 2007                                  Period: SEPTEMBER


Entity:     2000 - Department of the Treasury                           Reported in: MILLIONS                        Decimal Point: ZERO



Agency FS            CP Line Description                                Acct Type        NB                  FY 2007-SEPTEMBER FY 2006-SEPTEMBER
 NCS                 Borrowing and Other Interest Revenue (Exchange)    ER               C                                 13,586            14,526
                                                                                         Variance:                              0                    0


     TP     Trading Partner Name                      FY 2007-SEPTEMBER        FY 2006-SEPTEMBER                  FY 2006­             FY 2006­
                                                                                                              SEPTEMBER Prev.       SEPTEMBER Line
                                                                                                                    Rpt.               item chgs.
     1200   Department of Agriculture                                  4,270                         4,429                 4,429                     0
     1300   Department of Commerce                                        24                            21                    21                     0
     1400   Department of the Interior                                     8                             9                     9                     0
     1601   Department of Labor                                          717                           695                   695                     0
     1800   United States Postal Service                                   5                             0                     0                     0
     2700   Federal Communications Commission                             30                            98                    98                     0
     3600   DEPARTMENT OF VETERANS                                        77                           102                   102                     0
            AFFAIRS
     4700   General Services Administration                             146                           148                    148                     0
     6000   Railroad Retirement Board                                   180                           173                    173                     0
     6400   Tennessee Valley Authority                                    7                             5                      5                     0
     6800   Environmental Protection Agency                               1                             1                      1                     0
     6900   Department of Transportation                                 44                            45                     45                     0
     7000   Department of Homeland Security                             743                           533                    533                     0
     7200   Agency for International Development                         25                            24                     24                     0
     7300   Small Business Administration                               603                           537                    537                     0
     8300   Export-Import Bank of the United States                     307                           317                    317                     0
     8600   Department of Housing and Urban                             473                           567                    567                     0
            Development
     8900   Department of Energy                                         52                            81                     81                     0

             * I = Inactive                                                     - 13 ­
                                                          U.S.Department of the Treasury                                               11/15/2007
                                                          Financial Management Service
                                                      Governmentwide Financial Report System

                                                   GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                               Fiscal Year: 2007                                  Period: SEPTEMBER


Entity:     2000 - Department of the Treasury                  Reported in: MILLIONS                        Decimal Point: ZERO




     9100 Department of Education                             5,693                          6,519                6,519                      0
     9500 Independent and Other Agencies                        159                            191                  191                      0
     DE00 Department of Defense                                  22                             31                   31                      0
                                      Total                 (13,586)                     (14,526)               (14,526)                     0


Agency FS            CP Line Description                       Acct Type         NB                  FY 2007-SEPTEMBER FY 2006-SEPTEMBER
 NCS                 Borrowings Gains                          ER                C                                   18                12
                                                                                 Variance:                              0                    0


     TP     Trading Partner Name                FY 2007-SEPTEMBER      FY 2006-SEPTEMBER                  FY 2006­             FY 2006­
                                                                                                      SEPTEMBER Prev.       SEPTEMBER Line
                                                                                                            Rpt.               item chgs.
     1200 Department of Agriculture                              17                             4                       4                    0
     DE00 Department of Defense                                   1                             8                       8                    0
                                      Total                     (18)                          (12)                  (12)                     0




             * I = Inactive                                             - 14 ­
                                                              U.S.Department of the Treasury                                           11/15/2007
                                                              Financial Management Service
                                                          Governmentwide Financial Report System

                                                       GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                   Fiscal Year: 2007                              Period: SEPTEMBER


Entity:     2000 - Department of the Treasury                      Reported in: MILLIONS                    Decimal Point: ZERO



Agency FS            CP Line Description                           Acct Type        NB               FY 2007-SEPTEMBER FY 2006-SEPTEMBER
 NCS                 Buy/Sell Revenue                              ER               C                               582               712
                                                                                    Variance:                           0                    0


     TP     Trading Partner Name                    FY 2007-SEPTEMBER     FY 2006-SEPTEMBER               FY 2006­             FY 2006­
                                                                                                      SEPTEMBER Prev.       SEPTEMBER Line
                                                                                                            Rpt.               item chgs.
     1200   Department of Agriculture                                13                         13                   13                      0
     1300   Department of Commerce                                    4                          5                    5                      0
     1400   Department of the Interior                                5                          6                    6                      0
     1500   Department of Justice                                    22                         34                   34                      0
     1601   Department of Labor                                       3                          3                    3                      0
     1800   United States Postal Service                              0                          3                    3                      0
     1900   Department of State                                       7                          7                    7                      0
     2400   Office of Personnel Management                            1                          2                    2                      0
     2800   Social Security Administration                          101                         98                   98                      0
     3600   DEPARTMENT OF VETERANS                                   17                         25                   25                      0
            AFFAIRS
     4700   General Services Administration                           3                          3                    3                      0
     4900   National Science Foundation                               1                          1                    1                      0
     5000   Securities and Exchange Commission                        4                          2                    2                      0
     5100   Federal Deposit Insurance Corporation                     3                          5                    5                      0
     6000   Railroad Retirement Board                                 1                          1                    1                      0
     6800   Environmental Protection Agency                           1                          2                    2                      0
     6900   Department of Transportation                              1                          1                    1                      0
     7000   Department of Homeland Security                          34                         46                   46                      0


             * I = Inactive                                                - 15 ­
                                                        U.S.Department of the Treasury                                    11/15/2007

                                                        Financial Management Service
                                                    Governmentwide Financial Report System

                                                 GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                             Fiscal Year: 2007                        Period: SEPTEMBER


Entity:    2000 - Department of the Treasury                 Reported in: MILLIONS              Decimal Point: ZERO




     7200 Agency for International Development                 29                     34                 34                  0
     7300 Small Business Administration                         1                      1                  1                  0
     7500 Department of Health and Human                       99                    108                108                  0
          Services
     8000 National Aeronautics and Space                        0                       1                 1                  0
          Administration
     8600 Department of Housing and Urban                      12                      12                12                  0
          Development
     8900 Department of Energy                                  0                      1                  1                  0
     9100 Department of Education                               1                      1                  1                  0
     9500 Independent and Other Agencies                       27                     22                 22                  0
     DE00 Department of Defense                               192                    275                275                  0
                                     Total                   (582)                   (712)             (712)                 0




            * I = Inactive                                           - 16 ­
                                                          U.S.Department of the Treasury                                              11/15/2007
                                                          Financial Management Service
                                                      Governmentwide Financial Report System

                                                   GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                               Fiscal Year: 2007                                  Period: SEPTEMBER


Entity:     2000 - Department of the Treasury                  Reported in: MILLIONS                        Decimal Point: ZERO



Agency FS            CP Line Description                       Acct Type        NB                  FY 2007-SEPTEMBER FY 2006-SEPTEMBER
 NCS                 Benefit Program Costs                     GC               D                                 1,766             1,708
                                                                                Variance:                              0                    0


     TP     Trading Partner Name                FY 2007-SEPTEMBER     FY 2006-SEPTEMBER                  FY 2006­             FY 2006­
                                                                                                     SEPTEMBER Prev.       SEPTEMBER Line
                                                                                                           Rpt.               item chgs.
     1601   Department of Labor                                  88                            99                    99                     0
     2400   Office of Personnel Management                    1,276                         1,230                 1,230                     0
     6900   Department of Transportation                          1                             1                     1                     0
     9900   Treasury General Fund                               401                           378                   378                     0
                                      Total                   1,766                         1,708                 1,708                     0


Agency FS            CP Line Description                       Acct Type        NB                  FY 2007-SEPTEMBER FY 2006-SEPTEMBER
 NCS                 Borrowing Losses                          GC               D                                   10                 0
                                                                                Variance:                              0                    0


     TP     Trading Partner Name                FY 2007-SEPTEMBER     FY 2006-SEPTEMBER                  FY 2006­             FY 2006­
                                                                                                     SEPTEMBER Prev.       SEPTEMBER Line
                                                                                                           Rpt.               item chgs.
     1200 Department of Agriculture                              10                             0                      0                    0
                                      Total                      10                             0                      0                    0




             * I = Inactive                                            - 17 ­
                                                                U.S.Department of the Treasury                                              11/15/2007
                                                                Financial Management Service
                                                            Governmentwide Financial Report System

                                                         GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                     Fiscal Year: 2007                                  Period: SEPTEMBER


Entity:     2000 - Department of the Treasury                        Reported in: MILLIONS                        Decimal Point: ZERO



Agency FS            CP Line Description                             Acct Type        NB                  FY 2007-SEPTEMBER FY 2006-SEPTEMBER
 NCS                 Borrowing and Other Interest Expense            GC               D                                 4,633             5,437
                                                                                      Variance:                              0                    0


     TP     Trading Partner Name                      FY 2007-SEPTEMBER     FY 2006-SEPTEMBER                  FY 2006­             FY 2006­
                                                                                                           SEPTEMBER Prev.       SEPTEMBER Line
                                                                                                                 Rpt.               item chgs.
     1200   Department of Agriculture                                 466                          818                    818                     0
     1300   Department of Commerce                                      2                            6                      6                     0
     1400   Department of the Interior                                  8                            6                      6                     0
     2700   Federal Communications Commission                          26                           53                     53                     0
     3600   DEPARTMENT OF VETERANS                                    160                          256                    256                     0
            AFFAIRS
     6900   Department of Transportation                               25                           29                     29                     0
     7000   Department of Homeland Security                             6                            6                      6                     0
     7200   Agency for International Development                       89                           77                     77                     0
     7300   Small Business Administration                             329                          379                    379                     0
     7500   Department of Health and Human                              6                            9                      9                     0
            Services
     8300   Export-Import Bank of the United States                    97                          149                    149                     0
     8600   Department of Housing and Urban                           490                          546                    546                     0
            Development
     9100   Department of Education                                 2,867                         3,035                 3,035                     0
     9500   Independent and Other Agencies                             59                            64                    64                     0
     9900   Treasury General Fund                                       1                             0                     0                     0
     DE00   Department of Defense                                       2                             4                     4                     0
                                      Total                         4,633                         5,437                 5,437                     0


             * I = Inactive                                                  - 18 ­
                                                          U.S.Department of the Treasury                                            11/15/2007
                                                          Financial Management Service
                                                      Governmentwide Financial Report System

                                                   GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                               Fiscal Year: 2007                                Period: SEPTEMBER


Entity:     2000 - Department of the Treasury                  Reported in: MILLIONS                      Decimal Point: ZERO




Agency FS            CP Line Description                       Acct Type        NB                FY 2007-SEPTEMBER FY 2006-SEPTEMBER
 NCS                 Buy/Sell Costs                            GC               D                               1,550             1,625
                                                                                Variance:                            0                    0


     TP     Trading Partner Name                FY 2007-SEPTEMBER     FY 2006-SEPTEMBER                FY 2006­             FY 2006­
                                                                                                   SEPTEMBER Prev.       SEPTEMBER Line
                                                                                                         Rpt.               item chgs.
     1200   Department of Agriculture                            19                         137                   137                     0
     1300   Department of Commerce                                3                           4                     4                     0
     1400   Department of the Interior                           25                           9                     9                     0
     1500   Department of Justice                                 6                          13                    13                     0
     1601   Department of Labor                                  21                          22                    22                     0
     1800   United States Postal Service                        272                         254                   254                     0
     1900   Department of State                                  14                          14                    14                     0
     2400   Office of Personnel Management                       26                          42                    42                     0
     3600   DEPARTMENT OF VETERANS                                1                           0                     0                     0
            AFFAIRS

             * I = Inactive                                            - 19 ­
                                                             U.S.Department of the Treasury                                    11/15/2007
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                  Fiscal Year: 2007                        Period: SEPTEMBER


Entity:     2000 - Department of the Treasury                     Reported in: MILLIONS              Decimal Point: ZERO




     4700   General Services Administration                        813                    809                809                  0
     5100   Federal Deposit Insurance Corporation                    1                      0                  0                  0
     6800   Environmental Protection Agency                          2                      1                  1                  0
     6900   Department of Transportation                            21                     22                 22                  0
     7000   Department of Homeland Security                        153                    130                130                  0
     7200   Agency for International Development                    16                     22                 22                  0
     7300   Small Business Administration                            4                      0                  0                  0
     7500   Department of Health and Human                          17                     19                 19                  0
            Services
     8300   Export-Import Bank of the United States                  1                      0                  0                  0
     8900   Department of Energy                                     3                      3                  3                  0
     9500   Independent and Other Agencies                         117                    117                117                  0
     DE00   Department of Defense                                   15                      7                  7                  0
                                      Total                      1,550                1,625                1,625                  0




             * I = Inactive                                              - 20 ­
                                                                  U.S.Department of the Treasury                                               11/15/2007
                                                                  Financial Management Service
                                                              Governmentwide Financial Report System

                                                           GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                       Fiscal Year: 2007                                   Period: SEPTEMBER


Entity:     2000 - Department of the Treasury                          Reported in: MILLIONS                         Decimal Point: ZERO



Agency FS            CP Line Description                               Acct Type        NB                   FY 2007-SEPTEMBER FY 2006-SEPTEMBER
 NCS                 Federal Securities Interest Expense               GC               D                                 193,909           182,584
                                                                                        Variance:                               0                    0


     TP     Trading Partner Name                      FY 2007-SEPTEMBER       FY 2006-SEPTEMBER                   FY 2006­             FY 2006­
                                                                                                              SEPTEMBER Prev.       SEPTEMBER Line
                                                                                                                    Rpt.               item chgs.
     1200   Department of Agriculture                                     7                             6                      6                     0
     1400   Department of the Interior                                  334                           329                    329                     0
     1500   Department of Justice                                       141                            54                     54                     0
     1601   Department of Labor                                       3,355                         2,776                  2,776                     0
     1602   PENSION BENEFIT GUARANTY                                    313                          (348)                  (348)                    0
            CORPORATION
     1800   United States Postal Service                                170                            140                   140                     0
     1900   Department of State                                         778                            767                   767                     0
     2400   Office of Personnel Management                           39,498                         38,396                38,396                     0
     2500   National Credit Union Administration                        316                            245                   245                     0
     2700   Federal Communications Commission                           295                            235                   235                     0
     2800   Social Security Administration                          108,099                         99,315                99,315                     0
     3600   DEPARTMENT OF VETERANS                                      747                            791                   791                     0
            AFFAIRS
     5100   Federal Deposit Insurance Corporation                     2,592                          2,588                 2,588                     0
     6000   Railroad Retirement Board                                    79                             86                    86                     0
     6800   Environmental Protection Agency                             259                            207                   207                     0
     6900   Department of Transportation                                510                            509                   509                     0
     7000   Department of Homeland Security                             108                             27                    27                     0
     7500   Department of Health and Human                           18,473                         17,228                17,228                     0

             * I = Inactive                                                    - 21 ­
                                                          U.S.Department of the Treasury                                               11/15/2007

                                                          Financial Management Service
                                                      Governmentwide Financial Report System

                                                   GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                               Fiscal Year: 2007                                  Period: SEPTEMBER


Entity:     2000 - Department of the Treasury                  Reported in: MILLIONS                        Decimal Point: ZERO




            Services
     7802   Farm Credit System Insurance                         98                            85                    85                      0
            Corporation
     8000   National Aeronautics and Space                        1                             1                       1                    0
            Administration
     8600   Department of Housing and Urban                   1,405                         1,527                 1,527                      0
            Development
     8900   Department of Energy                              1,003                            693                  693                      0
     9500   Independent and Other Agencies                      352                            316                  316                      0
     DE00   Department of Defense                            14,976                         16,611               16,611                      0
                                      Total                 193,909                    182,584                  182,584                      0


Agency FS            CP Line Description                       Acct Type        NB                   FY 2007-SEPTEMBER FY 2006-SEPTEMBER
 NCS                 Imputed Costs                             GC               D                                   740               733
                                                                                Variance:                               0                    0


     TP     Trading Partner Name                FY 2007-SEPTEMBER     FY 2006-SEPTEMBER                   FY 2006-             FY 2006­
                                                                                                      SEPTEMBER Prev.       SEPTEMBER Line
                                                                                                            Rpt.               item chgs.
     2400 Office of Personnel Management                        740                           733                   733                      0
                                      Total                     740                           733                   733                      0



             * I = Inactive                                            - 22 ­
                                                               U.S.Department of the Treasury                                          11/15/2007
                                                               Financial Management Service
                                                           Governmentwide Financial Report System

                                                       GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF CHANGES IN NET POSITION                     Fiscal Year: 2007                             Period: SEPTEMBER


Entity:     2000 - Department of the Treasury                       Reported in: MILLIONS                   Decimal Point: ZERO



Agency FS            CP Line Description                           Acct Type        NB               FY 2007-SEPTEMBER FY 2006-SEPTEMBER
 SCNP         I      Appropriation transfers-out                   CF               D                                 0                 0
                                                                                    Variance:                           0                     0


     TP     Trading Partner Name                   FY 2007-SEPTEMBER      FY 2006-SEPTEMBER               FY 2006­             FY 2006­
                                                                                                      SEPTEMBER Prev.       SEPTEMBER Line
                                                                                                            Rpt.               item chgs.
     7500 Department of Health and Human                              0                          0                      1                    (1)
          Services
     9900 Treasury General Fund                                       0                          0                   27                  (27)
                                       Total                          0                          0                   28                  (28)


Agency FS            CP Line Description                           Acct Type        NB               FY 2007-SEPTEMBER FY 2006-SEPTEMBER
 SCNP                Transfers-out Without Reimbursement           CF               D                                24                25
                                                                                    Variance:                           0                     0


     TP     Trading Partner Name                   FY 2007-SEPTEMBER      FY 2006-SEPTEMBER               FY 2006­             FY 2006­
                                                                                                      SEPTEMBER Prev.       SEPTEMBER Line
                                                                                                            Rpt.               item chgs.
     7000 Department of Homeland Security                            24                         23                   23                       0
     9500 Independent and Other Agencies                              0                          2                    2                       0
                                       Total                         24                         25                   25                       0




             * I = Inactive                                                - 23 ­
                                                                    U.S.Department of the Treasury                                              11/15/2007
                                                                    Financial Management Service
                                                                Governmentwide Financial Report System

                                                           GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF CHANGES IN NET POSITION                          Fiscal Year: 2007                                 Period: SEPTEMBER


Entity:     2000 - Department of the Treasury                            Reported in: MILLIONS                       Decimal Point: ZERO



Agency FS            CP Line Description                                Acct Type         NB                  FY 2007-SEPTEMBER FY 2006-SEPTEMBER
 SCNP                Expenditure transfers-in of financing sources      F                 C                                   11                 0
                                                                                          Variance:                              0                    0


     TP     Trading Partner Name                      FY 2007-SEPTEMBER         FY 2006-SEPTEMBER                  FY 2006-             FY 2006­
                                                                                                               SEPTEMBER Prev.       SEPTEMBER Line
                                                                                                                     Rpt.               item chgs.
     9900 Treasury General Fund                                           11                             0                       0                    0
                                       Total                             (11)                            0                       0                    0


Agency FS            CP Line Description                                Acct Type         NB                  FY 2007-SEPTEMBER FY 2006-SEPTEMBER
 SCNP                Imputed Financing Source                           F                 C                                  740               732
                                                                                          Variance:                              0                    0


     TP     Trading Partner Name                      FY 2007-SEPTEMBER         FY 2006-SEPTEMBER                  FY 2006­             FY 2006­
                                                                                                               SEPTEMBER Prev.       SEPTEMBER Line
                                                                                                                     Rpt.               item chgs.
     2400 Office of Personnel Management                                 740                          732                    732                      0
                                       Total                            (740)                         (732)                 (732)                     0




             * I = Inactive                                                      - 24 ­
                                                                 U.S.Department of the Treasury                                             11/15/2007
                                                                 Financial Management Service
                                                             Governmentwide Financial Report System

                                                         GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF CHANGES IN NET POSITION                       Fiscal Year: 2007                                 Period: SEPTEMBER


Entity:     2000 - Department of the Treasury                         Reported in: MILLIONS                       Decimal Point: ZERO



Agency FS            CP Line Description	                            Acct Type         NB                 FY 2007-SEPTEMBER FY 2006-SEPTEMBER
 SCNP                Nonexpenditure transfers-in of unexpended       F                 C                                  27                14
                     appropriations and financing sources
                                                                                       Variance:                             0                     0


     TP                                                                      FY 2006-SEPTEMBER                 FY 2006­             FY 2006­
            Trading Partner Name                    FY 2007-SEPTEMBER                                      SEPTEMBER Prev.       SEPTEMBER Line
                                                                                                                 Rpt.               item chgs.
     7200 Agency for International Development                         22                          14                        0                14
     9500 Independent and Other Agencies                                5                           0                        0                 0
                                      Total                           (27)                         (14)                      0                14


Agency FS            CP Line Description	                            Acct Type         NB                 FY 2007-SEPTEMBER FY 2006-SEPTEMBER
 SCNP	               Nonexpenditure transfers-out of unexpended      F                 C                                  (8)              (28)
                     appropriations and financing sources
                                                                                       Variance:                             0                     0


     TP                                                                      FY 2006-SEPTEMBER                 FY 2006­             FY 2006­
            Trading Partner Name                    FY 2007-SEPTEMBER                                      SEPTEMBER Prev.       SEPTEMBER Line
                                                                                                                 Rpt.               item chgs.
     7500 Department of Health and Human                                0                           (1)                      0                    (1)
          Services
     9900 Treasury General Fund                                        (8)                         (27)                      0                (27)
                                      Total                             8                          28                        0                (28)




             * I = Inactive	                                                  - 25 ­
                                                                 U.S.Department of the Treasury                                                 11/15/2007
                                                                 Financial Management Service
                                                             Governmentwide Financial Report System

                                                          GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF CHANGES IN NET POSITION                       Fiscal Year: 2007                                     Period: SEPTEMBER


Entity:     2000 - Department of the Treasury                         Reported in: MILLIONS                           Decimal Point: ZERO



Agency FS            CP Line Description                              Acct Type         NB                    FY 2007-SEPTEMBER FY 2006-SEPTEMBER
 SCNP                Other Financing Sources                          F                 C                                   (5,692)           (5,619)
                                                                                        Variance:                                0                    0


     TP     Trading Partner Name                   FY 2007-SEPTEMBER          FY 2006-SEPTEMBER                    FY 2006-             FY 2006­
                                                                                                               SEPTEMBER Prev.       SEPTEMBER Line
                                                                                                                     Rpt.               item chgs.
     9500 Independent and Other Agencies                                 0                             (70)                   (70)                    0
     9900 Treasury General Fund                                     (5,692)                         (5,549)                (5,549)                    0
                                      Total                          5,692                          5,619                   5,619                     0


Agency FS            CP Line Description                              Acct Type         NB                    FY 2007-SEPTEMBER FY 2006-SEPTEMBER
 SCNP                Transfers-in Without Reimbursement               F                 C                                      0                 1
                                                                                        Variance:                                0                    0


     TP     Trading Partner Name                   FY 2007-SEPTEMBER          FY 2006-SEPTEMBER                    FY 2006­             FY 2006­
                                                                                                               SEPTEMBER Prev.       SEPTEMBER Line
                                                                                                                     Rpt.               item chgs.
     1601 Department of Labor                                            0                               1                       1                    0
                                      Total                              0                              (1)                    (1)                    0




             * I = Inactive                                                    - 26 ­
                                                                    U.S.Department of the Treasury                                          11/15/2007
                                                                    Financial Management Service
                                                                Governmentwide Financial Report System

                                                            GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF CHANGES IN NET POSITION                          Fiscal Year: 2007                             Period: SEPTEMBER


Entity:     2000 - Department of the Treasury                            Reported in: MILLIONS                   Decimal Point: ZERO



Agency FS            CP Line Description                                Acct Type         NB              FY 2007-SEPTEMBER FY 2006-SEPTEMBER
 SCNP         I      Unexpended Appropriations transferred in           F                 C                                0                 0
                                                                                          Variance:                          0                    0


     TP     Trading Partner Name                     FY 2007-SEPTEMBER          FY 2006-SEPTEMBER              FY 2006-             FY 2006­
                                                                                                           SEPTEMBER Prev.       SEPTEMBER Line
                                                                                                                 Rpt.               item chgs.
     7200 Agency for International Development                             0                          0                   14                  (14)
                                      Total                                0                          0                  (14)                 (14)


Agency FS            CP Line Description                                Acct Type         NB              FY 2007-SEPTEMBER FY 2006-SEPTEMBER
 CUST                Borrowing and other interest revenue               F                 C                                1                 0
                                                                                          Variance:                          0                    0


     TP     Trading Partner Name                     FY 2007-SEPTEMBER          FY 2006-SEPTEMBER              FY 2006­             FY 2006­
                                                                                                           SEPTEMBER Prev.       SEPTEMBER Line
                                                                                                                 Rpt.               item chgs.
     6900 Department of Transportation                                     1                          0                      0                    0
                                      Total                               (1)                         0                      0                    0




             * I = Inactive                                                      - 27 ­
                                                                    U.S.Department of the Treasury                                               11/15/2007
                                                                    Financial Management Service
                                                                Governmentwide Financial Report System

                                                           GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF CHANGES IN NET POSITION                          Fiscal Year: 2007                                  Period: SEPTEMBER


Entity:     2000 - Department of the Treasury                            Reported in: MILLIONS                        Decimal Point: ZERO



Agency FS            CP Line Description                                Acct Type         NB                  FY 2007-SEPTEMBER FY 2006-SEPTEMBER
 CUST                Expenditure transfers-out of financing sources     F                 C                                  (11)                0
                                                                                          Variance:                              0                    0


     TP     Trading Partner Name                      FY 2007-SEPTEMBER         FY 2006-SEPTEMBER                  FY 2006-             FY 2006­
                                                                                                               SEPTEMBER Prev.       SEPTEMBER Line
                                                                                                                     Rpt.               item chgs.
     9900 Treasury General Fund                                          (11)                            0                       0                    0
                                       Total                              11                             0                       0                    0


Agency FS            CP Line Description                                Acct Type         NB                  FY 2007-SEPTEMBER FY 2006-SEPTEMBER
 CUST                Other Financing Sources                            F                 C                              (2,444,596)       (2,282,395)
                                                                                          Variance:                              0                    0


     TP     Trading Partner Name                      FY 2007-SEPTEMBER         FY 2006-SEPTEMBER                  FY 2006­             FY 2006­
                                                                                                               SEPTEMBER Prev.       SEPTEMBER Line
                                                                                                                     Rpt.               item chgs.
     1200   Department of Agriculture                                      4                             5                      5                     0
     1400   Department of the Interior                                  (279)                         (248)                  (248)                    0
     1500   Department of Justice                                          2                             1                      1                     0
     1601   Department of Labor                                          107                            75                     75                     0
     1800   United States Postal Service                                   0                             1                      1                     0
     1900   Department of State                                            2                             0                      0                     0
     2400   Office of Personnel Management                                 0                             5                      5                     0
     2800   Social Security Administration                               605                           649                    649                     0


             * I = Inactive                                                      - 28 ­
                                                      U.S.Department of the Treasury
                                  11/15/2007

                                                      Financial Management Service

                                                  Governmentwide Financial Report System


                                              GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF CHANGES IN NET POSITION            Fiscal Year: 2007                       Period: SEPTEMBER


Entity:   2000 - Department of the Treasury                Reported in: MILLIONS             Decimal Point: ZERO




     3600 DEPARTMENT OF VETERANS                              9                        22              22                 0
          AFFAIRS
     4700 General Services Administration                   57                         5               5                  0
     6900 Department of Transportation                       1                         2               2                  0
     7000 Department of Homeland Security                    3                         8               8                  0
     7300 Small Business Administration                      0                         1               1                  0
     7500 Department of Health and Human                   136                       158             158                  0
          Services
     8000 National Aeronautics and Space                      2                         7               7                 0
          Administration
     8600 Department of Housing and Urban                     6                         0               0                 0
          Development
     9500 Independent and Other Agencies                      5                         0               0                 0
     9900 Treasury General Fund                      (2,445,316)               (2,283,112)     (2,283,112)                0
     DE00 Department of Defense                              60                        26              26                 0
                                    Total             2,444,596                2,282,395        2,282,395                 0




            * I = Inactive                                         - 29 ­
                                           U.S Department of the Treasury                                      11-14-2007 08:36:16
                                            Financial Management Service
                                       Governmentwide Financial Report System

                            GF003G-Closing Package Line Reclassification Summary Report

  Statement: BALANCE SHEET                                                 Fiscal Year:   2007                Period:     SEPTEMBER
  Entity: 2000 - Department of the Treasury                                Reported in:   MILLIONS            Decimal Point:      ZERO
Amounts reported as normal/(abnormal) balances.
                                                         Acct
  Line# Agency Line Description                          Type   NB        F/N      FY 2007-SEPTEMBER           FY 2006-SEPTEMBER
     3 Fund Balance                                       A     D          F                    74,767                      71,153
                                                    Variance:                                        0                           0

CP Line Reclassification
                                                                                                 Previously                    Line Item
   F/N CP Line Description     FY2007-SEPTEMBER         FY2006-SEPTEMBER                          Reported                      Changes
    F Fund Balance with                        74,767                     71,153                    71,153                            0
      Treasury
               Total:                          74,767                     71,153                    71,153                            0

                                                         Acct
  Line# Agency Line Description                          Type   NB        F/N      FY 2007-SEPTEMBER           FY 2006-SEPTEMBER
     4 Loans and Interest Receivable                      A     D          F                    236,932                     245,206
                                                    Variance:                                         0                           0

CP Line Reclassification
                                                                                                 Previously                    Line Item
   F/N CP Line Description     FY2007-SEPTEMBER         FY2006-SEPTEMBER                          Reported                      Changes
    F Interest Receivable                       1,516                   1,971                        1,971                            0
    F Loans Receivable                        235,416                 243,235                      243,235                            0
                 Total:                       236,932                 245,206                      245,206                            0

                                                         Acct
  Line# Agency Line Description                          Type   NB        F/N      FY 2007-SEPTEMBER           FY 2006-SEPTEMBER
     5 Advances to the Black Lung Trust Fund              A     D          F                    10,058                       9,632
                                                    Variance:                                        0                           0

CP Line Reclassification
                                                                                                 Previously                    Line Item
   F/N CP Line Description     FY2007-SEPTEMBER         FY2006-SEPTEMBER                          Reported                      Changes
    F Loans Receivable                         10,058                      9,632                     9,632                            0
               Total:                          10,058                      9,632                     9,632                            0




                                                                 - 1 ­

                                             U.S Department of the Treasury                                     11-14-2007 08:36:16
                                              Financial Management Service
                                         Governmentwide Financial Report System

                            GF003G-Closing Package Line Reclassification Summary Report

  Statement: BALANCE SHEET                                                 Fiscal Year:    2007                Period:     SEPTEMBER
  Entity: 2000 - Department of the Treasury                                Reported in:    MILLIONS            Decimal Point:      ZERO
Amounts reported as normal/(abnormal) balances.
                                                         Acct
  Line# Agency Line Description                          Type   NB        F/N        FY 2007-SEPTEMBER          FY 2006-SEPTEMBER
     6 Due From the General Fund                          A     D          F                     9,052,624                  8,540,195
                                                    Variance:                                            0                          0

CP Line Reclassification
                                                                                                  Previously                    Line Item
   F/N CP Line Description     FY2007-SEPTEMBER         FY2006-SEPTEMBER                           Reported                      Changes
    F Other Assets (without                 9,052,624                8,540,195                    8,540,195                            0
      reciprocals)
                 Total:                     9,052,624                8,540,195                    8,540,195                            0

                                                         Acct
  Line# Agency Line Description                          Type   NB        F/N        FY 2007-SEPTEMBER          FY 2006-SEPTEMBER
     7 Accounts Receivable and Related Interest           A     D          F                        466                        483
                                                    Variance:                                         0                          0

CP Line Reclassification
                                                                                                  Previously                    Line Item
   F/N CP Line Description     FY2007-SEPTEMBER         FY2006-SEPTEMBER                           Reported                      Changes
    F Accounts Receivable                         466                       483                         483                            0
               Total:                             466                       483                         483                            0


                                                         Acct
  Line# Agency Line Description                          Type   NB        F/N        FY 2007-SEPTEMBER          FY 2006-SEPTEMBER
     8 Other Intra-governmental Assets                    A     D          F                         32                         78
                                                    Variance:                                         0                          0

CP Line Reclassification
                                                                                                  Previously                    Line Item
   F/N CP Line Description     FY2007-SEPTEMBER         FY2006-SEPTEMBER                           Reported                      Changes
    F Advances to Others                           32                           78                       78                            0
      and Prepayments
                Total:                             32                           78                       78                            0




                                                                 - 2 ­

                                           U.S Department of the Treasury                                       11-14-2007 08:36:16
                                            Financial Management Service
                                       Governmentwide Financial Report System

                           GF003G-Closing Package Line Reclassification Summary Report

  Statement: BALANCE SHEET                                                 Fiscal Year:    2007                Period:     SEPTEMBER
  Entity: 2000 - Department of the Treasury                                Reported in:    MILLIONS            Decimal Point:      ZERO
Amounts reported as normal/(abnormal) balances.
                                                       Acct
  Line# Agency Line Description                        Type     NB        F/N        FY 2007-SEPTEMBER          FY 2006-SEPTEMBER
    11 Cash, Foreign Currency & Other Monetary Assets   A       D          N                      92,330                     63,892
                                                  Variance:                                            0                          0

CP Line Reclassification
                                                                                                  Previously                    Line Item
   F/N CP Line Description    FY2007-SEPTEMBER          FY2006-SEPTEMBER                           Reported                      Changes
   N Cash and Other                           92,231                      63,813                     63,813                            0
     Monetary Assets
   N Accounts and Taxes                            99                           79                       79                            0
     Receivable
               Total:                         92,330                      63,892                     63,892                            0

                                                         Acct
  Line# Agency Line Description                          Type   NB        F/N        FY 2007-SEPTEMBER          FY 2006-SEPTEMBER
    12 Gold and Silver Reserves                           A     D          N                      11,062                     11,062
                                                    Variance:                                          0                          0

CP Line Reclassification
                                                                                                  Previously                    Line Item
   F/N CP Line Description    FY2007-SEPTEMBER          FY2006-SEPTEMBER                           Reported                      Changes
   N Cash and Other                           11,062                      11,062                     11,062                            0
     Monetary Assets
               Total:                         11,062                      11,062                     11,062                            0

                                                         Acct
  Line# Agency Line Description                          Type   NB        F/N        FY 2007-SEPTEMBER          FY 2006-SEPTEMBER
    13 Loans and Interest Receivable                      A     D          N                        175                        288
                                                    Variance:                                         0                          0

CP Line Reclassification
                                                                                                  Previously                    Line Item
   F/N CP Line Description    FY2007-SEPTEMBER          FY2006-SEPTEMBER                           Reported                      Changes
   N Loans Receivable                             175                       288                         288                            0
              Total:                              175                       288                         288                            0




                                                                 - 3 ­

                                              U.S Department of the Treasury                                       11-14-2007 08:36:16
                                               Financial Management Service
                                          Governmentwide Financial Report System

                           GF003G-Closing Package Line Reclassification Summary Report

  Statement: BALANCE SHEET                                                     Fiscal Year:   2007                Period:     SEPTEMBER
  Entity: 2000 - Department of the Treasury                                    Reported in:   MILLIONS            Decimal Point:      ZERO
Amounts reported as normal/(abnormal) balances.
                                                           Acct
  Line# Agency Line Description                            Type     NB        F/N      FY 2007-SEPTEMBER           FY 2006-SEPTEMBER
    14 Investments and Related Interest                     A       D          N                    10,074                       9,325
                                                      Variance:                                          0                           0

CP Line Reclassification
                                                                                                     Previously                    Line Item
   F/N CP Line Description     FY2007-SEPTEMBER            FY2006-SEPTEMBER                           Reported                      Changes
   N Securities and                             10,074                         9,325                     9,325                            0
     Investments
                Total:                          10,074                         9,325                     9,325                            0

                                                          Acct
  Line# Agency Line Description                           Type      NB        F/N      FY 2007-SEPTEMBER           FY 2006-SEPTEMBER
    15 Reserve Position in International Monetary Fund     A        D          N                     4,464                       6,621
                                                     Variance:                                           0                           0

CP Line Reclassification
                                                                                                     Previously                    Line Item
   F/N CP Line Description     FY2007-SEPTEMBER            FY2006-SEPTEMBER                           Reported                      Changes
   N Cash and Other                               4,464                        6,621                     6,621                            0
     Monetary Assets
               Total:                             4,464                        6,621                     6,621                            0

                                                             Acct
  Line# Agency Line Description                              Type   NB        F/N      FY 2007-SEPTEMBER           FY 2006-SEPTEMBER
    16 Investments in International Financial Institutions    A     D          N                     5,521                       5,488
                                                        Variance:                                        0                           0

CP Line Reclassification
                                                                                                     Previously                    Line Item
   F/N CP Line Description     FY2007-SEPTEMBER            FY2006-SEPTEMBER                           Reported                      Changes
   N Other Assets                                 5,521                        5,488                     5,488                            0
               Total:                             5,521                        5,488                     5,488                            0




                                                                     - 4 ­

                                           U.S Department of the Treasury                                        11-14-2007 08:36:16
                                            Financial Management Service
                                       Governmentwide Financial Report System

                           GF003G-Closing Package Line Reclassification Summary Report

  Statement: BALANCE SHEET                                                   Fiscal Year:   2007                Period:     SEPTEMBER
  Entity: 2000 - Department of the Treasury                                  Reported in:   MILLIONS            Decimal Point:      ZERO
Amounts reported as normal/(abnormal) balances.
                                                          Acct
  Line# Agency Line Description                           Type    NB        F/N      FY 2007-SEPTEMBER           FY 2006-SEPTEMBER
    17 Tax/Trade, Other Receivables, and Related           A      D          N                    27,559                      21,962
        Interest, Net
                                                      Variance:                                           0                            0

CP Line Reclassification
                                                                                                   Previously                    Line Item
   F/N CP Line Description    FY2007-SEPTEMBER            FY2006-SEPTEMBER                          Reported                      Changes
   N Accounts and Taxes                       27,559                        21,962                    21,962                            0
     Receivable
               Total:                         27,559                        21,962                    21,962                            0

                                                           Acct
  Line# Agency Line Description                            Type   NB        F/N      FY 2007-SEPTEMBER           FY 2006-SEPTEMBER
    18 Inventory and Related Property, Net                  A     D          N                      638                         389
                                                      Variance:                                       0                           0

CP Line Reclassification
                                                                                                   Previously                    Line Item
   F/N CP Line Description    FY2007-SEPTEMBER            FY2006-SEPTEMBER                          Reported                      Changes
   N Inventory and Related                         638                        389                        389                            0
     Property
               Total:                              638                        389                        389                            0

                                                           Acct
  Line# Agency Line Description                            Type   NB        F/N      FY 2007-SEPTEMBER           FY 2006-SEPTEMBER
    19 Property, Plant and Equipment, Net                   A     D          N                     2,086                       2,182
                                                      Variance:                                        0                           0

CP Line Reclassification
                                                                                                   Previously                    Line Item
   F/N CP Line Description    FY2007-SEPTEMBER            FY2006-SEPTEMBER                          Reported                      Changes
   N Property, Plant and                          2,086                      2,182                     2,182                            0
     Equipment
                Total:                            2,086                      2,182                     2,182                            0




                                                                   - 5 ­

                                             U.S Department of the Treasury                                       11-14-2007 08:36:16
                                              Financial Management Service
                                         Governmentwide Financial Report System

                           GF003G-Closing Package Line Reclassification Summary Report

  Statement: BALANCE SHEET                                                  Fiscal Year:    2007                 Period:     SEPTEMBER
  Entity: 2000 - Department of the Treasury                                 Reported in:    MILLIONS             Decimal Point:      ZERO
Amounts reported as normal/(abnormal) balances.
                                                          Acct
  Line# Agency Line Description                           Type   NB        F/N        FY 2007-SEPTEMBER           FY 2006-SEPTEMBER
    20 Other Assets                                        A     D          N                         19                          22
                                                     Variance:                                         0                           0

CP Line Reclassification
                                                                                                   Previously                     Line Item
   F/N CP Line Description    FY2007-SEPTEMBER           FY2006-SEPTEMBER                           Reported                       Changes
   N Other Assets                                  19                            22                        22                            0
               Total:                              19                            22                        22                            0


                                                          Acct
  Line# Agency Line Description                           Type   NB        F/N        FY 2007-SEPTEMBER           FY 2006-SEPTEMBER
    25 Federal Debt and Interest Payable                   L     C          F                     3,974,788                   3,673,117
                                                     Variance:                                            0                           0

CP Line Reclassification
                                                                                                   Previously                     Line Item
   F/N CP Line Description    FY2007-SEPTEMBER           FY2006-SEPTEMBER                           Reported                       Changes
    F Interest Payable                         48,568                     45,678                       45,678                            0
    F Federal Debt                          3,926,220                  3,627,439                    3,627,439                            0
                 Total:                    (3,974,788)                (3,673,117)                  (3,673,117)                           0

                                                          Acct
  Line# Agency Line Description                           Type   NB        F/N        FY 2007-SEPTEMBER           FY 2006-SEPTEMBER
    26 Other Debt and Interest Payable                     L     C          F                      14,164                      14,164
                                                     Variance:                                          0                           0

CP Line Reclassification
                                                                                                   Previously                     Line Item
   F/N CP Line Description    FY2007-SEPTEMBER           FY2006-SEPTEMBER                           Reported                       Changes
    F Interest Payable                            164                       164                          164                             0
    F Federal Debt                             14,000                    14,000                       14,000                             0
                 Total:                       (14,164)                  (14,164)                     (14,164)                            0




                                                                  - 6 ­

                                            U.S Department of the Treasury                                            11-14-2007 08:36:16
                                             Financial Management Service
                                        Governmentwide Financial Report System

                              GF003G-Closing Package Line Reclassification Summary Report

  Statement: BALANCE SHEET                                                     Fiscal Year:     2007                 Period:     SEPTEMBER
  Entity: 2000 - Department of the Treasury                                    Reported in:     MILLIONS             Decimal Point:      ZERO
Amounts reported as normal/(abnormal) balances.
                                                             Acct
  Line# Agency Line Description                              Type   NB        F/N         FY 2007-SEPTEMBER           FY 2006-SEPTEMBER
    27 Due to the General Fund                                L     C          F                       328,973                     306,352
                                                        Variance:                                            0                           0

CP Line Reclassification
                                                                                                       Previously                     Line Item
   F/N CP Line Description       FY2007-SEPTEMBER           FY2006-SEPTEMBER                            Reported                       Changes
    F Other Liabilities                         328,973                    306,352                       306,352                             0
      (without reciprocals)
                 Total:                        (328,973)                  (306,352)                     (306,352)                            0

                                                             Acct
  Line# Agency Line Description                              Type   NB        F/N         FY 2007-SEPTEMBER           FY 2006-SEPTEMBER
    28 Other Intra-governmental Liabilities                   L     C          F                         329                         301
                                                        Variance:                                          0                           0

CP Line Reclassification
                                                                                                       Previously                     Line Item
   F/N CP Line Description       FY2007-SEPTEMBER           FY2006-SEPTEMBER                            Reported                       Changes
    F Accounts Payable                               92                          92                           92                             0
    F Interest Payable                               28                           0                            0                             0
    F Benefit Program                               183                         176                          176                             0
      Contributions
      Payable
    F Advances from                                   35                            36                         36                            0
      Others and Deferred
      Credits
    F Other Liabilities                               (9)                           (3)                        (3)                           0
      (without reciprocals)
                 Total:                            (329)                       (301)                        (301)                            0

                                                             Acct
  Line# Agency Line Description                              Type   NB        F/N         FY 2007-SEPTEMBER           FY 2006-SEPTEMBER
    30 Federal Debt and Interest Payable                      L     C          N                      5,054,250                   4,844,074
                                                        Variance:                                             0                           0

CP Line Reclassification
                                                                                                       Previously                     Line Item
   F/N CP Line Description       FY2007-SEPTEMBER           FY2006-SEPTEMBER                            Reported                       Changes
   N Federal Debt                             5,054,250                  4,844,074                     4,844,074                             0
     Securities Held by the
     Public
                Total:                        (5,054,250)                (4,844,074)                   (4,844,074)                           0




                                                                     - 7 ­

                                           U.S Department of the Treasury                                         11-14-2007 08:36:16
                                            Financial Management Service
                                       Governmentwide Financial Report System

                           GF003G-Closing Package Line Reclassification Summary Report

  Statement: BALANCE SHEET                                                    Fiscal Year:   2007                Period:     SEPTEMBER
  Entity: 2000 - Department of the Treasury                                   Reported in:   MILLIONS            Decimal Point:      ZERO
Amounts reported as normal/(abnormal) balances.
                                                           Acct
  Line# Agency Line Description                            Type   NB        F/N       FY 2007-SEPTEMBER           FY 2006-SEPTEMBER
    31 Certificates Issued to Federal Reserve Banks         L     C          N                      2,200                       2,200
                                                      Variance:                                         0                           0

CP Line Reclassification
                                                                                                    Previously                    Line Item
   F/N CP Line Description    FY2007-SEPTEMBER            FY2006-SEPTEMBER                           Reported                      Changes
   N Other Liabilities                          2,200                        2,200                      2,200                            0
               Total:                          (2,200)                      (2,200)                    (2,200)                           0


                                                           Acct
  Line# Agency Line Description                            Type   NB        F/N       FY 2007-SEPTEMBER           FY 2006-SEPTEMBER
    32 Allocation of Special Drawing Rights                 L     C          N                      7,627                       7,234
                                                      Variance:                                         0                           0

CP Line Reclassification
                                                                                                    Previously                    Line Item
   F/N CP Line Description    FY2007-SEPTEMBER            FY2006-SEPTEMBER                           Reported                      Changes
   N Other Liabilities                          7,627                        7,234                      7,234                            0
               Total:                          (7,627)                      (7,234)                    (7,234)                           0


                                                          Acct
  Line# Agency Line Description                           Type    NB        F/N       FY 2007-SEPTEMBER           FY 2006-SEPTEMBER
    33 Gold Certificates Issued to Federal Reserve Banks   L      C          N                     11,037                      11,037
                                                     Variance:                                          0                           0

CP Line Reclassification
                                                                                                    Previously                    Line Item
   F/N CP Line Description    FY2007-SEPTEMBER            FY2006-SEPTEMBER                           Reported                      Changes
   N Other Liabilities                         11,037                    11,037                        11,037                            0
               Total:                         (11,037)                  (11,037)                      (11,037)                           0




                                                                   - 8 ­

                                           U.S Department of the Treasury                                       11-14-2007 08:36:16
                                            Financial Management Service
                                       Governmentwide Financial Report System

                            GF003G-Closing Package Line Reclassification Summary Report

  Statement: BALANCE SHEET                                                  Fiscal Year:   2007                Period:     SEPTEMBER
  Entity: 2000 - Department of the Treasury                                 Reported in:   MILLIONS            Decimal Point:      ZERO
Amounts reported as normal/(abnormal) balances.
                                                         Acct
  Line# Agency Line Description                          Type   NB        F/N       FY 2007-SEPTEMBER           FY 2006-SEPTEMBER
    34 Refunds                                            L     C          N                      1,684                       1,701
                                                    Variance:                                         0                           0

CP Line Reclassification
                                                                                                  Previously                    Line Item
   F/N CP Line Description     FY2007-SEPTEMBER         FY2006-SEPTEMBER                           Reported                      Changes
   N Accounts Payable                          1,684                           0                          0                            0
   N Other Liabilities                             0                       1,701                      1,701                            0
               Total:                         (1,684)                     (1,701)                    (1,701)                           0

                                                         Acct
  Line# Agency Line Description                          Type   NB        F/N       FY 2007-SEPTEMBER           FY 2006-SEPTEMBER
    35 DC Pension Liability                               L     C          N                      8,992                       9,068
                                                    Variance:                                         0                           0

CP Line Reclassification
                                                                                                  Previously                    Line Item
   F/N CP Line Description     FY2007-SEPTEMBER         FY2006-SEPTEMBER                           Reported                      Changes
   N Other Liabilities                         8,992                       9,068                      9,068                            0
               Total:                         (8,992)                     (9,068)                    (9,068)                           0


                                                         Acct
  Line# Agency Line Description                          Type   NB        F/N       FY 2007-SEPTEMBER           FY 2006-SEPTEMBER
    36 Other Liabilities                                  L     C          N                      3,664                       3,816
                                                    Variance:                                         0                           0

CP Line Reclassification
                                                                                                  Previously                    Line Item
   F/N CP Line Description     FY2007-SEPTEMBER         FY2006-SEPTEMBER                           Reported                      Changes
   N Accounts Payable                             762                       704                         704                            0
   N Federal Employee                             611                       635                         635                            0
     and Veteran Benefits
     Payable
   N Other Liabilities                         2,273                       2,464                      2,464                            0
   N Insurance Programs                           18                          13                         13                            0
               Total:                         (3,664)                     (3,816)                    (3,816)                           0




                                                                 - 9 ­

                                           U.S Department of the Treasury                                         11-14-2007 08:36:16
                                            Financial Management Service
                                       Governmentwide Financial Report System

                           GF003G-Closing Package Line Reclassification Summary Report

  Statement: BALANCE SHEET                                                    Fiscal Year:   2007                Period:     SEPTEMBER
  Entity: 2000 - Department of the Treasury                                   Reported in:   MILLIONS            Decimal Point:      ZERO
Amounts reported as normal/(abnormal) balances.
                                                      Acct
  Line# Agency Line Description                       Type        NB         F/N      FY 2007-SEPTEMBER           FY 2006-SEPTEMBER
    40 Unexpended Appropriations - Earmarked Funds     E          C           B                      200                         202
                                                 Variance:                                             0                           0

CP Line Reclassification
                                                                                                    Previously                    Line Item
   F/N CP Line Description    FY2007-SEPTEMBER            FY2006-SEPTEMBER                           Reported                      Changes
   B Net Position-                                200                          202                        202                            0
     Earmarked Funds
                Total:                            (200)                       (202)                      (202)                           0

                                                        Acct
  Line# Agency Line Description                         Type      NB         F/N      FY 2007-SEPTEMBER           FY 2006-SEPTEMBER
    41 Unexpended Appropriations - All Other Funds       E        C           B                    72,117                      68,068
                                                   Variance:                                            0                           0

CP Line Reclassification
                                                                                                    Previously                    Line Item
   F/N CP Line Description    FY2007-SEPTEMBER            FY2006-SEPTEMBER                           Reported                      Changes
   B Net Position-Non-                         72,117                        68,068                    68,068                            0
     Earmarked Funds
                Total:                        (72,117)                   (68,068)                     (68,068)                           0

                                                          Acct
  Line# Agency Line Description                           Type    NB         F/N      FY 2007-SEPTEMBER           FY 2006-SEPTEMBER
    42 Cumulative Results of Operations - Earmarked        E      C           B                    35,385                      31,614
        Funds
                                                      Variance:                                            0                            0

CP Line Reclassification
                                                                                                    Previously                    Line Item
   F/N CP Line Description    FY2007-SEPTEMBER            FY2006-SEPTEMBER                           Reported                      Changes
   B Net Position-                             35,385                        31,614                    31,614                            0
     Earmarked Funds
                Total:                        (35,385)                   (31,614)                     (31,614)                           0




                                                                   - 10 ­

                                           U.S Department of the Treasury                                         11-14-2007 08:36:16
                                            Financial Management Service
                                       Governmentwide Financial Report System

                             GF003G-Closing Package Line Reclassification Summary Report

  Statement: BALANCE SHEET                                                    Fiscal Year:   2007                Period:     SEPTEMBER
  Entity: 2000 - Department of the Treasury                                   Reported in:   MILLIONS            Decimal Point:      ZERO
Amounts reported as normal/(abnormal) balances.
                                                          Acct
  Line# Agency Line Description                           Type    NB         F/N      FY 2007-SEPTEMBER           FY 2006-SEPTEMBER
    43 Cumulative Results of Operations - All Other        E      C           B                    13,397                      15,030
        Funds
                                                      Variance:                                            0                            0

CP Line Reclassification
                                                                                                    Previously                    Line Item
   F/N CP Line Description      FY2007-SEPTEMBER          FY2006-SEPTEMBER                           Reported                      Changes
   B Net Position-Non-                         13,397                        15,030                    15,030                            0
     Earmarked Funds
                Total:                        (13,397)                   (15,030)                     (15,030)                           0



  Statement: STATEMENT OF NET COST                                            Fiscal Year:   2007                Period:     SEPTEMBER
  Entity: 2000 - Department of the Treasury                                   Reported in:   MILLIONS            Decimal Point:      ZERO
Amounts reported as normal/(abnormal) balances.
                                                           Acct
  Line# Agency Line Description                            Type   NB         F/N      FY 2007-SEPTEMBER           FY 2006-SEPTEMBER
    40 Total Gross Costs                                    GC    D           B                    461,841                     433,221
                                                      Variance:                                          0                           0

CP Line Reclassification
                                                                                                    Previously                    Line Item
   F/N CP Line Description      FY2007-SEPTEMBER          FY2006-SEPTEMBER                           Reported                      Changes
   N Interest on Debt Held                    238,896                   221,527                       221,527                            0
     by the Public
   F Imputed Costs                                  740                         733                       733                            0
   F Buy/Sell Costs                               1,550                       1,625                     1,625                            0
   F Benefit Program                              1,766                       1,708                     1,708                            0
     Costs
   F Federal Securities                       193,909                   182,584                       182,584                            0
     Interest Expense
   F Borrowing and Other                          4,633                       5,437                     5,437                            0
     Interest Expense
   F Borrowing Losses                              10                             0                         0                            0
   N Non-Federal Gross                         20,337                        19,607                    19,607                            0
     Cost
                Total:                        461,841                   433,221                       433,221                            0




                                                                   - 11 ­

                                            U.S Department of the Treasury                                        11-14-2007 08:36:16
                                             Financial Management Service
                                        Governmentwide Financial Report System

                           GF003G-Closing Package Line Reclassification Summary Report

  Statement: STATEMENT OF NET COST                                            Fiscal Year:   2007                Period:     SEPTEMBER
  Entity: 2000 - Department of the Treasury                                   Reported in:   MILLIONS            Decimal Point:      ZERO
Amounts reported as normal/(abnormal) balances.
                                                           Acct
  Line# Agency Line Description                            Type   NB         F/N       FY 2007-SEPTEMBER          FY 2006-SEPTEMBER
    41 Total Earned Revenues                                ER    C           B                     20,520                     19,386
                                                      Variance:                                          0                          0

CP Line Reclassification
                                                                                                    Previously                    Line Item
   F/N CP Line Description    FY2007-SEPTEMBER            FY2006-SEPTEMBER                           Reported                      Changes
   F Buy/Sell Revenue                             582                           712                       712                            0
   F Borrowings Gains                              18                            12                        12                            0
   F Borrowing and Other                       13,586                        14,526                    14,526                            0
     Interest Revenue
     (Exchange)
   N Non-Federal Earned                           6,334                       4,136                     4,136                            0
     Revenue
                Total:                        (20,520)                   (19,386)                     (19,386)                           0

  Statement: STATEMENT OF CHANGES IN NET POSITION                             Fiscal Year:   2007                Period:     SEPTEMBER
  Entity: 2000 - Department of the Treasury                                   Reported in:   MILLIONS            Decimal Point:      ZERO
Amounts reported as normal/(abnormal) balances.
                                                           Acct
  Line# Agency Line Description                            Type   NB         F/N       FY 2007-SEPTEMBER          FY 2006-SEPTEMBER
     2 Beginning Balance                                    BN    C           B                     46,644                     52,126
                                                      Variance:                                          0                          0

CP Line Reclassification
                                                                                                    Previously                    Line Item
   F/N CP Line Description    FY2007-SEPTEMBER            FY2006-SEPTEMBER                           Reported                      Changes
   B Beginning Net                             46,644                        52,126                    52,126                            0
     Position
               Total:                         (46,644)                   (52,126)                     (52,126)                           0

                                                           Acct
  Line# Agency Line Description                            Type   NB         F/N       FY 2007-SEPTEMBER          FY 2006-SEPTEMBER
     4 Change in Accounting Principle                       P     C           B                        0                          0
                                                      Variance:                                        0                          0

CP Line Reclassification
                                                                                                    Previously                    Line Item
   F/N CP Line Description    FY2007-SEPTEMBER            FY2006-SEPTEMBER                           Reported                      Changes
                Total:                                                             0




                                                                   - 12 ­

                                           U.S Department of the Treasury                                         11-14-2007 08:36:16
                                            Financial Management Service
                                       Governmentwide Financial Report System

                           GF003G-Closing Package Line Reclassification Summary Report

  Statement: STATEMENT OF CHANGES IN NET POSITION                            Fiscal Year:    2007                Period:     SEPTEMBER
  Entity: 2000 - Department of the Treasury                                  Reported in:    MILLIONS            Decimal Point:      ZERO
Amounts reported as normal/(abnormal) balances.
                                                          Acct
  Line# Agency Line Description                           Type   NB         F/N        FY 2007-SEPTEMBER          FY 2006-SEPTEMBER
     5 Correcton of an Error                               P     C           B                         0                          0
                                                     Variance:                                         0                          0

CP Line Reclassification
                                                                                                    Previously                    Line Item
   F/N CP Line Description    FY2007-SEPTEMBER           FY2006-SEPTEMBER                            Reported                      Changes
                Total:                                                             0




                                                          Acct
  Line# Agency Line Description                           Type   NB         F/N        FY 2007-SEPTEMBER          FY 2006-SEPTEMBER
     8 Appropriations Used                                 F     C           B                      447,057                    412,414
                                                     Variance:                                            0                          0

CP Line Reclassification
                                                                                                    Previously                    Line Item
   F/N CP Line Description    FY2007-SEPTEMBER           FY2006-SEPTEMBER                            Reported                      Changes
    F Other Financing                        447,057                   412,414                        412,414                            0
      Sources
                Total:                      (447,057)                 (412,414)                      (412,414)                           0

                                                          Acct
  Line# Agency Line Description                           Type   NB         F/N        FY 2007-SEPTEMBER          FY 2006-SEPTEMBER
     9 Non-exchange Revenue                                F     C           B                         73                         56
                                                     Variance:                                          0                          0

CP Line Reclassification
                                                                                                    Previously                    Line Item
   F/N CP Line Description    FY2007-SEPTEMBER           FY2006-SEPTEMBER                            Reported                      Changes
   N Other Taxes and                              60                              56                       56                            0
     Receipts
   F Other Financing                                2                              0                        0                            0
     Sources
   F Expenditure                                  11                               0                        0                            0
     transfers-in of
     financing sources
                 Total:                           (73)                        (56)                        (56)                           0




                                                                  - 13 ­

                                            U.S Department of the Treasury                                          11-14-2007 08:36:16
                                             Financial Management Service
                                        Governmentwide Financial Report System

                            GF003G-Closing Package Line Reclassification Summary Report

    Statement: STATEMENT OF CHANGES IN NET POSITION                             Fiscal Year:   2007                Period:     SEPTEMBER
    Entity: 2000 - Department of the Treasury                                   Reported in:    MILLIONS           Decimal Point:      ZERO
Amounts reported as normal/(abnormal) balances.
                                                            Acct
    Line# Agency Line Description                           Type    NB         F/N        FY 2007-SEPTEMBER         FY 2006-SEPTEMBER
      10 Donations and Forfeitures of Cash and Cash          F      C           N                        210                        79
          Equivalents
                                                        Variance:                                            0                             0

CP Line Reclassification
                                                                                                      Previously                    Line Item
    F/N CP Line Description    FY2007-SEPTEMBER             FY2006-SEPTEMBER                           Reported                      Changes
     N Other Taxes and                            210                                79                      79                             0
       Receipts
                 Total:                           (210)                          (79)                       (79)                            0

                                                             Acct
    Line# Agency Line Description                            Type   NB         F/N        FY 2007-SEPTEMBER         FY 2006-SEPTEMBER
      11 Transfers In/Out without Reimbursement               F     C           F                         (8)                      (28)
                                                        Variance:                                          0                         0

CP Line Reclassification
                                                                                                      Previously                    Line Item
    F/N CP Line Description    FY2007-SEPTEMBER             FY2006-SEPTEMBER                           Reported                      Changes
I    F Appropriation                                   0                              0                      28                           (28)
       transfers-out
     F Nonexpenditure                                 (8)                        (28)                         0                           (28)
       transfers-out of
       unexpended
       appropriations and
       financing sources
                  Total:                               8                             28                      28                           (56)

                                                             Acct
    Line# Agency Line Description                            Type   NB         F/N        FY 2007-SEPTEMBER         FY 2006-SEPTEMBER
      12 Other Budgetary Financing Sources                    F     C           B                         (1)                      (49)
                                                        Variance:                                          0                         0

CP Line Reclassification
                                                                                                      Previously                    Line Item
    F/N CP Line Description    FY2007-SEPTEMBER             FY2006-SEPTEMBER                           Reported                      Changes
     F Other Financing                                (1)                        (49)                       (49)                            0
       Sources
                 Total:                                1                             49                      49                             0




                                                                     - 14 ­

                                           U.S Department of the Treasury                                           11-14-2007 08:36:16
                                            Financial Management Service
                                       Governmentwide Financial Report System

                             GF003G-Closing Package Line Reclassification Summary Report

  Statement: STATEMENT OF CHANGES IN NET POSITION                               Fiscal Year:   2007                Period:     SEPTEMBER
  Entity: 2000 - Department of the Treasury                                     Reported in:   MILLIONS            Decimal Point:      ZERO
Amounts reported as normal/(abnormal) balances.
                                                            Acct
  Line# Agency Line Description                             Type   NB         F/N        FY 2007-SEPTEMBER          FY 2006-SEPTEMBER
    14 Donations and Forfeitures of Property                 F     C           N                         73                         61
                                                       Variance:                                          0                          0

CP Line Reclassification
                                                                                                      Previously                    Line Item
   F/N CP Line Description      FY2007-SEPTEMBER           FY2006-SEPTEMBER                            Reported                      Changes
   N Other Taxes and                                 73                             61                       61                            0
     Receipts
               Total:                               (73)                         (61)                       (61)                           0

                                                            Acct
  Line# Agency Line Description                             Type   NB         F/N        FY 2007-SEPTEMBER          FY 2006-SEPTEMBER
    15 Accrued Interest & Discount on the Debt               F     C           F                       7,632                      8,991
                                                       Variance:                                           0                          0

CP Line Reclassification
                                                                                                      Previously                    Line Item
   F/N CP Line Description      FY2007-SEPTEMBER           FY2006-SEPTEMBER                            Reported                      Changes
    F Other Financing                             7,632                        8,991                      8,991                            0
      Sources
                Total:                           (7,632)                      (8,991)                    (8,991)                           0

                                                            Acct
  Line# Agency Line Description                             Type   NB         F/N        FY 2007-SEPTEMBER          FY 2006-SEPTEMBER
    16 Transfers In/Out without Reimbursement                F     C           F                        (24)                       (24)
                                                       Variance:                                          0                          0

CP Line Reclassification
                                                                                                      Previously                    Line Item
   F/N CP Line Description      FY2007-SEPTEMBER           FY2006-SEPTEMBER                            Reported                      Changes
    F Transfers-in Without                            0                              1                        1                            0
      Reimbursement
    F Transfers-out                                  24                             25                       25                            0
      Without
      Reimbursement
                 Total:                              24                             24                       24                            0




                                                                    - 15 ­

                                           U.S Department of the Treasury                                         11-14-2007 08:36:16
                                            Financial Management Service
                                       Governmentwide Financial Report System

                           GF003G-Closing Package Line Reclassification Summary Report

  Statement: STATEMENT OF CHANGES IN NET POSITION                             Fiscal Year:   2007                Period:     SEPTEMBER
  Entity: 2000 - Department of the Treasury                                   Reported in:   MILLIONS            Decimal Point:      ZERO
Amounts reported as normal/(abnormal) balances.
                                                           Acct
  Line# Agency Line Description                            Type   NB         F/N      FY 2007-SEPTEMBER           FY 2006-SEPTEMBER
    17 Imputed Financing Sources                            F     C           F                      740                         732
                                                      Variance:                                        0                           0

CP Line Reclassification
                                                                                                    Previously                    Line Item
   F/N CP Line Description    FY2007-SEPTEMBER            FY2006-SEPTEMBER                           Reported                      Changes
    F Imputed Financing                            740                         732                        732                            0
      Source
                Total:                            (740)                       (732)                      (732)                           0

                                                           Acct
  Line# Agency Line Description                            Type   NB         F/N      FY 2007-SEPTEMBER           FY 2006-SEPTEMBER
    18 Transfers to the General Fund and Other              F     C           B                    (12,293)                    (13,879)
                                                      Variance:                                          0                           0

CP Line Reclassification
                                                                                                    Previously                    Line Item
   F/N CP Line Description    FY2007-SEPTEMBER            FY2006-SEPTEMBER                           Reported                      Changes
   N Other Taxes and                              1,032                        682                        682                            0
     Receipts
   F Other Financing                         (13,325)                    (14,561)                     (14,561)                           0
     Sources
               Total:                            12,293                      13,879                    13,879                            0

                                                           Acct
  Line# Agency Line Description                            Type   NB         F/N      FY 2007-SEPTEMBER           FY 2006-SEPTEMBER
    24 Beginning Balance                                    BN    C           B                    68,270                      63,182
                                                      Variance:                                         0                           0

CP Line Reclassification
                                                                                                    Previously                    Line Item
   F/N CP Line Description    FY2007-SEPTEMBER            FY2006-SEPTEMBER                           Reported                      Changes
   B Beginning Net                               68,270                      63,182                    63,182                            0
     Position
               Total:                        (68,270)                    (63,182)                     (63,182)                           0




                                                                   - 16 ­

                                             U.S Department of the Treasury                                       11-14-2007 08:36:16
                                              Financial Management Service
                                         Governmentwide Financial Report System

                               GF003G-Closing Package Line Reclassification Summary Report

  Statement: STATEMENT OF CHANGES IN NET POSITION                             Fiscal Year:   2007                Period:     SEPTEMBER
  Entity: 2000 - Department of the Treasury                                   Reported in:   MILLIONS            Decimal Point:      ZERO
Amounts reported as normal/(abnormal) balances.
                                                           Acct
  Line# Agency Line Description                            Type   NB         F/N       FY 2007-SEPTEMBER          FY 2006-SEPTEMBER
    26 Changes in Accounting Principle                      P     C           B                        0                          0
                                                      Variance:                                        0                          0

CP Line Reclassification
                                                                                                    Previously                    Line Item
   F/N CP Line Description        FY2007-SEPTEMBER        FY2006-SEPTEMBER                           Reported                      Changes
                 Total:                                                            0




                                                           Acct
  Line# Agency Line Description                            Type   NB         F/N       FY 2007-SEPTEMBER          FY 2006-SEPTEMBER
    27 Corrections of Errors                                P     C           B                        0                          0
                                                      Variance:                                        0                          0

CP Line Reclassification
                                                                                                    Previously                    Line Item
   F/N CP Line Description        FY2007-SEPTEMBER        FY2006-SEPTEMBER                           Reported                      Changes
                 Total:                                                            0




                                                           Acct
  Line# Agency Line Description                            Type   NB         F/N       FY 2007-SEPTEMBER          FY 2006-SEPTEMBER
    30 Appropriations Received                              F     C           B                     451,222                    417,766
                                                      Variance:                                           0                          0

CP Line Reclassification
                                                                                                    Previously                    Line Item
   F/N CP Line Description        FY2007-SEPTEMBER        FY2006-SEPTEMBER                           Reported                      Changes
    F Appropriations                          451,222                   417,766                       417,766                            0
      received as adjusted
      (rescissions and other
      adjustments)
                 Total:                       (451,222)                (417,766)                     (417,766)                           0




                                                                   - 17 ­

                                              U.S Department of the Treasury                                        11-14-2007 08:36:16
                                               Financial Management Service
                                          Governmentwide Financial Report System

                                GF003G-Closing Package Line Reclassification Summary Report

    Statement: STATEMENT OF CHANGES IN NET POSITION                            Fiscal Year:    2007                Period:     SEPTEMBER
    Entity: 2000 - Department of the Treasury                                  Reported in:    MILLIONS            Decimal Point:      ZERO
Amounts reported as normal/(abnormal) balances.
                                                            Acct
    Line# Agency Line Description                           Type   NB         F/N        FY 2007-SEPTEMBER          FY 2006-SEPTEMBER
      31 Appropriations Transferred In/Out                   F     C           B                         27                         14
                                                       Variance:                                          0                          0

CP Line Reclassification
                                                                                                      Previously                    Line Item
    F/N CP Line Description        FY2007-SEPTEMBER        FY2006-SEPTEMBER                            Reported                      Changes
I    F Unexpended                                     0                              0                       14                            (14)
       Appropriations
       transferred in
     F Nonexpenditure                                27                             14                        0                             14
       transfers-in of
       unexpended
       appropriations and
       financing sources
                   Total:                           (27)                        (14)                        (14)                             0

                                                            Acct
    Line# Agency Line Description                           Type   NB         F/N        FY 2007-SEPTEMBER          FY 2006-SEPTEMBER
      32 Other Adjustments                                   F     C           B                       (145)                      (278)
                                                       Variance:                                          0                          0

CP Line Reclassification
                                                                                                      Previously                    Line Item
    F/N CP Line Description        FY2007-SEPTEMBER        FY2006-SEPTEMBER                            Reported                      Changes
     F Appropriations                             (145)                        (278)                          0                           (278)
       received as adjusted
       (rescissions and other
       adjustments)
I    F Other Adjustments                              0                              0                     (278)                          278
       (recissions, etc.)
                  Total:                           145                          278                         278                              0

                                                            Acct
    Line# Agency Line Description                           Type   NB         F/N        FY 2007-SEPTEMBER          FY 2006-SEPTEMBER
      33 Appropriations Used                                 F     C           B                     (447,057)                  (412,414)
                                                       Variance:                                            0                          0

CP Line Reclassification
                                                                                                      Previously                    Line Item
    F/N CP Line Description        FY2007-SEPTEMBER        FY2006-SEPTEMBER                            Reported                      Changes
     F Other Financing                         (447,057)                (412,414)                      (412,414)                             0
       Sources
                 Total:                        447,057                   412,414                        412,414                              0




                                                                    - 18 ­

                                           U.S Department of the Treasury                                          11-14-2007 08:36:16
                                            Financial Management Service
                                       Governmentwide Financial Report System

                             GF003G-Closing Package Line Reclassification Summary Report

  Statement: CUSTODIAL ACTIVITY                                               Fiscal Year:   2007                 Period:     SEPTEMBER
  Entity: 2000 - Department of the Treasury                                   Reported in:   MILLIONS             Decimal Point:      ZERO
Amounts reported as normal/(abnormal) balances.
                                                           Acct
  Line# Agency Line Description                            Type   NB         F/N     FY 2007-SEPTEMBER             FY 2006-SEPTEMBER
     3 Individual Income and FICA Taxes                     F     C           N                  2,201,464                     2,034,209
                                                      Variance:                                          0                             0

CP Line Reclassification
                                                                                                    Previously                     Line Item
   F/N CP Line Description      FY2007-SEPTEMBER          FY2006-SEPTEMBER                           Reported                       Changes
   N Individual Income                     2,201,464                   2,034,209                    2,034,209                             0
     Tax and Tax
     Witholdings
                Total:                    (2,201,464)                  (2,034,209)                  (2,034,209)                           0

                                                           Acct
  Line# Agency Line Description                            Type   NB         F/N     FY 2007-SEPTEMBER             FY 2006-SEPTEMBER
     4 Corporate Income Taxes                               F     C           N                   395,320                       380,426
                                                      Variance:                                         0                             0

CP Line Reclassification
                                                                                                    Previously                     Line Item
   F/N CP Line Description      FY2007-SEPTEMBER          FY2006-SEPTEMBER                           Reported                       Changes
   N Corporation Income                       395,320                    380,426                      380,426                             0
     Taxes
               Total:                         (395,320)                 (380,426)                    (380,426)                            0

                                                           Acct
  Line# Agency Line Description                            Type   NB         F/N     FY 2007-SEPTEMBER             FY 2006-SEPTEMBER
     5 Estate and Gift Taxes                                F     C           N                   26,978                        28,688
                                                      Variance:                                        0                             0

CP Line Reclassification
                                                                                                    Previously                     Line Item
   F/N CP Line Description      FY2007-SEPTEMBER          FY2006-SEPTEMBER                           Reported                       Changes
   N Estate and Gift Taxes                      26,978                    28,688                       28,688                             0
                Total:                         (26,978)                  (28,688)                     (28,688)                            0




                                                                   - 19 ­

                                           U.S Department of the Treasury                                          11-14-2007 08:36:16
                                            Financial Management Service
                                       Governmentwide Financial Report System

                           GF003G-Closing Package Line Reclassification Summary Report

  Statement: CUSTODIAL ACTIVITY                                                Fiscal Year:   2007                Period:     SEPTEMBER
  Entity: 2000 - Department of the Treasury                                    Reported in:   MILLIONS            Decimal Point:      ZERO
Amounts reported as normal/(abnormal) balances.
                                                           Acct
  Line# Agency Line Description                            Type   NB         F/N       FY 2007-SEPTEMBER           FY 2006-SEPTEMBER
     6 Excise Taxes                                         F     C           N                     67,766                      72,774
                                                      Variance:                                          0                           0

CP Line Reclassification
                                                                                                     Previously                    Line Item
   F/N CP Line Description    FY2007-SEPTEMBER            FY2006-SEPTEMBER                            Reported                      Changes
   N Excise Taxes                              67,766                     72,774                        72,774                            0
               Total:                         (67,766)                   (72,774)                      (72,774)                           0


                                                           Acct
  Line# Agency Line Description                            Type   NB         F/N       FY 2007-SEPTEMBER           FY 2006-SEPTEMBER
     7 Railroad Retirement Taxes                            F     C           N                      4,718                       4,673
                                                      Variance:                                          0                           0

CP Line Reclassification
                                                                                                     Previously                    Line Item
   F/N CP Line Description    FY2007-SEPTEMBER            FY2006-SEPTEMBER                            Reported                      Changes
   N Other Taxes and                              4,718                       4,673                      4,673                            0
     Receipts
               Total:                          (4,718)                       (4,673)                    (4,673)                           0

                                                           Acct
  Line# Agency Line Description                            Type   NB         F/N       FY 2007-SEPTEMBER           FY 2006-SEPTEMBER
     8 Unemployment Taxes                                   F     C           N                      7,416                       7,533
                                                      Variance:                                          0                           0

CP Line Reclassification
                                                                                                     Previously                    Line Item
   F/N CP Line Description    FY2007-SEPTEMBER            FY2006-SEPTEMBER                            Reported                      Changes
   N Unemployment Taxes                         7,416                         7,533                      7,533                            0
             Total:                            (7,416)                       (7,533)                    (7,533)                           0




                                                                   - 20 ­

                                           U.S Department of the Treasury                                            11-14-2007 08:36:16
                                            Financial Management Service
                                       Governmentwide Financial Report System

                           GF003G-Closing Package Line Reclassification Summary Report

  Statement: CUSTODIAL ACTIVITY                                                 Fiscal Year:    2007                Period:     SEPTEMBER
  Entity: 2000 - Department of the Treasury                                     Reported in:    MILLIONS            Decimal Point:      ZERO
Amounts reported as normal/(abnormal) balances.
                                                        Acct
  Line# Agency Line Description                         Type       NB         F/N         FY 2007-SEPTEMBER          FY 2006-SEPTEMBER
     9 Deposit of Earnings, Federal Reserve System       F         C           N                       32,043                     29,945
                                                   Variance:                                                0                          0

CP Line Reclassification
                                                                                                       Previously                    Line Item
   F/N CP Line Description    FY2007-SEPTEMBER             FY2006-SEPTEMBER                             Reported                      Changes
   N Other Taxes and                            32,043                        29,945                      29,945                            0
     Receipts
               Total:                          (32,043)                   (29,945)                       (29,945)                           0

                                                            Acct
  Line# Agency Line Description                             Type   NB         F/N         FY 2007-SEPTEMBER          FY 2006-SEPTEMBER
    10 Fines, Penalties, Interest & Other Revenue            F     C           B                        3,084                      3,324
                                                       Variance:                                            0                          0

CP Line Reclassification
                                                                                                       Previously                    Line Item
   F/N CP Line Description    FY2007-SEPTEMBER             FY2006-SEPTEMBER                             Reported                      Changes
   N Other Taxes and                              2,071                        2,298                       2,298                            0
     Receipts
   F Other Financing                              1,012                        1,025                       1,025                            0
     Sources
   N Miscellaneous Earned                             0                              1                         1                            0
     Revenue
   F Borrowing and other                              1                              0                         0                            0
     interest revenue
                 Total:                         (3,084)                       (3,324)                     (3,324)                           0

                                                            Acct
  Line# Agency Line Description                             Type   NB         F/N         FY 2007-SEPTEMBER          FY 2006-SEPTEMBER
    13 Less Refunds & Other Custodial Expenses               F     C           N                      (292,684)                  (277,778)
                                                       Variance:                                             0                          0

CP Line Reclassification
                                                                                                       Previously                    Line Item
   F/N CP Line Description    FY2007-SEPTEMBER             FY2006-SEPTEMBER                             Reported                      Changes
   N Individual Income                        (261,055)                 (245,186)                       (245,186)                           0
     Tax and Tax
     Witholdings
   N Other Taxes and                                (13)                            (3)                       (3)                           0
     Receipts
   N Corporation Income                        (28,150)                   (30,463)                       (30,463)                           0
     Taxes
   N Excise Taxes                               (2,370)                         (703)                       (703)                           0
   N Estate and Gift Taxes                        (969)                       (1,280)                     (1,280)                           0
   N Unemployment Taxes                           (127)                         (143)                       (143)                           0



                                                                    - 21 ­

                                           U.S Department of the Treasury                                           11-14-2007 08:36:16
                                            Financial Management Service
                                       Governmentwide Financial Report System

                           GF003G-Closing Package Line Reclassification Summary Report

  Statement: CUSTODIAL ACTIVITY                                               Fiscal Year:     2007                Period:     SEPTEMBER
  Entity: 2000 - Department of the Treasury                                   Reported in:     MILLIONS            Decimal Point:      ZERO
Amounts reported as normal/(abnormal) balances.
                                                          Acct
 Line# Agency Line Description                            Type    NB         F/N         FY 2007-SEPTEMBER          FY 2006-SEPTEMBER
    13 Less Refunds & Other Custodial Expenses             F      C           N                      (292,684)                  (277,778)
CP Line Reclassification
                Total:                        292,684                   277,778                         277,778                            0




                                                           Acct
  Line# Agency Line Description                            Type   NB         F/N         FY 2007-SEPTEMBER          FY 2006-SEPTEMBER
    17 Accrual Adjustment                                   F     C           N                        5,588                       554
                                                      Variance:                                            0                         0

CP Line Reclassification
                                                                                                      Previously                    Line Item
   F/N CP Line Description    FY2007-SEPTEMBER            FY2006-SEPTEMBER                             Reported                      Changes
   N Individual Income                            5,021                        250                          250                            0
     Tax and Tax
     Witholdings
   N Other Taxes and                               567                         304                          304                            0
     Receipts
                Total:                         (5,588)                        (554)                        (554)                           0

                                                           Acct
  Line# Agency Line Description                            Type   NB         F/N         FY 2007-SEPTEMBER          FY 2006-SEPTEMBER
    23 Amounts Provided to Non Federal Entities             CL    D           B                         486                        374
                                                      Variance:                                           0                          0

CP Line Reclassification
                                                                                                      Previously                    Line Item
   F/N CP Line Description    FY2007-SEPTEMBER            FY2006-SEPTEMBER                             Reported                      Changes
   N Other Taxes and                                  0                            (7)                       (7)                           0
     Receipts
   N Excise Taxes                                 (486)                       (367)                        (367)                           0
               Total:                              486                         374                          374                            0




                                                                   - 22 ­

                                           U.S Department of the Treasury                                          11-14-2007 08:36:16
                                            Financial Management Service
                                       Governmentwide Financial Report System

                           GF003G-Closing Package Line Reclassification Summary Report

  Statement: CUSTODIAL ACTIVITY                                               Fiscal Year:   2007                 Period:     SEPTEMBER
  Entity: 2000 - Department of the Treasury                                   Reported in:   MILLIONS             Decimal Point:      ZERO
Amounts reported as normal/(abnormal) balances.
                                                          Acct
  Line# Agency Line Description                           Type    NB         F/N       FY 2007-SEPTEMBER           FY 2006-SEPTEMBER
    24 Amounts Provided to Fund the Federal                CL     D           B                    2,445,619                   2,283,420
        Government
                                                      Variance:                                             0                            0

CP Line Reclassification
                                                                                                    Previously                     Line Item
   F/N CP Line Description    FY2007-SEPTEMBER            FY2006-SEPTEMBER                           Reported                       Changes
    F Other Financing                     (2,445,608)                  (2,283,420)                  (2,283,420)                           0
      Sources
    F Expenditure                                  (11)                            0                         0                            0
      transfers-out of
      financing sources
                 Total:                    2,445,619                   2,283,420                    2,283,420                             0

                                                          Acct
  Line# Agency Line Description                           Type    NB         F/N       FY 2007-SEPTEMBER           FY 2006-SEPTEMBER
    25 Accrual Adjustment - (See Same Line Item            CL     D           B                      5,588                        554
        Above)
                                                      Variance:                                             0                            0

CP Line Reclassification
                                                                                                    Previously                     Line Item
   F/N CP Line Description    FY2007-SEPTEMBER            FY2006-SEPTEMBER                           Reported                       Changes
   N Individual Income                        (5,021)                         (250)                      (250)                            0
     Tax and Tax
     Witholdings
   N Other Taxes and                              (567)                       (304)                      (304)                            0
     Receipts
                Total:                            5,588                        554                        554                             0




                                                                   - 23 ­

                                                                                                                                                                                                  11/14/2007 09:00:16

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

    Note: 01             Federal Reserve Earnings, Subsequent Events, and Other Pertinent Information                                      Fiscal Year: 2007               Period: SEPTEMBER
    Entity: 2000         Department of the Treasury                                                                                        Agency Notes:     Note 21 Collections and Disposition of Cust Rev

 Status: Complete

Tab: Other Notes Info.

      Section: A             Section Name: Federal Reserve Earnings                                                           Rounding Method: Millions                           Decimal: Zero

Line Line Description     2007 - SEPTEMBER               2006 - SEPTEMBER                  Previously Rptd         Line Item Changes                                                                    Line    NB
 No                                                                                                                                                                                                  Attributes
  1 Treasury                               774,531                      764,639                       764,639                          0                                                              Dollars Credit
     securities
     including those
     held by the
     Federal Reserve
     Bank (FRB)
  2 FRB earnings on                         32,043                       29,945                        29,945                          0                                                               Dollars   Credit
     Treasury
     securities that
     exceed the
     statutory amount.
Tab: Text Data

 Line No           Question                                                                                            Answer
1                  Describe any significant events that occured after the date of the balance sheet but prior to       No signicant events know that ouccured after the date of the balance sheet but prior to
                   the agency's audited financial statements being issued.                                             the Treasury Department's audited financial statements being issued.
2                  Describe any departures from U.S. Generally Accepted Accounting Procedures (GAAP).                  NA
3                  Describe any change in accounting if a collecting entity adopts accounting standards that           NA
                   embody a fuller application of accrual accounting concepts that differs from that prescribed
                   by the standard-SFFAS no. 7, par.64.
4                  List and describe any entity or Treasury fund account symbol whose balances and activities          None
                   are not consolidated into the agency's audited consolidated agency financial statements.
5                  Provide any other relevant information pertaining to this note.                                     None




                                                                                                           -1­
                                                                                                                                                                                            11/14/2007 09:00:16

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

     Note: 02            Cash and Other Monetary Assets                                                                             Fiscal Year: 2007                 Period: SEPTEMBER
  Entity: 2000           Department of the Treasury                                                                                 Agency Notes:       Notes 5, 6 and 8

 Status: Complete

Tab: Line Item Notes
                                                                                   Acct
      Closing Package Line Description                                     NB      Type      2007 - SEPTEMBER    2006 - SEPTEMBER           Rounding Method: Millions
       Cash and Other Monetary Assets	                                      D        A                 107,757                 81,496
                                                                                                                                                        Decimal: Zero
                                                                                Variance:              107,757                      0

Line No     Line Description            2007 - SEPTEMBER            2006 - SEPTEMBER               Previously Rptd          Line Item Changes
 1          Operating Cash                              69,701                      43,587                       43,587                            0

 2          Other cash - not                               732                         596                          596                            0

            restricted

 3          Other cash - restricted                          362                            267                     267                            0

 4          International monetary                        13,764                         15,275                  25,984                     -10,709 

            assets

 5          Gold                                          11,041                         11,041                  11,041                            0

 6          Domestic monetary                                 21                             21                      21                            0

            assets

 7          Foreign currency                               12,136                        10,709                                              10,709 

            Total                                         107,757                        81,496                   81,496                          0


Threshold
Line Description                                              Question	                                                           Answer
Line Item Notes - Other cash - not restricted (2007 -         Please provide explanations for any amounts that have              This is mainly comprised of $700M cash reported by the Financial
SEPTEMBER)                                                    changed by 10% or more and or greater than 500,000 between         Management Service as Other listed in Note 5 of the Department's PAR. It
                                                              the current fiscal year and prior fiscal year. (Unaudited)	        is mainly cash expected to be included in Operating Cash in the near future.
                                                                                                                                 This balance fluctuates daily. The amounts include $4M in imprest funds
                                                                                                                                 held by the IRS and $28M of undeposited seized cash that has been
                                                                                                                                 forfieted and will become resources of the Treasury Forfeiture Fund.
Line Item Notes - International monetary assets (2007 -       Please provide explanations for any amounts that have              Decrease in the U.S. Reserve Position in the IMF (PAR Note 8) - $2.1B

SEPTEMBER)                                                    changed by 10% or more and or greater than 500,000 between         Increase Exchange Stabiization Special Drawing Rights (PAR Note 5)

                                                              the current fiscal year and prior fiscal year. (Unaudited)         $653M

Tab: Other Notes Info.




                                                                                                      -2­
                                                                                                                                                                                         11/14/2007 09:00:16

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

   Note: 02                 Cash and Other Monetary Assets                                                                            Fiscal Year: 2007             Period: SEPTEMBER
  Entity: 2000              Department of the Treasury                                                                                Agency Notes:   Notes 5, 6 and 8

 Status: Complete

Tab: Other Notes Info.

     Section: A                 Section Name: Other Related Information                                                Rounding Method: Millions                         Decimal: Zero

Line Line Description        2007 - SEPTEMBER                2006 - SEPTEMBER             Previously Rptd     Line Item Changes                                                               Line     NB
 No                                                                                                                                                                                        Attributes
  1 IMF Letter of                              53,212                      48,090                   48,019                    71                                                            Dollars   Debit
     Credit - available
     balance
  2 Reserve Position                            4,464                       6,621                    6,621                        0                                                          Dollars    Debit
     in the IMF
  3 SDR Holdings-                               9,363                       8,710                    8,710                        0                                                          Dollars    Debit
     Exchange
     Stabilization Fund
  4 SDR Certificates                            2,200                       2,200                    2,200                        0                                                          Dollars    Debit
     outstanding with
     the FRB
  5 Interest bearing                           -7,627                      -7,234                   -7,234                        0                                                          Dollars    Credit
     liability to the IMF
     for SDR
     Allocations
  6 Gold certificates                         -11,037                   -11,037                   -11,037                         0                                                          Dollars    Credit

     Section: B                 Section Name: Gold

Line Line Description        2007 - SEPTEMBER                2006 - SEPTEMBER             Previously Rptd     Line Item Changes                                                               Line       NB
 No                                                                                                                                                                                        Attributes
  1 Number of fine                  261,498,900.0000            261,498,900.0000          261,498,900.0000                  .0000                                                            Units       N/A
     troy ounces of
     gold
  2 Statutory price of                        42.2222                     42.2222                  42.2222                  .0000                                                             Units      N/A
     1 fine troy ounce
     of gold
  3 Market value of 1                        743.0000                  599.2500                  599.2500                   .0000                                                             Units      N/A
     fine troy ounce of
     gold




                                                                                                        -3­
                                                                                                                                                                                                        11/14/2007 09:00:16

                                                                                          U.S. Department of the Treasury
                                                                                           Financial Management Service
                                                                                      Governmentwide Financial Report System
                                                                                              GF006 - FR Notes Report

    Note: 02          Cash and Other Monetary Assets                                                                                         Fiscal Year: 2007                  Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                                             Agency Notes:       Notes 5, 6 and 8

 Status: Complete

Tab: Other Notes Info.
Tab: Text Data

Line No            Question                                                                                               Answer
1                  Describe the nature of the amount in the line item "other cash - not restricted".                      FMS Operating Cash reports $700M as Other. Cash that is epected to become
                                                                                                                          operating cash in the near future. $28M reported by the Treasury Forfeiture Fund
                                                                                                                          relates to seized cash that has been forfeited and is in transit to the Treasury Forfeiture
                                                                                                                          Fund. See Department PAR Note 5
2                  Describe the restrictions on the cash reported in the line item "Other cash - restricted" and          Various balances held by IRS that represent deposits from taxpayers U.S. Territories
                   any statutory authority.                                                                               that cannot be used in IRS Operations (.

3                  If you have restricted cash, is the restricted cash held in a financial institution? If yes, is it a   The Office of International Affairs maintains funds at the Federal Reserve Bank in New
                   Treasury designated bank?                                                                              York in two accounts that are restricted for use by the IMF. The articles of agreement
                                                                                                                          with the IMF provide for the return of these funds should the U.S. withdraw from the
                                                                                                                          IMF. Other restricted funds are held at Treasury designated financial institutions.
4                  If you have restricted cash, is the restricted cash invested? If yes, is it invested in the Bureau     Invested cash is displayed on the balance sheet line Investments. Investments in BPD
                   of the Public Debt security, agency security, and/or non-Federal security?                             securities are eliminated from the Department's balance sheet.
5                  Describe the nature of the amount in the line item "Foreign currency."                                 Foreign Cash held by the Exchange Stabilization Fund ($12B) and the Financial
                                                                                                                          Management Service Govenment-wide Cash ($91B).
6                  Provide relevant information if the amount reported in the line item "Foreign currency" is             It is restricted in that the ESF foreign cash can only be used by the ESF. All operations
                   restricted.                                                                                            of the ESF require the explicit authority of the Secretary of the Treasury. FMS
                                                                                                                          Government-wide Cash also holds foreign cash ($91M) in a custodial capacity for the
                                                                                                                          entire United States Government.
7                  Provide any other relevant information pertaining to this note.




                                                                                                                   -4­
                                                                                                                                                                                                11/14/2007 09:00:16

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 03           Accounts and Taxes Receivable                                                                                Fiscal Year: 2007                  Period: SEPTEMBER
  Entity: 2000          Department of the Treasury                                                                                   Agency Notes:       Note 10

 Status: Complete

Tab: Line Item Notes
                                                                                   Acct
      Closing Package Line Description                                       NB    Type     2007 - SEPTEMBER       2006 - SEPTEMBER          Rounding Method: Millions

                                                                                                                                                         Decimal: Zero
                                                                               Variance:

Line No     Line Description           2007 - SEPTEMBER              2006 - SEPTEMBER               Previously Rptd          Line Item Changes
 1          Accounts receivable,                               168                         146                        146                           0
            gross
 2          Related interest                                 1,490                         894                        894                           0
            receivable - accounts
            receivable
 3          Penalties, fines, and                                5                           6                          6                           0
            administrative fees
            receivable
 4          Less: allowance for                                 -2                          -2                         -2                           0
            loss on accounts
            receivable
 5          Less: allowance for                                 -2                          -2                         -2                           0
            loss on interest
            receivable
 6          Less: allowance for                                 -4                          -3                         -3                           0
            loss on penalties,
            fines, and admin. fees
            rec.
 7          Taxes receivable,                               98,010                     91,009                      91,009                           0
            gross
 8          Less: allowance for                            -72,007                    -70,007                    -70,007                            0
            loss on taxes
            receivable
            Total                                           27,658                     22,041                      22,041                            0

Threshold
Line Description                                                Question                                                           Answer
Line Item Notes - Accounts receivable, gross (2007 ­            Please provide explanations for any amounts that have             This is not a significant increase to an entity the size of the Department of
SEPTEMBER)                                                      changed by 10% or more and or greater than 500,000 between        the Treasury
                                                                the current fiscal year and prior fiscal year. (Unaudited)
Line Item Notes - Related interest receivable - accounts        Please provide explanations for any amounts that have             $1,290M increase is related to FMS Account 200650 Federal Reserve
receivable (2007 - SEPTEMBER)                                   changed by 10% or more and or greater than 500,000 between        Earnings. Reserve Banks are required by the Board of Governors of the
                                                                the current fiscal year and prior fiscal year. (Unaudited)        Federal Reserve System to transfer to the U.S. Treasury excess earnings,
                                                                                                                                  after providing for the cost of operations, payment of dividends, and
                                                                                                                                  reservation of an amount necessary to equate surplus with capital paid in.
                                                                                                                                  In the event of losses, or a substantial increase in capital, a Reserve Bank
                                                                                                                                  will suspend payments to the U.S. Treasury until recovery is made through
                                                                                                                                  subsequent earnings. Earnings incresed in FY 2007.


                                                                                                       -5­
                                                                                                                                                                                                 11/14/2007 09:00:16

                                                                                         U.S. Department of the Treasury
                                                                                          Financial Management Service
                                                                                     Governmentwide Financial Report System
                                                                                             GF006 - FR Notes Report

    Note: 03            Accounts and Taxes Receivable                                                                                    Fiscal Year: 2007                Period: SEPTEMBER
    Entity: 2000        Department of the Treasury                                                                                       Agency Notes:     Note 10

 Status: Complete

Tab: Other Notes Info.

      Section: A            Section Name: Taxes (To be completed by the Depts. of Treasury,                                 Rounding Method: Millions                            Decimal: Zero
                                          Labor and Homeland Security)

Line Line Description    2007 - SEPTEMBER                2006 - SEPTEMBER                  Previously Rptd       Line Item Changes                                                                    Line     NB
 No                                                                                                                                                                                                Attributes
  1 Interest on                                   2                             2                            2                       0                                                              Dollars   Debit
     uncollectible
     accounts (SFFAS
     No. 1, par. 55)




Tab: Text Data

 Line No           Question                                                                                          Answer
1                  Describe the method(s) used to calculate the allowances on accounts receivable.                   Allowances are calculated differently by each Treasury bureau and they are also
                                                                                                                     dependent on the nature of the balances: Aging analysis and estimates based on
                                                                                                                     historical data.
2                  Describe the method(s) used to calculate the allowance on taxes receivable.                       IRS _ "Gross federal taxes receivable, net of potential collections equals the difference
                                                                                                                     Adjustment for Delinquent Account (ADA).
                                                                                                                     The allowance is the Gross Taxes Receivable figure minus an adjusted estimate (taxes
                                                                                                                     receivable that should be reclassified into Write-offs, Compliance Assessments, or
                                                                                                                     Memo Modules), minus the estimate of collectibility to yield the allowance. SFFAS No.
                                                                                                                     7 par.56, states that the allowance results in an adjustment of nonexchange revenue,
                                                                                                                     rather than a bad debt expense. The allowance reflects an estimate of the portion of
                                                                                                                     the total Taxes Receivable deemed to be uncollectible."
                                                                                                                     TTB:: In order to calculate the allowance on taxes receivable, the aging of taxes
                                                                                                                     receivable was reviewed, individual account balances were analyzed, offers in
                                                                                                                     compromise were analyzed, and collections were analyzed and projected to future
                                                                                                                     periods. To estimate the net realizable value of receivables, an analysis was performed
                                                                                                                     of the aged receivable balances, applicable fund and accout balances, and historical
                                                                                                                     collection of outstanding receivables. Offers in compromise were analyzed using
                                                                                                                     information provided by TTB's National Revenue Center office in Cincinnati, OH.
                                                                                                                     Individual account receivable balances over $100,000 in which no OIC has been
                                                                                                                     submitted were anlyazed and information was provided by TTB's National Revenue
                                                                                                                     Center office in Cincinnati, OH. Historical collections on receivables were scheduled
                                                                                                                     out by BFY and the remaining receivables were reviewed to project what was expected
                                                                                                                     to be collected in future periods. The projected collection rates were anlayzed and
                                                                                                                     applied to the net receiveable balances (adjusted for OIC's and known uncollectible
                                                                                                                     accounts) to produce an estimated allowance amount.

3                  Provide any other relevant information pertaining to this note.                                   None




                                                                                                        -6­
                                                                                                                                                                                             11/14/2007 09:00:16

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

      Note: 04A          Direct Loans Receivable                                                                                        Fiscal Year: 2007              Period: SEPTEMBER
  Entity: 2000           Department of the Treasury                                                                                     Agency Notes:    Note 3

 Status: Complete

Tab: Line Item Notes
                                                                                    Acct
       Closing Package Line Description                                     NB      Type      2007 - SEPTEMBER      2006 - SEPTEMBER           Rounding Method: Millions
        Loans Receivable                                                     D        A                       175                  288
                                                                                                                                                            Decimal: Zero
                                                                                 Variance:                     0                        0

Line No     Line Description            CY: Face Value of Loans     CY: Long-Term Cost of              CY Net Loans          PY: Face Value of Loans        PY: Long-Term Cost of            PY Net Loans
                                               Oustanding                      Loans                                                Oustanding                         Loans
 13          Loans to Non-Feds ­                             194                        19                            175                         275                          -13                             288
            Including Foreign
 14
 15
 16
 17
 18         All other loans
            receivable
            Total                                            194                              19                      175                          275                          -13                            288

Threshold
Line Description                                               Question                                                             Answer
Line Item Notes - Loans to Non-Feds - Including Foreign        Please provide explanations for any amounts that have                See above.
(CY: Long-Term Cost of Loans)                                  changed by 10% or more and or greater than 500,000 between
                                                               the current fiscal year and prior fiscal year. (Unaudited)
Line Item Notes - Loans to Non-Feds - Including Foreign        Please provide explanations for any amounts that have                The balance will continue to decrease as no new foreign loans are being
(CY: Face Value of Loans Oustanding)                           changed by 10% or more and or greater than 500,000 between           made. The United Kingdom paid its loan in full in December 2006. Greece
                                                               the current fiscal year and prior fiscal year. (Unaudited)           is continuing to make principal and interest payments. Loan held by ATSB
                                                                                                                                    was paid in full during FY 2007. The ATSB program has terminated.
Tab: Other Notes Info.

       Section: A              Section Name: Subsidy Expense                                                                Rounding Method: Millions                        Decimal: Zero

Line Line Description         2007 - SEPTEMBER          2006 - SEPTEMBER D                Previously Rptd D     Line Item Changes D                                                               Line         NB
 No                                          D                                                                                                                                                 Attributes
  13                                                                                                                                                                                            Dollars        N/A
 14                                                                                                                                                                                             Dollars        N/A
 15                                                                                                                                                                                             Dollars        N/A
 16                                                                                                                                                                                             Dollars        N/A
 17                                                                                                                                                                                             Dollars        N/A
 18 All other loans                                22                      23                                                      23                                                           Dollars        N/A
     receivable
 19 Total                                          22                      23                                                      23                                                            Dollars       N/A



                                                                                                        -7­
                                                                                                                                                                              11/14/2007 09:00:16

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

   Note: 04A             Direct Loans Receivable                                                                               Fiscal Year: 2007         Period: SEPTEMBER
  Entity: 2000           Department of the Treasury                                                                            Agency Notes:    Note 3

 Status: Complete

Tab: Other Notes Info.

    Section: B               Section Name: Foreclosed Assets - Balances (SFFAS No. 3, par.      No Data Flag: YES   Rounding Method: Millions                 Decimal: Zero
                                           91)

Line Line Description     2007 - SEPTEMBER             2006 - SEPTEMBER               Previously Rptd      Line Item Changes                                                       Line     NB
 No                                                                                                                                                                             Attributes
  1 Balances for                                                                                                                                                                 Dollars   Debit
     property held
     Pre-1992
  2 Balances for                                                                                                                                                                  Dollars   Debit
     property held
     Post-1991



    Section: C               Section Name: Reconciliation Schedule for Subsidy Cost Allowance   No Data Flag: YES   Rounding Method: User-Defined             Decimal: User-Defined
                                           Balance - Direct Loans

Line Line Description     2007 - SEPTEMBER             2006 - SEPTEMBER               Previously Rptd      Line Item Changes                                                       Line     NB
 No                                                                                                                                                                             Attributes
  1 (I) Beginning                                                                                                                                                                Dollars   Debit
     balance of the
     subsidy cost
     allowance
  2 (I) Interest rate                                                                                                                                                             Dollars   Debit
     differential cost
  3 (I) Default costs                                                                                                                                                             Dollars   Debit
     (net of
     operations)
  4 (I) Fees and                                                                                                                                                                  Dollars   Credit
     other collections
  5 (I) Other subsidy                                                                                                                                                             Dollars   Debit
     costs
  6 (I) Total of the                                                                                                                                                              Dollars   Debit
     above subsidy
     expense
     components
  7 (I) Loan                                                                                                                                                                      Dollars   Debit
     modificatiions
  8 (I) Fees received                                                                                                                                                             Dollars   Debit
  9 (I) Foreclosed                                                                                                                                                                Dollars   Debit
     propery acquired
 10 (I) Loans written                                                                                                                                                             Dollars   Credit
     off



                                                                                                   -8­
                                                                                                                                                                                 11/14/2007 09:00:16

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

   Note: 04A            Direct Loans Receivable                                                                                Fiscal Year: 2007           Period: SEPTEMBER
  Entity: 2000          Department of the Treasury                                                                             Agency Notes:    Note 3

 Status: Complete

Tab: Other Notes Info.

       Section: C            Section Name: Reconciliation Schedule for Subsidy Cost Allowance   No Data Flag: YES    Rounding Method: User-Defined               Decimal: User-Defined
                                           Balance - Direct Loans

 11 (I) Subsidy                                                                                                                                                                      Dollars    Debit
    allowance
    amortization
 12 (I) Other                                                                                                                                                                        Dollars    Debit
 13 (I) Ending                                                                                                                                                                       Dollars    Debit
    balance of the
    subsidy cost
    allowance before
    reestimates
 14 (I) Interest rate                                                                                                                                                                Dollars    Debit
    reestimate
 15 (I)                                                                                                                                                                              Dollars    Debit
    Technical/default
    reestimate
 16 (I) Total of the                                                                                                                                                                 Dollars    Debit
    above reestimate
    components
 17 (I) Ending                                                                                                                                                                       Dollars    Debit
    balance of the
    subsidy cost
    allowance

       Section: D            Section Name: Subsidy Rates for Direct Loans                       No Data Flag: YES


Line   Line Description CY Interest Differential               CY Defaults           CY Fees and Other              CY Other                   CY Total   CY Loan Modification        Line       NB
 No                                                                                       Collections                                                                              Attributes
  1    (I)                                                                                                                                                                          Percent     N/A
  2    (I)                                                                                                                                                                          Percent     N/A
  3    (I)                                                                                                                                                                          Percent     N/A
  4    (I)                                                                                                                                                                          Percent     N/A
  5    (I)                                                                                                                                                                          Percent     N/A
  6    (I)                                                                                                                                                                          Percent     N/A
  7    (I)                                                                                                                                                                          Percent     N/A
  8    (I)                                                                                                                                                                          Percent     N/A
  9    (I)                                                                                                                                                                          Percent     N/A
 10    (I)                                                                                                                                                                          Percent     N/A
 11    (I)                                                                                                                                                                          Percent     N/A
 12    (I)                                                                                                                                                                          Percent     N/A
 13    (I)                                                                                                                                                                          Percent     N/A


                                                                                                   -9­
                                                                                                                                                                              11/14/2007 09:00:16

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

       Note: 04A          Direct Loans Receivable                                                                           Fiscal Year: 2007            Period: SEPTEMBER
   Entity: 2000           Department of the Treasury                                                                        Agency Notes:     Note 3

  Status: Complete

 Tab: Other Notes Info.

        Section: D            Section Name: Subsidy Rates for Direct Loans                   No Data Flag: YES


  14    (I)                                                                                                                                                                      Percent     N/A
  15    (I)                                                                                                                                                                      Percent     N/A
  16    (I)                                                                                                                                                                      Percent     N/A
  17    (I)                                                                                                                                                                      Percent     N/A
  18    (I)                                                                                                                                                                      Percent     N/A
  19    (I)                                                                                                                                                                      Percent     N/A
  20    (I)                                                                                                                                                                      Percent     N/A
  21    (I)                                                                                                                                                                      Percent     N/A
  22    (I)                                                                                                                                                                      Percent     N/A
  23    (I)                                                                                                                                                                      Percent     N/A
  24    (I)                                                                                                                                                                      Percent     N/A
  25    (I)                                                                                                                                                                      Percent     N/A
  26    (I)                                                                                                                                                                      Percent     N/A
  27    (I)                                                                                                                                                                      Percent     N/A
  28    (I)                                                                                                                                                                      Percent     N/A
  29    (I)                                                                                                                                                                      Percent     N/A
  30    (I)                                                                                                                                                                      Percent     N/A
  31    (I)                                                                                                                                                                      Percent     N/A
  32    (I)                                                                                                                                                                      Percent     N/A
  33    (I)                                                                                                                                                                      Percent     N/A
  34    (I)                                                                                                                                                                      Percent     N/A
  35    (I) All other                                                                                                                                                            Percent     N/A
        programs
Line   Line Description   PY Interest differential             PY Defaults        PY Fees and other              PY Other                   PY Total   PY Loan Modification        Line      NB
 No                                                                                    collections                                                                              Attributes
   1   (I)                                                                                                                                                                       Percent     N/A
   2   (I)                                                                                                                                                                       Percent     N/A
   3   (I)                                                                                                                                                                       Percent     N/A
   4   (I)                                                                                                                                                                       Percent     N/A
   5   (I)                                                                                                                                                                       Percent     N/A
   6   (I)                                                                                                                                                                       Percent     N/A
   7   (I)                                                                                                                                                                       Percent     N/A
   8   (I)                                                                                                                                                                       Percent     N/A
   9   (I)                                                                                                                                                                       Percent     N/A
  10   (I)                                                                                                                                                                       Percent     N/A
  11   (I)                                                                                                                                                                       Percent     N/A
  12   (I)                                                                                                                                                                       Percent     N/A


                                                                                                - 10 ­
                                                                                                                                                                         11/14/2007 09:00:16

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

     Note: 04A            Direct Loans Receivable                                                                               Fiscal Year: 2007        Period: SEPTEMBER
  Entity: 2000            Department of the Treasury                                                                            Agency Notes:   Note 3

 Status: Complete

Tab: Other Notes Info.

      Section: D              Section Name: Subsidy Rates for Direct Loans                      No Data Flag: YES


13   (I)                                                                                                                                                                      Percent     N/A
14   (I)                                                                                                                                                                      Percent     N/A
15   (I)                                                                                                                                                                      Percent     N/A
16   (I)                                                                                                                                                                      Percent     N/A
17   (I)                                                                                                                                                                      Percent     N/A
18   (I)                                                                                                                                                                      Percent     N/A
19   (I)                                                                                                                                                                      Percent     N/A
20   (I)                                                                                                                                                                      Percent     N/A
21   (I)                                                                                                                                                                      Percent     N/A
22   (I)                                                                                                                                                                      Percent     N/A
23   (I)                                                                                                                                                                      Percent     N/A
24   (I)                                                                                                                                                                      Percent     N/A
25   (I)                                                                                                                                                                      Percent     N/A
26   (I)                                                                                                                                                                      Percent     N/A
27   (I)                                                                                                                                                                      Percent     N/A
28   (I)                                                                                                                                                                      Percent     N/A
29   (I)                                                                                                                                                                      Percent     N/A
30   (I)                                                                                                                                                                      Percent     N/A
31   (I)                                                                                                                                                                      Percent     N/A
32   (I)                                                                                                                                                                      Percent     N/A
33   (I)                                                                                                                                                                      Percent     N/A
34   (I)                                                                                                                                                                      Percent     N/A
35   (I) All other                                                                                                                                                            Percent     N/A
     programs

      Section: E              Section Name: Foreclosed assets- Number of units (SFFAS No. 3,    No Data Flag: YES
                                            par. 91)

Line Line Description      2007 - SEPTEMBER            2006 - SEPTEMBER               Previously Rptd       Line Item Changes                                                   Line      NB
 No                                                                                                                                                                          Attributes
  1 (I) Number of                                                                                                                                                              Units      N/A
     properties in the
     foreclosure
     process
  2 (I) Number of                                                                                                                                                              Units      N/A
     properties held
  3 (I) Average                                                                                                                                                                Units      N/A
     holding period for


                                                                                                   - 11 ­
                                                                                                                                                                                  11/14/2007 09:00:16

                                                                                           U.S. Department of the Treasury
                                                                                            Financial Management Service
                                                                                       Governmentwide Financial Report System
                                                                                               GF006 - FR Notes Report

    Note: 04A              Direct Loans Receivable                                                                                     Fiscal Year: 2007        Period: SEPTEMBER
    Entity: 2000           Department of the Treasury                                                                                  Agency Notes:   Note 3

 Status: Complete

Tab: Other Notes Info.

      Section: E               Section Name: Foreclosed assets- Number of units (SFFAS No. 3,          No Data Flag: YES
                                             par. 91)

      properties held in
      months




      Section: F               Section Name: Foreclosed Assets- Balances (SFFAS No. 3, par. 91)        No Data Flag: YES    Rounding Method: User-Defined            Decimal: User-Defined

Line Line Description       2007 - SEPTEMBER               2006 - SEPTEMBER                  Previously Rptd       Line Item Changes                                                    Line     NB
 No                                                                                                                                                                                  Attributes
  1 (I) Balances for                                                                                                                                                                  Dollars   Debit
     property held Pre
     1992
  2 (I) Balances for                                                                                                                                                                   Dollars   Debit
     property held
     Post 1991



Tab: Text Data                           No Data Flag: YES

 Line No             Question                                                                                          Answer
1                    Provide a broad description of foreclosed property.
2                    Provide any other relevant information pertaining to this note.




                                                                                                          - 12 ­
                                                                                                                                                                                      11/14/2007 09:00:16

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

      Note: 04B          Loan Guarantees                                                                                          Fiscal Year: 2007              Period: SEPTEMBER
  Entity: 2000           Department of the Treasury                                                                               Agency Notes:     None

 Status: Complete

Tab: Line Item Notes
                                                                                 Acct
       Closing Package Line Description                                   NB     Type     2007 - SEPTEMBER       2006 - SEPTEMBER        Rounding Method: Millions
        Loan Guarantee Liabilities                                        C        L                         0                    0
                                                                                                                                                      Decimal: Zero
                                                                              Variance:                      0                    0

Line No     Line Description            2007 - SEPTEMBER           2006 - SEPTEMBER             Previously Rptd           Line Item Changes
 9          Air Transportation
            Stabilization Board
 13
 14
 15
 16
 17
 18         All other loan
            guarantee liabilities
            Total


Tab: Other Notes Info.

       Section: A              Section Name: Other Related Information                          No Data Flag: YES       Rounding Method: Millions                     Decimal: Zero

Line Line Description      CY Face Value of           CY Amount Guaranteed      CY Subsidy Expense D        PY Face Value of Loans PY Amount Guaranteed by     PY Subsidy Expense D        Line      NB
 No                    Loans Outstanding D             by the Government D                                         Outstanding D        the Government D                                Attributes
  9 Air Transportation                                                                                                                                                                   Dollars     N/A
     Stabilization
     Board
 13                                                                                                                                                                                       Dollars    N/A
 14                                                                                                                                                                                       Dollars    N/A
 15                                                                                                                                                                                       Dollars    N/A
 16                                                                                                                                                                                       Dollars    N/A
 17                                                                                                                                                                                       Dollars    N/A
 18 All other loans                                                                                                                                                                       Dollars    N/A
     guarantee
     liabilities
 19 Total:                                                                                                                                                                                Dollars    N/A




                                                                                                   - 13 ­
                                                                                                                                                                              11/14/2007 09:00:16

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                      GF006 - FR Notes Report

   Note: 04B             Loan Guarantees                                                                                         Fiscal Year: 2007       Period: SEPTEMBER
  Entity: 2000           Department of the Treasury                                                                              Agency Notes:    None

 Status: Complete

Tab: Other Notes Info.

    Section: B               Section Name: Reconciliation of Loan Guarantee Liability Balances   No Data Flag: YES    Rounding Method: Millions               Decimal: Zero

Line Line Description     2007 - SEPTEMBER             2006 - SEPTEMBER                Previously Rptd       Line Item Changes                                                     Line    NB
 No                                                                                                                                                                             Attributes
  1 (I) Beginning                                                                                                                                                                Dollars Credit
     balance of the
     loan guarantee
     liability
  2 (I) Interest                                                                                                                                                                  Dollars   Credit
     supplement costs
  3 (I) Default costs                                                                                                                                                             Dollars   Credit
     (net of
     recoveries)
  4 (I) Fees and                                                                                                                                                                  Dollars   Debit
     other collections
  5 (I) Other subsidy                                                                                                                                                             Dollars   Credit
     costs
  6 (I) Total of the                                                                                                                                                              Dollars   Debit
     above subsidy
     expense
     components
  7 (I) Loan                                                                                                                                                                      Dollars   Credit
     guarantee
     modifications
  8 (I) Fees received                                                                                                                                                             Dollars   Credit
  9 (I) Interest                                                                                                                                                                  Dollars   Debit
     supplements paid
 10 (I) Foreclosed                                                                                                                                                                Dollars   Credit
     property and
     loans acquired
 11 (I) Claim                                                                                                                                                                     Dollars   Debit
     payments to
     lenders
 12 (I) Interest                                                                                                                                                                  Dollars   Credit
     accumulation on
     the liability
     balance
 13 (I) Other Loan                                                                                                                                                                Dollars   Credit
     Guarantees
 14 (I) Ending                                                                                                                                                                    Dollars   Debit
     balance of the
     loan guarantee
     before
     reestimates


                                                                                                    - 14 ­
                                                                                                                                                                                      11/14/2007 09:00:16

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

   Note: 04B              Loan Guarantees                                                                                        Fiscal Year: 2007              Period: SEPTEMBER
  Entity: 2000            Department of the Treasury                                                                             Agency Notes:      None

 Status: Complete

Tab: Other Notes Info.

       Section: B             Section Name: Reconciliation of Loan Guarantee Liability Balances   No Data Flag: YES    Rounding Method: Millions                      Decimal: Zero

 15 (I) Interest rate                                                                                                                                                                     Dollars    Debit
    reestimate
 16 (I)                                                                                                                                                                                   Dollars    Debit
    Technical/default
    reestimate
 17 (I) Total of the                                                                                                                                                                      Dollars    Debit
    above reestimate
    components
 18 (I) Ending                                                                                                                                                                            Dollars    Debit
    balance of loan
    guarantee liability

       Section: C             Section Name: Subsidy Rates for Loan Gurantees                      No Data Flag: YES


Line   Line Description              CY Interest                 CY Defaults           CY Fees and Other              CY Other                     CY Total   PY Interest Supplements      Line       NB
 No                               Supplements                                               Collections                                                                                 Attributes
  1    (I)                                                                                                                                                                               Percent     N/A
  2    (I)                                                                                                                                                                               Percent     N/A
  3    (I)                                                                                                                                                                               Percent     N/A
  4    (I)                                                                                                                                                                               Percent     N/A
  5    (I)                                                                                                                                                                               Percent     N/A
  6    (I)                                                                                                                                                                               Percent     N/A
  7    (I)                                                                                                                                                                               Percent     N/A
  8    (I)                                                                                                                                                                               Percent     N/A
  9    (I)                                                                                                                                                                               Percent     N/A
 10    (I)                                                                                                                                                                               Percent     N/A
 11    (I)                                                                                                                                                                               Percent     N/A
 12    (I)                                                                                                                                                                               Percent     N/A
 13    (I)                                                                                                                                                                               Percent     N/A
 14    (I)                                                                                                                                                                               Percent     N/A
 15    (I)                                                                                                                                                                               Percent     N/A
 16    (I)                                                                                                                                                                               Percent     N/A
 17    (I)                                                                                                                                                                               Percent     N/A
 18    (I)                                                                                                                                                                               Percent     N/A
 19    (I)                                                                                                                                                                               Percent     N/A
 20    (I)                                                                                                                                                                               Percent     N/A
 21    (I)                                                                                                                                                                               Percent     N/A
 22    (I)                                                                                                                                                                               Percent     N/A



                                                                                                    - 15 ­
                                                                                                                                                                    11/14/2007 09:00:16

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

       Note: 04B          Loan Guarantees                                                                                    Fiscal Year: 2007      Period: SEPTEMBER
   Entity: 2000           Department of the Treasury                                                                         Agency Notes:   None

  Status: Complete

 Tab: Other Notes Info.

        Section: C            Section Name: Subsidy Rates for Loan Gurantees                  No Data Flag: YES


  23    (I)                                                                                                                                                              Percent     N/A
  24    (I)                                                                                                                                                              Percent     N/A
  25    (I)                                                                                                                                                              Percent     N/A
  26    (I)                                                                                                                                                              Percent     N/A
  27    (I)                                                                                                                                                              Percent     N/A
  28    (I)                                                                                                                                                              Percent     N/A
  29    (I)                                                                                                                                                              Percent     N/A
  30    (I)                                                                                                                                                              Percent     N/A
  31    (I)                                                                                                                                                              Percent     N/A
  32    (I)                                                                                                                                                              Percent     N/A
  33    (I)                                                                                                                                                              Percent     N/A
  34    (I)                                                                                                                                                              Percent     N/A
  35    (I) All other                                                                                                                                                    Percent     N/A
        programs
Line   Line Description            PY Defaults           PY Fees and Other                PY Other                PY Total                                                 Line      NB
 No                                                           Collections                                                                                               Attributes
   1   (I)                                                                                                                                                               Percent     N/A
   2   (I)                                                                                                                                                               Percent     N/A
   3   (I)                                                                                                                                                               Percent     N/A
   4   (I)                                                                                                                                                               Percent     N/A
   5   (I)                                                                                                                                                               Percent     N/A
   6   (I)                                                                                                                                                               Percent     N/A
   7   (I)                                                                                                                                                               Percent     N/A
   8   (I)                                                                                                                                                               Percent     N/A
   9   (I)                                                                                                                                                               Percent     N/A
  10   (I)                                                                                                                                                               Percent     N/A
  11   (I)                                                                                                                                                               Percent     N/A
  12   (I)                                                                                                                                                               Percent     N/A
  13   (I)                                                                                                                                                               Percent     N/A
  14   (I)                                                                                                                                                               Percent     N/A
  15   (I)                                                                                                                                                               Percent     N/A
  16   (I)                                                                                                                                                               Percent     N/A
  17   (I)                                                                                                                                                               Percent     N/A
  18   (I)                                                                                                                                                               Percent     N/A
  19   (I)                                                                                                                                                               Percent     N/A
  20   (I)                                                                                                                                                               Percent     N/A



                                                                                                 - 16 ­
                                                                                                                                                                      11/14/2007 09:00:16

                                                                                          U.S. Department of the Treasury
                                                                                           Financial Management Service
                                                                                      Governmentwide Financial Report System
                                                                                              GF006 - FR Notes Report

     Note: 04B         Loan Guarantees                                                                                         Fiscal Year: 2007      Period: SEPTEMBER
     Entity: 2000      Department of the Treasury                                                                              Agency Notes:   None

 Status: Complete

Tab: Other Notes Info.

       Section: C            Section Name: Subsidy Rates for Loan Gurantees                         No Data Flag: YES


21  (I)                                                                                                                                                                   Percent   N/A
22  (I)                                                                                                                                                                   Percent   N/A
23  (I)                                                                                                                                                                   Percent   N/A
24  (I)                                                                                                                                                                   Percent   N/A
25  (I)                                                                                                                                                                   Percent   N/A
26  (I)                                                                                                                                                                   Percent   N/A
27  (I)                                                                                                                                                                   Percent   N/A
28  (I)                                                                                                                                                                   Percent   N/A
29  (I)                                                                                                                                                                   Percent   N/A
30  (I)                                                                                                                                                                   Percent   N/A
31  (I)                                                                                                                                                                   Percent   N/A
32  (I)                                                                                                                                                                   Percent   N/A
33  (I)                                                                                                                                                                   Percent   N/A
34  (I)                                                                                                                                                                   Percent   N/A
35  (I) All other                                                                                                                                                         Percent   N/A
    programs
Tab: Text Data                         No Data Flag: YES

 Line No            Question                                                                                        Answer
 1                  Provide any other relevant information pertaining to this note.




                                                                                                       - 17 ­
                                                                                                                                                                                                     11/14/2007 09:00:16

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 05             Inventories and Related Property                                                                                      Fiscal Year: 2007              Period: SEPTEMBER
  Entity: 2000            Department of the Treasury                                                                                            Agency Notes:    Note 11, Forfeiture Standalone Report

 Status: Complete

Tab: Line Item Notes
                                                                                       Acct
      Closing Package Line Description                                          NB     Type      2007 - SEPTEMBER           2006 - SEPTEMBER           Rounding Method: Millions
       Inventory and Related Property                                           D        A                          638                       389
                                                                                                                                                                    Decimal: Zero
                                                                                    Variance:                        0                          0

Line No    Line Description              2007 - SEPTEMBER               2006 - SEPTEMBER                Previously Rptd                Line Item Changes
 1         Gross Inventory ­                                     395                            468                            468                           0
           balance beginning of
           year
 2         Prior-period
           adjustment (not
           restated)
 3         Capitalized                                          1,237                         1,084                          1,084                           0
           acquisitions from the
           public
 4         Capitalized
           acquisitions from
           Government agencies
 5         Inventory sold or used                               -983                         -1,157                         -1,157                           0
 6         Total allowance for                                   -11                             -6                             -6                           0
           inventories and related
           property
           Total                                                  638                           389                            389                           0

Tab: Other Notes Info.

      Section: A               Section Name: Inventory Yearend Balances by Category Type                                             Rounding Method: Millions                       Decimal: Zero

Line Line Description       2007 - SEPTEMBER                 2006 - SEPTEMBER                 Previously Rptd             Line Item Changes                                                                 Line     NB
 No                                                                                                                                                                                                      Attributes
  1 Inventory                                                                                                                                                                                             Dollars   Debit
     purchased for
     sale
  2 Inventory held in                                                                                                                                                                                     Dollars   Debit
     reserve for future
     sale to the public
  3 Inventory and                                                                                                                                                                                         Dollars   Debit
     operating material
     and supplies held
     for repair
  4 Inventory ­                                                                                                                                                                                           Dollars   Debit
     excess, obsolete,
     and
     unserviceable


                                                                                                           - 18 ­
                                                                                                                                                                               11/14/2007 09:00:16

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                      GF006 - FR Notes Report

   Note: 05              Inventories and Related Property                                                                  Fiscal Year: 2007             Period: SEPTEMBER
  Entity: 2000           Department of the Treasury                                                                        Agency Notes:   Note 11, Forfeiture Standalone Report

 Status: Complete

Tab: Other Notes Info.

    Section: A                Section Name: Inventory Yearend Balances by Category Type                      Rounding Method: Millions                         Decimal: Zero

  5 Operating                                    15                      15                    15                      0                                                           Dollars   Debit
    materials and
    supplies held for
    use
  6 Operating                                    23                      23                    23                      0                                                           Dollars   Debit
    materials and
    supplies held in
    reserve for future
    use
  7 Operating                                                                                                                                                                      Dollars   Debit
    materials and
    supplies excess,
    obsolete, and
    unserviceable
  8 Stockpile                                                                                                                                                                      Dollars   Debit
    materials
  9 Stockpile                                                                                                                                                                      Dollars   Debit
    materials held for
    sale
 10 Forfeited property                           85                      59                    59                      0                                                           Dollars   Debit
 11 Other related                               526                     304                   304                      0                                                           Dollars   Debit
    property
 12 Total allowance                              11                      12                    12                      0                                                           Dollars   Credit
    for inventories
    and related
    property
 13 Total inventories                           638                     389                   389                      0                                                           Dollars    N/A
    and related
    property, net




                                                                                               - 19 ­
                                                                                                                                                                                        11/14/2007 09:00:16

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

   Note: 05                 Inventories and Related Property                                                                        Fiscal Year: 2007             Period: SEPTEMBER
  Entity: 2000              Department of the Treasury                                                                              Agency Notes:   Note 11, Forfeiture Standalone Report

 Status: Complete

Tab: Other Notes Info.

       Section: B                Section Name: Capitalized Acquitions From Government Agencies     No Data Flag: YES    Rounding Method: Millions                       Decimal: Zero
                                               by Trading Patrner

Line Line Description         2007 - SEPTEMBER                 2006 - SEPTEMBER          Previously Rptd       Line Item Changes                                                               Line     NB
 No                                                                                                                                                                                         Attributes
  1 General Services                                                                                                                                                                         Dollars   Debit
     Administration
  2 Department of                                                                                                                                                                            Dollars   Debit
     Defense
  3 Department of                                                                                                                                                                            Dollars   Debit
     Interior
  4 Department of                                                                                                                                                                            Dollars   Debit
     Justice
  5 National                                                                                                                                                                                 Dollars   Debit
     Aeronautics and
     Space
     Administration
  6 All other                                                                                                                                                                                Dollars   Debit
     departments
  7 Total Capitalized                                                                                                                                                                        Dollars   N/A
     Assets from
     Federal Agencies

       Section: C                Section Name: Other Information - Dollar Value                                         Rounding Method: Millions                       Decimal: Zero

Line   Line Description       2007 - SEPTEMBER                 2006 - SEPTEMBER          Previously Rptd       Line Item Changes                                                               Line     NB
 No                                                                                                                                                                                         Attributes
  1    Seized property                             694                       575                                              575                                                            Dollars   Debit
  2    Forfeited property                           85                        69                                               69                                                            Dollars   Debit
  3    Goods held under                                                                                                                                                                      Dollars   Debit
       price support and
       stabilization
       programs




                                                                                                      - 20 ­
                                                                                                                                                                                            11/14/2007 09:00:16

                                                                                         U.S. Department of the Treasury
                                                                                          Financial Management Service
                                                                                     Governmentwide Financial Report System
                                                                                             GF006 - FR Notes Report

   Note: 05                 Inventories and Related Property                                                                            Fiscal Year: 2007             Period: SEPTEMBER
  Entity: 2000              Department of the Treasury                                                                                  Agency Notes:   Note 11, Forfeiture Standalone Report

 Status: Complete

Tab: Other Notes Info.

       Section: D                Section Name: Other Information - Number of Items/Volume

Line   Line Description       2007 - SEPTEMBER                 2006 - SEPTEMBER             Previously Rptd       Line Item Changes                                                                Line       NB
 No                                                                                                                                                                                             Attributes
  1    Seized property                    26,515.0000                  23,089.0000                                        23,089.0000                                                             Units      N/A
  2    Forfeited property                 14,798.0000                   9,907.0000                                         9,907.0000                                                             Units      N/A
  3    Goods held under                                                                                                                                                                           Units      N/A
       price support and
       stabilization
       programs



       Section: E                Section Name: Other Information                                      No Data Flag: YES    Rounding Method: Millions                        Decimal: Zero

Line Line Description         2007 - SEPTEMBER                 2006 - SEPTEMBER                                                                                                                    Line     NB
 No                                                                                                                                                                                             Attributes
  1 (I) Difference                                                                                                                                                                               Dollars   Debit
     between stockpile
     material carrying
     amount and its
     estimated selling
     price
  2 (I) Difference                                                                                                                                                                               Dollars     Debit
     between excess,
     obsolete, or
     unserviceable
     material carrying
     amount and its
     estimated selling
     price
  3 (I) Amount of                                                                                                                                                                                Dollars     Debit
     inventory
     revalued by
     holding gains and
     losses
  4 (I) Change in                                                                                                                                                                                Dollars     Debit
     allowance




                                                                                                         - 21 ­
                                                                                                                                                                                            11/14/2007 09:00:16

                                                                                         U.S. Department of the Treasury
                                                                                          Financial Management Service
                                                                                     Governmentwide Financial Report System
                                                                                             GF006 - FR Notes Report

       Note: 05            Inventories and Related Property                                                                              Fiscal Year: 2007             Period: SEPTEMBER
   Entity: 2000            Department of the Treasury                                                                                    Agency Notes:   Note 11, Forfeiture Standalone Report

  Status: Complete

 Tab: Other Notes Info.

        Section: F              Section Name: Seized Property-Analysis of Change in Dollar Value       No Data Flag: YES    Rounding Method: User-Defined                    Decimal: User-Defined

Line Line Description           CY Balance at the             CY Seized during the      CY Disposed of during CY Balance at end of the          PY Balance at the       PY Seized during the  Line            NB
 No                          Beginning of the year                        year D                  the year C                   year       Beginning of the year D                   year D Attributes
                                                D
   1    (I)                                                                                                                                                                                       Dollars     N/A
   2    (I)                                                                                                                                                                                       Dollars     N/A
   3    (I)                                                                                                                                                                                       Dollars     N/A
   4    (I)                                                                                                                                                                                       Dollars     N/A
Line   Line Description    PY Disposed of during        PY Balance at the end of                                                                                                                    Line      NB
 No                                  the year C                       the year                                                                                                                   Attributes
  1    (I)                                                                                                                                                                                        Dollars     N/A
  2    (I)                                                                                                                                                                                        Dollars     N/A
  3    (I)                                                                                                                                                                                        Dollars     N/A
  4    (I)                                                                                                                                                                                        Dollars     N/A

        Section: G              Section Name: Seized Property-Analysis of Change in the Number         No Data Flag: YES
                                              of Items

Line    Line Description        CY Balance at the             CY Seized during the      CY Disposed of during CY Balance at the end of           PY Balance at the     PY Seized during the    Line           NB
 No                        beginning of the year                            year                   the year                 the year        beginning of the year                    year   Attributes
  1     (I)                                                                                                                                                                                   Units           N/A
  2     (I)                                                                                                                                                                                   Units           N/A
  3     (I)                                                                                                                                                                                   Units           N/A
  4     (I)                                                                                                                                                                                   Units           N/A
Line   Line Description    PY Disposed of during        PY Balance at the end of                                                                                                                    Line      NB
 No                                   the year                        the year                                                                                                                   Attributes
  1    (I)                                                                                                                                                                                         Units      N/A
  2    (I)                                                                                                                                                                                         Units      N/A
  3    (I)                                                                                                                                                                                         Units      N/A
  4    (I)                                                                                                                                                                                         Units      N/A




                                                                                                          - 22 ­
                                                                                                                                                                                          11/14/2007 09:00:16

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

       Note: 05            Inventories and Related Property                                                                            Fiscal Year: 2007             Period: SEPTEMBER
   Entity: 2000            Department of the Treasury                                                                                  Agency Notes:   Note 11, Forfeiture Standalone Report

  Status: Complete

 Tab: Other Notes Info.

        Section: H              Section Name: Forfeited Property-Analysis of Change in Dollar        No Data Flag: YES    Rounding Method: User-Defined                    Decimal: User-Defined
                                              Value

Line Line Description           CY Balance at the        CY Additions during the      CY Disposed of during CY Balance at end of the           PY Balance at the   PY Additions during the  Line            NB
 No                          beginning of the year                      year D                  the year C                   year        beginning of the year D                  year D Attributes
                                                D
   1    (I)                                                                                                                                                                                     Dollars     N/A
   2    (I)                                                                                                                                                                                     Dollars     N/A
   3    (I)                                                                                                                                                                                     Dollars     N/A
   4    (I)                                                                                                                                                                                     Dollars     N/A
Line   Line Description    PY Disposed of during        PY Balance at end of the                                                                                                                  Line      NB
 No                                  the year C                          year                                                                                                                  Attributes
  1    (I)                                                                                                                                                                                      Dollars     N/A
  2    (I)                                                                                                                                                                                      Dollars     N/A
  3    (I)                                                                                                                                                                                      Dollars     N/A
  4    (I)                                                                                                                                                                                      Dollars     N/A

        Section: I              Section Name: Forfeited Property-Analysis of Change in the Number    No Data Flag: YES
                                              of Items

Line    Line Description        CY Balance at the        CY Additions during the      CY Disposed of during CY Balance at the end of           PY Balance at the PY Additionals during the    Line          NB
 No                        beginning of the year                          year                   the year                 the year        beginning of the year                     year   Attributes
  1     (I)                                                                                                                                                                                  Units          N/A
  2     (I)                                                                                                                                                                                  Units          N/A
  3     (I)                                                                                                                                                                                  Units          N/A
  4     (I)                                                                                                                                                                                  Units          N/A
Line   Line Description    PY Disposed of during        PY Balance at the end of                                                                                                                  Line      NB
 No                                   the year                        the year                                                                                                                 Attributes
  1    (I)                                                                                                                                                                                        Units     N/A
  2    (I)                                                                                                                                                                                        Units     N/A
  3    (I)                                                                                                                                                                                        Units     N/A
  4    (I)                                                                                                                                                                                        Units     N/A




                                                                                                        - 23 ­
                                                                                                                                                                                          11/14/2007 09:00:16

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

       Note: 05            Inventories and Related Property                                                                            Fiscal Year: 2007             Period: SEPTEMBER
   Entity: 2000            Department of the Treasury                                                                                  Agency Notes:   Note 11, Forfeiture Standalone Report

  Status: Complete

 Tab: Other Notes Info.

        Section: J              Section Name: Goods Held Under Price Support and Stabilization       No Data Flag: YES    Rounding Method: User-Defined                    Decimal: User-Defined
                                              Programs-Analysis of Change in Dollar Value

Line    Line Description     CY Beginning of year         CY Acquired during the      CY Disposed of during CY Balance at the end of     PY Beginning of year D    PY Acquired during the  Line             NB
 No                                            D                        year D                  the year C                the year                                               year D Attributes
  1     (I)                                                                                                                                                                               Dollars           N/A
  2     (I)                                                                                                                                                                               Dollars           N/A
  3     (I)                                                                                                                                                                               Dollars           N/A
  4     (I)                                                                                                                                                                               Dollars           N/A
Line   Line Description    PY Disposed of during        PY Balance at the end of                                                                                                                  Line      NB
 No                                  the year C                       the year                                                                                                                 Attributes
  1    (I)                                                                                                                                                                                      Dollars     N/A
  2    (I)                                                                                                                                                                                      Dollars     N/A
  3    (I)                                                                                                                                                                                      Dollars     N/A
  4    (I)                                                                                                                                                                                      Dollars     N/A

        Section: K              Section Name: Goods Held Under Price Support and Stabilization       No Data Flag: YES
                                              Programs-Analysis of Change in Volume

Line    Line Description        CY Balance at the         CY Acquired during the      CY Disposed of during CY Balance at the end of           PY Balance at the   PY Acquired during the    Line           NB
 No                        beginning of the year                          year                   the year                 the year        beginning of the year                    year   Attributes
  1     (I)                                                                                                                                                                                 Units           N/A
  2     (I)                                                                                                                                                                                 Units           N/A
  3     (I)                                                                                                                                                                                 Units           N/A
  4     (I)                                                                                                                                                                                 Units           N/A
Line   Line Description    PY Disposed of during        PY Balance at the end of                                                                                                                  Line      NB
 No                                   the year                        the year                                                                                                                 Attributes
  1    (I)                                                                                                                                                                                       Units      N/A
  2    (I)                                                                                                                                                                                       Units      N/A
  3    (I)                                                                                                                                                                                       Units      N/A
  4    (I)                                                                                                                                                                                       Units      N/A




                                                                                                        - 24 ­
                                                                                                                                                                                    11/14/2007 09:00:16

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

    Note: 05                  Inventories and Related Property                                                                   Fiscal Year: 2007             Period: SEPTEMBER
   Entity: 2000               Department of the Treasury                                                                         Agency Notes:   Note 11, Forfeiture Standalone Report

 Status: Complete

Tab: Other Notes Info.

     Section: L                    Section Name: Goods Held Under Price Support and Stabilization   No Data Flag: YES   Rounding Method: User-Defined                Decimal: User-Defined
                                                 Programs-Other Information

Line Line Description           2007 - SEPTEMBER                 2006 - SEPTEMBER                                                                                                           Line     NB
 No                                                                                                                                                                                      Attributes
  1 (I) Estimate to be                                                                                                                                                                    Dollars   Debit
     donated or
     transferred during
     the coming period
  2 (I) Goods                                                                                                                                                                             Dollars     Debit
     received as a
     result of
     surrender of
     collateral related
     to nonrecourse
     loans outstanding
  3 (I) Dollar value of                                                                                                                                                                   Dollars     Debit
     purchase
     commitments
  4 (I) Contingent                                                                                                                                                                        Dollars     Credit
     loss if it is at least
     reasonably
     possible

     Section: M                    Section Name: Goods Held Under Price Support and Stabilization   No Data Flag: YES
                                                 Programs-Volume

Line Line Description           2007 - SEPTEMBER                 2006 - SEPTEMBER                                                                                                           Line       NB
 No                                                                                                                                                                                      Attributes
  1 (I) Volume of                                                                                                                                                                          Units       N/A
     purchase
     agreement
     commitments




                                                                                                      - 25 ­
                                                                                                                                                                                         11/14/2007 09:00:16

                                                                                         U.S. Department of the Treasury
                                                                                          Financial Management Service
                                                                                     Governmentwide Financial Report System
                                                                                             GF006 - FR Notes Report

    Note: 05             Inventories and Related Property                                                                           Fiscal Year: 2007               Period: SEPTEMBER
    Entity: 2000         Department of the Treasury                                                                                 Agency Notes:     Note 11, Forfeiture Standalone Report

 Status: Complete

Tab: Other Notes Info.

      Section: N              Section Name: Forfeited Property by Type                             No Data Flag: YES    Rounding Method: User-Defined                     Decimal: User-Defined

Line Line Description      2007 - SEPTEMBER                 2006 - SEPTEMBER                                                                                                                     Line     NB
 No                                                                                                                                                                                           Attributes
  1 (I) Estimate of                                                                                                                                                                            Dollars   Debit
     value to be
     distributed to
     other Federal
     agencies or State
     and local
     governments


Tab: Text Data

 Line No           Question                                                                                        Answer
1                  Method used to calculate allowance for each category of inventory                               The Department had nominal balances in allowances at FYE 2006 and 2007. Inventory
                                                                                                                   is reported by the Bureau of Engraving and Printing, the U.S Mint, the Treasury
                                                                                                                   Forfeiture Fund and a small amount by the Internal Revenue Serivce U.S. Mint - All
                                                                                                                   inventory that is not for sale has an allowance of 100% of the original value.
2                  Provide any other relevant information pertaining to this note.                                 None




                                                                                                      - 26 ­
                                                                                                                                                                                                     11/14/2007 09:00:16

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                      GF006 - FR Notes Report

     Note: 06           Property, Plant, and Equipment                                                                                       Fiscal Year: 2007              Period: SEPTEMBER
  Entity: 2000          Department of the Treasury                                                                                           Agency Notes:     Note 12

 Status: Complete

Tab: Line Item Notes
                                                                                   Acct
      Closing Package Line Description                                      NB     Type      2007 - SEPTEMBER          2006 - SEPTEMBER             Rounding Method: Millions
       Property, Plant and Equipment                                        D        A                       2,086                     2,182
                                                                                                                                                                 Decimal: Zero
                                                                                Variance:                       0                            0

Line No    Line Description                       CY PP&E           CY Accum. Depr.                   CY Net PP& E                           PY PP&E               PY Accum. Depr.                   PY Net PP&E
 1         PP&E - balance                                   5,478                         3,296                         2,182                          5,400                         3,002                      2,398
           beginning of year
 2         Prior-period
           adjustments (not
           restated)
 3         Capitalized                                       413                                                          413                           405                                                         405
           acquisitions from the
           public
 4         Capitalized                                        17                                                           17                            27                             1                            26
           acquisitions from
           Government agencies
 5         Deletions from the                               -113                            -97                           -16                          -345                          -216                          -129
           Balance Sheet
 6         Revaluations                                      -12                                                          -12                            -9                                                          -9
 7         Stewardship
           reclassifications
 8         Depreciation/amortizati                                                          498                          -498                                                         509                          -509
           on
           Total                                            5,783                         3,697                          2,086                         5,478                         3,296                         2,182

Tab: Other Notes Info.

      Section: A            Section Name: Gross cost for PP&E for each category                                                  Rounding Method: Millions                           Decimal: Zero

Line Line Description    2007 - SEPTEMBER                2006 - SEPTEMBER                 Previously Rptd            Line Item Changes                                                                    Line     NB
 No                                                                                                                                                                                                    Attributes
  1 Buildings,                                658                      642                            642                                0                                                              Dollars   Debit
     structures, and
     facilities
     (including
     improvement to
     land)
  2 Furniture,                               3,271                    3,182                          3,182                               0                                                               Dollars   Debit
     fixtures, and
     equipment
  3 Construction in                             27                      14                              14                               0                                                               Dollars   Debit
     progress



                                                                                                       - 27 ­
                                                                                                                                                                                           11/14/2007 09:00:16

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

   Note: 06             Property, Plant, and Equipment                                                                            Fiscal Year: 2007                Period: SEPTEMBER
  Entity: 2000          Department of the Treasury                                                                                Agency Notes:     Note 12

 Status: Complete

Tab: Other Notes Info.

    Section: A               Section Name: Gross cost for PP&E for each category                                      Rounding Method: Millions                            Decimal: Zero

  4 Land                                         12                      12                           12                      0                                                                 Dollars    Debit
  5 (I) Automated                                                                                  1,027                 -1,027                                                                 Dollars    Debit
     data processing
     software
  6 Internal use                              1,264                   1,119                                               1,119                                                                 Dollars    Debit
     software
  7 Assets under                                 25                      22                           22                      0                                                                 Dollars    Debit
     capital lease
  8 Leasehold                                   526                     487                          487                      0                                                                 Dollars    Debit
     improvements
  9 Other property,                                                        0                          92                   -92                                                                  Dollars    Debit
     plant and
     equipment
 10 Total property,                           5,783                   5,478                        5,478                      0                                                                 Dollars     N/A
     plant and
     equipment
Threshold
 Line Description                                            Question                                                         Answer
 Other Notes Info - Construction in progress (2007 ­         Please provide explanations for any amounts that have            Variance is not significant to an entity the size of the Department of the
 SEPTEMBER)                                                  changed by 10% or more and or greater than 500,000               Treasury
                                                             between the current fiscal year and prior fiscal year.
                                                             (Unaudited)
 Other Notes Info - Internal use software (2007 ­            Please provide explanations for any amounts that have            New Line for FY 07 reporting. More IUS brought online.
 SEPTEMBER)                                                  changed by 10% or more and or greater than 500,000
                                                             between the current fiscal year and prior fiscal year.
                                                             (Unaudited)
 Other Notes Info - Assets under capital lease (2007 ­       Please provide explanations for any amounts that have            The Department does not disclose capital lease detail in it's notes because
 SEPTEMBER)                                                  changed by 10% or more and or greater than 500,000               they are insignificant. They are mainly held by IRS.
                                                             between the current fiscal year and prior fiscal year.
                                                             (Unaudited)




                                                                                                     - 28 ­
                                                                                                                                                                                    11/14/2007 09:00:16

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

   Note: 06              Property, Plant, and Equipment                                                                              Fiscal Year: 2007         Period: SEPTEMBER
  Entity: 2000           Department of the Treasury                                                                                  Agency Notes:   Note 12

 Status: Complete

Tab: Other Notes Info.

    Section: B               Section Name: Accumulated Depreciation/Amortization                                      Rounding Method: Millions                     Decimal: Zero

Line Line Description     2007 - SEPTEMBER                2006 - SEPTEMBER             Previously Rptd       Line Item Changes                                                           Line    NB
 No                                                                                                                                                                                   Attributes
  1 Buildings,                                 276                       249                       249                           0                                                     Dollars Credit
     structures, and
     facilities
  2 Furniture,                                2,503                    2,317                      2,317                          0                                                      Dollars   Credit
     fixtures, and
     equipment
  3 (I) Automated                                                                                  431                     -431                                                         Dollars   Credit
     data processing
     software
  4 Internal use                               564                       431                                                431                                                         Dollars   Credit
     software
  5 Assets under                                 12                          7                           7                       0                                                      Dollars   Credit
     capital lease
  6 Leasehold                                  342                       292                       292                           0                                                      Dollars   Credit
     improvements
  7 Other property,                                                                                                                                                                     Dollars   Credit
     plant, and
     equipment
  8 Total                                   -3,697                    -3,296                     -3,296                          0                                                      Dollars    N/A
     accumulated
     depreciation/amor
     tization

    Section: C               Section Name: Intragovernmental Capitalized acquisition amounts                          Rounding Method: Millions                     Decimal: Zero

Line Line Description     2007 - SEPTEMBER                2006 - SEPTEMBER             Previously Rptd       Line Item Changes                                                           Line     NB
 No                                                                                                                                                                                   Attributes
  1 General Services                             14                       26                         23                          3                                                     Dollars   Debit
     Administration
  2 Department of                                 3                                                                                                                                     Dollars   Debit
     Defense
  3 Department of the                                                                                                                                                                   Dollars   Debit
     Interior
  4 Department of                                                                                                                                                                       Dollars   Debit
     Justice
  5 National                                                                                                                                                                            Dollars   Debit
     Aeronautics and
     Space
     Administration



                                                                                                    - 29 ­
                                                                                                                                                                                          11/14/2007 09:00:16

                                                                                          U.S. Department of the Treasury
                                                                                           Financial Management Service
                                                                                      Governmentwide Financial Report System
                                                                                              GF006 - FR Notes Report

   Note: 06                Property, Plant, and Equipment                                                                                  Fiscal Year: 2007         Period: SEPTEMBER
  Entity: 2000             Department of the Treasury                                                                                      Agency Notes:   Note 12

 Status: Complete

Tab: Other Notes Info.

     Section: C                Section Name: Intragovernmental Capitalized acquisition amounts                              Rounding Method: Millions                     Decimal: Zero

  6 All other                                                                     1                           1                        0                                                      Dollars    Debit
    departments
  7 Total capitalized                              17                         27                          24                           3                                                      Dollars    N/A
    assets from
    Federal agencies




     Section: D                Section Name: Gain/Loss on Sale/Disposition                                                  Rounding Method: Millions                     Decimal: Zero

Line Line Description         2007 - SEPTEMBER              2006 - SEPTEMBER D             Previously Rptd D      Line Item Changes D                                                          Line       NB
 No                                          D                                                                                                                                              Attributes
  1 Gain/loss on                                    2                                                                                                                                        Dollars     N/A
     sale/disposition of
     property, plant
     and equipment




     Section: E                Section Name: Estimated useful life                                    No Data Flag: YES


Line Line Description           CY Low Estimate                CY High Estimate             PY Low Estimate         PY High Estimate                                                           Line       NB
 No                                                                                                                                                                                         Attributes
  1 (I) Building,                                                                                                                                                                             Units      N/A
     structures, and
     facilities
     (including
     improvement to
     land)
  2 (I) Furniture,                                                                                                                                                                             Units     N/A
     fixtures, and
     equipment
  3 (I) Construction                                                                                                                                                                           Units     N/A
     in progress



                                                                                                         - 30 ­
                                                                                                                                                                               11/14/2007 09:00:16

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                    GF006 - FR Notes Report

   Note: 06             Property, Plant, and Equipment                                                                           Fiscal Year: 2007           Period: SEPTEMBER
  Entity: 2000          Department of the Treasury                                                                               Agency Notes:     Note 12

 Status: Complete

Tab: Other Notes Info.

    Section: E              Section Name: Estimated useful life                                    No Data Flag: YES


  4 (I) Land                                                                                                                                                                        Units     N/A
  5 (I) Automated                                                                                                                                                                   Units     N/A
    data processing
    software
  6 (I) Assets under                                                                                                                                                                Units     N/A
    capital lease
  7 (I) Leasehold                                                                                                                                                                   Units     N/A
    improvements
  8 (I) Other                                                                                                                                                                       Units     N/A
    property, plant,
    and equipment

    Section: F              Section Name: Capitalization threshold for PP&E (SFFAS No. 6, par.     No Data Flag: YES   Rounding Method: Millions                  Decimal: User-Defined
                                          45)

Line Line Description                 CY Low                      CY High                        PY Low                PY High                                                       Line     NB
 No                                                                                                                                                                               Attributes
  1 (I) Building,                                                                                                                                                                  Dollars   Debit
     structures, and
     facilities
     (including
     improvement to
     land)
  2 (I) Furniture,                                                                                                                                                                  Dollars   Debit
     fixtures, and
     equipment
  3 (I) Construction                                                                                                                                                                Dollars   Debit
     in progress
  4 (I) Land                                                                                                                                                                        Dollars   Debit
  5 (I) Automated                                                                                                                                                                   Dollars   Debit
     data processing
     software
  6 (I) Assets under                                                                                                                                                                Dollars   Debit
     capital lease
  7 (I) Leasehold                                                                                                                                                                   Dollars   Debit
     improvements
  8 (I) Other                                                                                                                                                                       Dollars   Debit
     property, plant,
     and equipment




                                                                                                     - 31 ­
                                                                                                                                                                                               11/14/2007 09:00:16

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 06              Property, Plant, and Equipment                                                                               Fiscal Year: 2007               Period: SEPTEMBER
     Entity: 2000          Department of the Treasury                                                                                   Agency Notes:     Note 12

 Status: Complete

Tab: Other Notes Info.

       Section: G              Section Name: Gains/Loss on Sale/Disposition                            No Data Flag: YES      Rounding Method: Millions                        Decimal: Zero

Line Line Description       2007 - SEPTEMBER                2006 - SEPTEMBER                                                                                                                        Line     NB
 No                                                                                                                                                                                              Attributes
  1 (I) Gain/Loss on                                                                                                                                                                              Dollars   Debit
     sale/disposition of
     property, plant
     and equipment




Tab: Text Data

 Line No            Question                                                                                           Answer
 1                  Provide the physical quantity information by category for multiuse heritage assets that are        The Department has one multi-use heritage asset. The Main Treasury Building and
                    included in the "Line Item Notes" tab of this note (SFFAS No. 16, par 9).                          Annex.
 2                  Disclose any transfer of land where the book value is not known by the receiving entity, if        No transfers
                    material (SFFAS No. 6, par.72).
 3                  Provide any other relevant information pertaining to this note and any material changes from       None
                    the prior years' depreciation methods and capitalization thresholds.




                                                                                                          - 32 ­
                                                                                                                                                                                            11/14/2007 09:00:16

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 07           Securities and Investments                                                                                      Fiscal Year: 2007              Period: SEPTEMBER
  Entity: 2000          Department of the Treasury                                                                                      Agency Notes:     Note 7

 Status: Complete

Tab: Line Item Notes
                                                                                   Acct
      Closing Package Line Description                                       NB    Type      2007 - SEPTEMBER      2006 - SEPTEMBER            Rounding Method: Millions

                                                                                                                                                            Decimal: Zero
                                                                               Variance:

Line No     Line Description           2007 - SEPTEMBER               2006 - SEPTEMBER              Previously Rptd             Line Item Changes
 2          Exchange Stabilization                     10,039                             9,277                       9,277                          0
            Fund
 3
 4
 5
 6
 7          Other securities and                                35                          48                          48                           0
            investments
            Total                                            10,074                       9,325                       9,325                          0

Threshold
Line Description                                                Question                                                              Answer
Line Item Notes - Other securities and investments (2007 ­      Please provide explanations for any amounts that have                The amount did not change by more than $500,000
SEPTEMBER)                                                      changed by 10% or more and or greater than 500,000 between
                                                                the current fiscal year and prior fiscal year. (Unaudited)



Tab: Other Notes Info.

      Section: A             Section Name: Gain/Loss on Disposition of Securities and               No Data Flag: YES         Rounding Method: Millions                     Decimal: Zero
                                           Investments

Line Line Description     2007 - SEPTEMBER               2006 - SEPTEMBER                 Previously Rptd       Line Item Changes                                                                Line     NB
 No                                                                                                                                                                                           Attributes
  1 Gain/Loss on                                                                                                                                                                               Dollars   Debit
     disposition of
     securities and
     investments




                                                                                                       - 33 ­
                                                                                                                                                                                              11/14/2007 09:00:16

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

    Note: 07          Securities and Investments                                                                                        Fiscal Year: 2007               Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                                        Agency Notes:        Note 7

 Status: Complete

Tab: Other Notes Info.
Tab: Text Data

Line No            Question                                                                                           Answer
1                  Provide a description of the programs reported on the "Line Item Notes" tab for lines 1            The investments, except for $35M, are held by the Exchange Stabilization Fund.
                   through 6.
2                  Provide a description and related amounts for balances that exceed $1 billion in the line title    NA
                   "Other Securities and Investments" on the "Line Item Notes" tab.
3                  Provide any other relevant information pertaining to this note.                                    See PAR Note 7 for additional detail




                                                                                                             - 34 ­
                                                                                                                                                                                                      11/14/2007 09:00:16

                                                                                          U.S. Department of the Treasury
                                                                                           Financial Management Service
                                                                                      Governmentwide Financial Report System
                                                                                              GF006 - FR Notes Report

     Note: 08             Other Assets                                                                                                          Fiscal Year: 2007               Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                            Agency Notes:      Note 9

 Status: Complete

Tab: Line Item Notes
                                                                                           Acct
        Closing Package Line Description                                            NB     Type     2007 - SEPTEMBER          2006 - SEPTEMBER          Rounding Method: Millions
        Other Assets                                                                D        A                       5,540                  5,510
                                                                                                                                                                    Decimal: Zero
                                                                                        Variance:                         0                     0

Line No     Line Description               2007 - SEPTEMBER               2006 - SEPTEMBER                   Previously Rptd            Line Item Changes
 1          Advances and                                             10                             11                           11                            0
            prepayments
 2          Other Assets                                         5,530                            5,499                        5,499                           0
             Total                                               5,540                            5,510                        5,510                           0




Tab: Text Data

 Line No               Question                                                                                                Answer
 1                     Provide a description of advances and prepayments on the "Line Item Notes" tab for line 1.              Advances are aggregate from every Treasury bureau. Most of the balance applies to
                                                                                                                               IRS.
                                                                                                                               IRS - Advances and prepaid amounts exist to maintain and continue daily business
                                                                                                                               operations with individuals, business units or other entities. Advances and
                                                                                                                               prepayments are recorded as assets. Advances and prepayments are reduced when
                                                                                                                               goods or services are received, contract terms are met, progress is made under a
                                                                                                                               contract, or prepaid expenses expire. Advances to the public are cash outlays for
                                                                                                                               criminal investigative and employee travel.
 2                     Provide a description and related amounts for balances that exceed $1 billion in the line titled        $5.5B relates to Treasury Department investments in Multilateral Developmemt Banks
                       "Other Assets" on the "Line Item Notes" tab.                                                            (MDBs). See PAR Note 9.
 3                     Provide any other relevant information pertaining to this note.




                                                                                                                - 35 ­
                                                                                                                                                                               11/14/2007 09:00:16

                                                                             U.S. Department of the Treasury
                                                                              Financial Management Service
                                                                         Governmentwide Financial Report System
                                                                                 GF006 - FR Notes Report

   Note: 09            Accounts Payable                                                                                        Fiscal Year: 2007              Period: SEPTEMBER
  Entity: 2000         Department of the Treasury                                                                              Agency Notes:    Note 17

 Status: Complete

Tab: Line Item Notes
                                                                             Acct
     Closing Package Line Description                                  NB    Type     2007 - SEPTEMBER       2006 - SEPTEMBER         Rounding Method: Millions

                                                                                                                                                   Decimal: Zero
                                                                         Variance:

Line No     Line Description         2007 - SEPTEMBER           2006 - SEPTEMBER              Previously Rptd          Line Item Changes
 1          Accounts Payable                            2,446                        704                        704                         0
            Total                                       2,446                        704                        704                         0

Threshold
Line Description                                          Question                                                           Answer
Line Item Notes - Accounts Payable (2007 - SEPTEMBER)     Please provide explanations for any amounts that have             SGL crosswalk changed. IRS & TTB Refunds now use SGL 2110
                                                          changed by 10% or more and or greater than 500,000 between
                                                          the current fiscal year and prior fiscal year. (Unaudited)




                                                                                                - 36 ­
                                                                                                                                                                                 11/14/2007 09:00:16

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

      Note: 10A        Federal Debt Securities Held by the Public                                                                 Fiscal Year: 2007              Period: SEPTEMBER
  Entity: 2000         Department of the Treasury                                                                                 Agency Notes:    Note 14

 Status: Complete

Tab: Line Item Notes
                                                                                 Acct
       Closing Package Line Description                                    NB    Type      2007 - SEPTEMBER     2006 - SEPTEMBER         Rounding Method: Millions

                                                                                                                                                      Decimal: Zero
                                                                             Variance:

Line No    Line Description           2007 - SEPTEMBER              2006 - SEPTEMBER             Previously Rptd          Line Item Changes
 1          Marketable Securities                    954,607                       908,474                    908,474                          0
           - Treasury bills
 2          Marketable Securities                      2,456,100                 2,445,307                    2,445,307                        0
           - Treasury notes
 3          Marketable Securities                        560,922                   534,473                     534,473                         0
           - Treasury bonds
 4          Marketable Securities                        456,776                   395,550                     395,550                         0
           - Treasury inflation
           protected securities
 5          Non-marketable                               620,900                   559,317                     559,317                         0
           securities
 6          Unamortized premium                             4,146                       6,293                     6,293                        0
           on Treasury securities
 7          Unamortized discount                         -43,587                   -46,459                     -46,459                         0
           on Treasury securities
 8         Accrued interest                                44,386                   41,119                      41,119                         0
           payable on debt
           issued by Treasury
  9        Securities at par
 10         Unamortized premium
           on securities
 11         Unamortized discount
           on securities
 12         Accrued interest
           payable on agency
           securities
            Total                                       5,054,250                 4,844,074                   4,844,074                        0

Tab: Other Notes Info.




                                                                                                    - 37 ­
                                                                                                                                                                                       11/14/2007 09:00:16

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

   Note: 10A              Federal Debt Securities Held by the Public                                                                    Fiscal Year: 2007         Period: SEPTEMBER
  Entity: 2000            Department of the Treasury                                                                                    Agency Notes:   Note 14

 Status: Complete

Tab: Other Notes Info.

    Section: A                 Section Name: Federal Debt Held By the Public: Other Related                              Rounding Method: Millions                     Decimal: Zero
                                             Information

Line Line Description       2007 - SEPTEMBER               2006 - SEPTEMBER              Previously Rptd        Line Item Changes                                                           Line    NB
 No                                                                                                                                                                                      Attributes
  1 Debt subject to                        8,921,343                   8,420,278                 8,420,278                          0                                                     Dollars Credit
     statutory limit
  2 Statutory debt                         9,815,000                   8,965,000                 8,965,000                          0                                                      Dollars    Credit
     limit




    Section: B                 Section Name: Federal Debt Held By The Public: Average Interest
                                             Rate

Line Line Description       2007 - SEPTEMBER               2006 - SEPTEMBER              Previously Rptd        Line Item Changes                                                           Line       NB
 No                                                                                                                                                                                      Attributes
  1 Marketable                                                           5.0000                    5.0000                     .0000                                                       Percent      N/A
     securities ­
     Treasury bills
  2 Marketable                                                           4.2000                    4.2000                     .0000                                                       Percent      N/A
     securities -
     Tresury notes
  3 Marketable                                                           7.6000                    7.6000                     .0000                                                       Percent      N/A
     securities ­
     Treasury bonds
  4 Marketable                                                           2.3000                    2.3000                     .0000                                                       Percent      N/A
     securities ­
     Treasury inflation
     protected
     securities
  5 Non-marketable                                                       5.0000                    5.0000                     .0000                                                       Percent      N/A
     securities




                                                                                                       - 38 ­
                                                                                                                                                                                                11/14/2007 09:00:16

                                                                                         U.S. Department of the Treasury
                                                                                          Financial Management Service
                                                                                     Governmentwide Financial Report System
                                                                                             GF006 - FR Notes Report

    Note: 10B             Treasury securities held by the Government trust, revolving, and special funds                                  Fiscal Year: 2007             Period: SEPTEMBER
   Entity: 2000           Department of the Treasury                                                                                      Agency Notes:   None - Eliminated in Treasury f/s

  Status: Complete

 Tab: Other Notes Info.

     Section: A                Section Name: Investments in Federal Debt securities                                          Rounding Method: Millions                         Decimal: Zero

Line Line Description         CY Par value of the                CY Unamortized CY Unamortized premium              CY Net Investment              PY Par Value D PY Unamortized discount   Line                 NB
 No                               investment D                      Discount C                       D                                                                                 C Attributes
 19 Department of                           16,436                                                                               16,436                    15,711                         Dollars                N/A
     Treasury,
     Exchange
     Stabilization Fund
 21                                                                                                                                                                                                  Dollars     N/A
 22                                                                                                                                                                                                  Dollars     N/A
 23                                                                                                                                                                                                  Dollars     N/A
 24 All other                                   5,880                           19                         76                     5,937                        5,441                           13    Dollars     N/A
     programs and
     funds
 25 Total                                     22,316                           -19                         76                    22,373                       21,152                          -13    Dollars     N/A
Line Line Description            PY Unamortized             PY Net Investment                                                                                                                          Line      NB
 No                                 premium D                                                                                                                                                       Attributes
  19 Department of                                                         15,711                                                                                                                    Dollars     N/A
     Treasury,
     Exchange
     Stabilization Fund
  21                                                                                                                                                                                                 Dollars     N/A
  22                                                                                                                                                                                                 Dollars     N/A
  23                                                                                                                                                                                                 Dollars     N/A
  24 All other                                   117                        5,545                                                                                                                    Dollars     N/A
     programs and
     funds
  25 Total                                       117                       21,256                                                                                                                    Dollars     N/A




                                                                                                           - 39 ­
                                                                                                                                                                                                   11/14/2007 09:00:16

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

     Note: 11           Federal Employee and Veteran Benefits Payable                                                                      Fiscal Year: 2007                Period: SEPTEMBER
  Entity: 2000          Department of the Treasury                                                                                         Agency Notes:      Note 17

 Status: Complete

Tab: Line Item Notes
                                                                                  Acct
      Closing Package Line Description                                     NB     Type      2007 - SEPTEMBER           2006 - SEPTEMBER            Rounding Method: Millions
       Federal Employee and Veteran Benefits Payable                       C        L                          611                       635
                                                                                                                                                               Decimal: Zero
                                                                               Variance:                        0                          0

Line No     Line Description          2007 - SEPTEMBER             2006 - SEPTEMBER                Previously Rptd                Line Item Changes
 1          Pension and accrued
            benefits
 2          Post-retirement health
            and accrued benefits
 3          Veteran's
            compensation and
            burial benefits
 4          Life Insurance and
            accrued benefits
 5          FECA Benefits                                   573                            635                            635                             0
 6          Liability for other                              38
            retirement and
            postemployment
            benefits
            Total                                            611                           635                            635                             0

Threshold
Line Description                                             Question                                                                    Answer
Line Item Notes - FECA Benefits (2007 - SEPTEMBER)           Please provide explanations for any amounts that have                       FECA Actuarial Liability - Updated every year by DOL
                                                             changed by 10% or more and or greater than 500,000 between
                                                             the current fiscal year and prior fiscal year. (unaudited)
Tab: Other Notes Info.

      Section: A             Section Name: Pension and Accrued Benefits Liability-To be            No Data Flag: YES            Rounding Method: Millions                          Decimal: Zero
                                           completed for the amount entered for pension and
                                           accrued benefits in the "Line Item Notes" tab

Line Line Description     2007 - SEPTEMBER             2006 - SEPTEMBER                  Previously Rptd             Line Item Changes                                                                  Line    NB
 No                                                                                                                                                                                                  Attributes
  1 Pension and                                                                                                                                                                                       Dollars Credit
     accrued benefits
     liability-
     beginning of
     period
  2 Prior-period                                                                                                                                                                                       Dollars   Credit
     adjustments(not


                                                                                                      - 40 ­
                                                                                                                                                                               11/14/2007 09:00:16

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

   Note: 11                Federal Employee and Veteran Benefits Payable                                                      Fiscal Year: 2007           Period: SEPTEMBER
  Entity: 2000             Department of the Treasury                                                                         Agency Notes:     Note 17

 Status: Complete

Tab: Other Notes Info.

    Section: A                 Section Name: Pension and Accrued Benefits Liability-To be       No Data Flag: YES   Rounding Method: Millions                  Decimal: Zero
                                             completed for the amount entered for pension and
                                             accrued benefits in the "Line Item Notes" tab

    restated)
  3 Prior (and past)                                                                                                                                                               Dollars   Credit
    service costs
    from plan
    amendments (or
    the initiation of a
    new plan) during
    the period
  4 Assumption                                                                                                                                                                     Dollars   Credit
    Change Liability
  5 Normal Costs                                                                                                                                                                   Dollars   Credit
    (SFFAS No. 5,
    par. 72)
  6 Interest on                                                                                                                                                                    Dollars   Credit
    pension liability
    during the period
  7 Prior (and past)                                                                                                                                                               Dollars   Credit
    service cost (from
     the initiation of a
    new plan)
  8 Actuarial                                                                                                                                                                      Dollars   Credit
    (gains)/losses
  9 Total pension                                                                                                                                                                  Dollars    N/A
    expense (SFFAS
    No. 5, par.72)
 10 Less Benefits                                                                                                                                                                  Dollars   Debit
    Paid
 11 Pension and                                                                                                                                                                    Dollars    N/A
    Accrued Benefits
    Liability-end of
    period




                                                                                                  - 41 ­
                                                                                                                                                                                     11/14/2007 09:00:16

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

   Note: 11                 Federal Employee and Veteran Benefits Payable                                                            Fiscal Year: 2007          Period: SEPTEMBER
  Entity: 2000              Department of the Treasury                                                                               Agency Notes:    Note 17

 Status: Complete

Tab: Other Notes Info.

       Section: B               Section Name: Pension Liability Long-Term Significant Assumptions    No Data Flag: YES
                                              Used in 2006 and 2005 Valuation (SFFAS No. 5,
                                              par.67)

Line   Line Description      2007 - SEPTEMBER              2006 - SEPTEMBER                Previously Rptd       Line Item Changes                                                        Line       NB
 No                                                                                                                                                                                    Attributes
  1    Rate of Interest                                                                                                                                                                 Percent      N/A
  2    Rate of inflation                                                                                                                                                                Percent      N/A
  3    Projected salary                                                                                                                                                                 Percent      N/A
       increases



       Section: C               Section Name: Postretirement Health and Accrued Benefits             No Data Flag: YES    Rounding Method: Millions                  Decimal: Zero

Line Line Description        2007 - SEPTEMBER              2006 - SEPTEMBER                Previously Rptd       Line Item Changes                                                        Line    NB
 No                                                                                                                                                                                    Attributes
  1 Postretirement                                                                                                                                                                      Dollars Credit
     health and
     accrued benefits
     liability-beginning
     of period (SFFAS
     No. 5, par.88)
  2 Prior-period                                                                                                                                                                         Dollars    Credit
     adjustments (not
     restated)
  3 Prior (and past)                                                                                                                                                                     Dollars    Credit
     service costs
     from plan
     amendments (or
     the initiation of a
     new plan) during
     the period
  4 (I) Assumption                                                                                                                                                                       Dollars    Credit
     change liability
  5 Normal costs                                                                                                                                                                         Dollars    Credit
  6 Interest on liability                                                                                                                                                                Dollars    Credit
  7 Change in                                                                                                                                                                            Dollars    Credit
     medical inflation
     rate assumption
     (gains)/losses
  8 Other actuarial                                                                                                                                                                      Dollars    Credit
     (gains)/losses


                                                                                                        - 42 ­
                                                                                                                                                                                     11/14/2007 09:00:16

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

   Note: 11                Federal Employee and Veteran Benefits Payable                                                              Fiscal Year: 2007         Period: SEPTEMBER
  Entity: 2000             Department of the Treasury                                                                                 Agency Notes:   Note 17

 Status: Complete

Tab: Other Notes Info.

     Section: C                Section Name: Postretirement Health and Accrued Benefits             No Data Flag: YES     Rounding Method: Millions                  Decimal: Zero

  9 Total                                                                                                                                                                                Dollars    N/A
    postretirement
    health benefits
    expense
 10 Less claims paid                                                                                                                                                                     Dollars    Debit
 11 Postretirement                                                                                                                                                                       Dollars     N/A
    health and
    accrued benefits
    liability-end of
    period


     Section: D                Section Name: Postretirement Health Liability Significant            No Data Flag: YES
                                             Assumptions Used in Determining the 2006 and 2005
                                             Valuation

Line Line Description       2007 - SEPTEMBER              2006 - SEPTEMBER                Previously Rptd        Line Item Changes                                                        Line       NB
 No                                                                                                                                                                                    Attributes
  1 Rate of Interest                                                                                                                                                                    Percent     N/A
  2 Rate of health                                                                                                                                                                      Percent     N/A
     care cost inflation




     Section: E                Section Name: Veteran's Compensation and Burial Benefits (to be      No Data Flag: YES     Rounding Method: Millions                  Decimal: Zero
                                             completed by the Department of Veterans Affairs)

Line Line Description         2007 - SEPTEMBER          2006 - SEPTEMBER D             Previously Rptd D        Line Item Changes D                                                       Line       NB
 No                                          D                                                                                                                                         Attributes
  4 Total                                                                                                                                                                               Dollars     N/A
     compensation
     and burial
     benefits payable




                                                                                                       - 43 ­
                                                                                                                                                                                       11/14/2007 09:00:16

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 11             Federal Employee and Veteran Benefits Payable                                                                    Fiscal Year: 2007         Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                       Agency Notes:   Note 17

 Status: Complete

Tab: Other Notes Info.

       Section: G             Section Name: Other                                                         No Data Flag: YES     Rounding Method: User-Defined             Decimal: User-Defined

Line Line Description      2007 - SEPTEMBER               2006 - SEPTEMBER                    Previously Rptd          Line Item Changes                                                     Line     NB
 No                                                                                                                                                                                       Attributes
  1 Non-marketable                                                                                                                                                                         Dollars   Debit
     Treasury
     securities held by
     Thrift Savings
     Plan (TSP) Fund
  2 Total assets of                                                                                                                                                                         Dollars   Debit
     pension and other
     retirment and
     benefit plans
  3 Market value of                                                                                                                                                                         Dollars   Debit
     investments in
     market-based
     and marketable
     securities
     included in line 2
Tab: Text Data                         No Data Flag: YES

 Line No            Question                                                                                               Answer
 1                  Provide the following information as it relates to life insurance (other than whole life) (SFFAS
                    No. 5, par. 110, table 9): a description of each component of the liability for future policy
                    benefits, an explanation of its projected use, and any other potential uses.
 2                  For pension plans that differ from the Civil Service Retirement System (CSRS), the Federal
                    Employee Retirement System (FERS), and the Military Retirement System (MRS), describe
                    assumptions used (SFFAS 5, par. 67).
 3                  Provide the long-term projection (25 years) of the significant assumptions used in
                    determining pension liability and the related expense.
 4                  Provide the long-term projection (25 years) of the significant assumptions used in
                    determining the postretirement health benefits liability and the related expense.
 7                  Provide any other relevant information pertaining to this note.




                                                                                                              - 44 ­
                                                                                                                                                                                    11/14/2007 09:00:16

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                      GF006 - FR Notes Report

   Note: 12              Environmental and Disposal Liabilities                                                                    Fiscal Year: 2007              Period: SEPTEMBER
  Entity: 2000           Department of the Treasury                                                                                Agency Notes:   None

 Status: Complete

Tab: Line Item Notes
                                                                                  Acct
     Closing Package Line Description                                        NB   Type     2007 - SEPTEMBER      2006 - SEPTEMBER         Rounding Method: Millions

                                                                                                                                                       Decimal: Zero
                                                                              Variance:

Line No   Line Description              2007 - SEPTEMBER           2006 - SEPTEMBER                Previously Rptd        Line Item Changes
 1
 2
 3
 4
 5
 6        Other Environmental
          and Disposal Liabilities
          Total




Tab: Other Notes Info.

    Section: A                Section Name: Other Related Information                              No Data Flag: YES    Rounding Method: User-Defined                  Decimal: User-Defined

Line Line Description      2007 - SEPTEMBER               2006 - SEPTEMBER               Previously Rptd       Line Item Changes                                                          Line     NB
 No                                                                                                                                                                                    Attributes
  1 (I) Amount of                                                                                                                                                                       Dollars   Debit
     operating and
     capital
     expenditures
     used to remediate
     legacy waste
  2 Unrecognized                                                                                                                                                                         Dollars   Debit
     portion of
     estimated total
     cleanup costs
     associated with
     general property,
     plant, and
     equipment
  3 (I) Estimated                                                                                                                                                                        Dollars   Debit
     cleanup costs
     when general
     property, plant
     and equipment is


                                                                                                      - 45 ­
                                                                                                                                                                                   11/14/2007 09:00:16

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

    Note: 12              Environmental and Disposal Liabilities                                                                          Fiscal Year: 2007      Period: SEPTEMBER
    Entity: 2000          Department of the Treasury                                                                                      Agency Notes:   None

 Status: Complete

Tab: Other Notes Info.

      Section: A               Section Name: Other Related Information                                       No Data Flag: YES   Rounding Method: User-Defined        Decimal: User-Defined

     placed into
     service
  4 (I) Changes in                                                                                                                                                                      Dollars   Debit
     total estimated
     cleanup costs
     due to changes in
     law and
     technology
  5 (I) Portion of the                                                                                                                                                                  Dollars   Debit
     change in
     estimated costs
     due to changes in
     law and
     technology that is
     related to prior
     periods
Tab: Text Data                          No Data Flag: YES

 Line No           Question                                                                                                  Answer
1                   List the applicable laws and regulations covering cleanup requirements
2                   Provide a description of the type of environmental and disposal liabilties identified.
3                   Provide any other relevant information pertaining to this note.




                                                                                                               - 46 ­
                                                                                                                                                                11/14/2007 09:00:16

                                                                    U.S. Department of the Treasury
                                                                     Financial Management Service
                                                                Governmentwide Financial Report System
                                                                        GF006 - FR Notes Report

   Note: 13            Benefits Due and Payable                                                                  Fiscal Year: 2007              Period: SEPTEMBER
  Entity: 2000         Department of the Treasury                                                                Agency Notes:   None

 Status: Complete

Tab: Line Item Notes
                                                                    Acct
     Closing Package Line Description                          NB   Type     2007 - SEPTEMBER    2006 - SEPTEMBER       Rounding Method: Millions

                                                                                                                                     Decimal: Zero
                                                                 Variance:

Line No   Line Description           2007 - SEPTEMBER   2006 - SEPTEMBER           Previously Rptd       Line Item Changes
 9        Other Benefits Due
          and Payable
          Total




                                                                                      - 47 ­
                                                                                                                                                                                                          11/14/2007 09:00:16

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 14           Insurance Programs Other Than Veterans Affairs                                                                         Fiscal Year: 2007                  Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                             Agency Notes:       None

 Status: Complete

Tab: Line Item Notes
                                                                                         Acct
        Closing Package Line Description                                         NB      Type     2007 - SEPTEMBER         2006 - SEPTEMBER             Rounding Method: Millions
        Insurance Programs                                                        C        L                          18                     13
                                                                                                                                                                   Decimal: Zero
                                                                                      Variance:                       0                        0

Line No     Line Description            2007 - SEPTEMBER                2006 - SEPTEMBER                  Previously Rptd            Line Item Changes
 4          Other Insurance                                       18                              13                          13                               0
            Programs
             Total                                                 18                             13                          13                               0

Threshold
Line Description                                                  Question                                                                  Answer
Line Item Notes - Other Insurance Programs (2007 ­                Please provide explanations for any amounts that have                     This is not significant to an entity the size of the Department of the Treasury.
SEPTEMBER)                                                        changed by 10% or more and or greater than 500,000 between
                                                                  the current fiscal year and prior fiscal year. (Unaudited)


Tab: Text Data

 Line No             Question                                                                                               Answer
 1                   Provide a description for the type of insurance programs identified in the "Line Item Notes"           The actuarial liability relates to an insurance program at the Office of the Comptroller of
                     tab.                                                                                                   the Currency.
 2                   Provide the name of the insurance programs and a description of the insurance program                  The actuarial liability relates to an insurance program at the Office of the Comptroller of
                     entered on the line titled "Other insurance programs" in the "Line Item Notes" tab.                    the Currency
 3                   Provide any other relevant information pertaining to this note.                                        None




                                                                                                             - 48 ­
                                                                                                                                                                                      11/14/2007 09:00:16

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

      Note: 15           Other Liabilities                                                                                            Fiscal Year: 2007               Period: SEPTEMBER
  Entity: 2000           Department of the Treasury                                                                                   Agency Notes:     Note 5, 6, 4,15, 21, 17

 Status: Complete

Tab: Line Item Notes
                                                                                    Acct
       Closing Package Line Description                                        NB   Type      2007 - SEPTEMBER    2006 - SEPTEMBER           Rounding Method: Millions

                                                                                                                                                          Decimal: Zero
                                                                                 Variance:

Line No     Line Description                 2007 - SEPTEMBER           2006 - SEPTEMBER            Previously Rptd           Line Item Changes
 1          Deferred revenue                                     306                         271                       271                         0
 2          Accrued wages and                                    341                         348                       348                         0
            benefits
 3          Gold certificates                               11,037                      11,037                    11,037                           0
 4          Other debt
 5          Exchange Stabilization                              9,826                      9,433                      9,433                        0
            Fund
 6          (I) Deposited funds                                                                                        497
            and undeposited
            collections
 7          Capital lease liabilities                              7                           4                         4                         0
 8          Contingent liabilities                                 2                           2                         2                         0
 9          Accrued grant
            liabilities
 10         (I) Federal aid
            highway grant accruals
 11         Other employee and
            actuarial liabilities
 12         Nuclear waste fund
 13         D.C. pension liability                              8,992                      9,068                      9,068                        0
 14         Custodial liabilities                                                              3                          3
 15         Accrued annual leave                                 592                         573                        573                        0
 16         DOE contractor's
            pension and
            postretirement liability
 17         Advances and
            prepayments
 18         Accrued subsidies
 19
 20
 21
 22         Other Liabilities                                1,026                       2,965                     2,468                          497
            Total                                           32,129                      33,704                    33,704                          497

Threshold
Line Description                                                  Question                                                          Answer




                                                                                                       - 49 ­
                                                                                                                                                                                                    11/14/2007 09:00:16

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 15            Other Liabilities                                                                                                Fiscal Year: 2007                  Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                       Agency Notes:       Note 5, 6, 4,15, 21, 17

 Status: Complete




Threshold
Line Description                                                  Question                                                              Answer
Line Item Notes - Deferred revenue (2007 - SEPTEMBER)             Please provide explanations for any amounts that have                Not significant to the Department of the Treasury
                                                                  changed by 10% or more and or greater than 500,000 between
                                                                  the current fiscal year and prior fiscal year. (Unaudited)
Line Item Notes - Capital lease liabilities (2007 ­               Please provide explanations for any amounts that have                The IRS is the only Treasury entity reporting capital leases and the amount
SEPTEMBER)                                                        changed by 10% or more and or greater than 500,000 between           is insignificant to the Department.
                                                                  the current fiscal year and prior fiscal year. (Unaudited)
Line Item Notes - Other Liabilities (2007 - SEPTEMBER)            Please enter a description for any amounts over $50 million.         In prior years IRS Tax Refunds were reported in this category. In FY 2007
                                                                                                                                       the SGL changed to 2110. Refunds were reclassified to accounts payable.


Tab: Text Data

 Line No             Question                                                                                           Answer
 1                   Provide a description of the liabilities reported on the "Line Item Notes" tab for lines 1         Line items are self explanatory. Additional detail is available in the Department's PAR
                     through 21.                                                                                        Notes. Other mainly consists of deposit funds and other various liabilities.
 2                   Provide a description and related amounts for balances that exceed $50 billion on the titled       None
                     "Other liabilities".
 3                   Provide any other relevant information pertaining to this note.                                    Significant decrease in Other is related to IRS tax refunds classified as accounts
                                                                                                                        payable in FY 2007.




                                                                                                             - 50 ­
                                                                                                                                                                                  11/14/2007 09:00:16

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

   Note: 16             Collections and Refunds of Federal Revenue                                                              Fiscal Year: 2007            Period: SEPTEMBER
  Entity: 2000          Department of the Treasury                                                                              Agency Notes:   Note 1, 21

 Status: Complete

Tab: Other Notes Info.

    Section: A              Section Name: Collections of Federal Revenue                                         Rounding Method: Millions                        Decimal: Zero

Line Line Description                    2007                          2006                    2005           Prior Years                                                              Line    NB
 No                                                                                                                                                                                 Attributes
  1 Individual income                   1,408,591                     750,587                  23,861               18,425                                                           Dollars Credit
     and tax
     withholdings
  2 Corporation                           253,376                     116,342                   2,938               22,664                                                            Dollars   Credit
     income taxes
  3 Unemployment                            5,198                       2,041                      51                  126                                                            Dollars   Credit
     taxes
  4 Excise taxes                           49,174                      17,807                      90                  209                                                            Dollars   Credit
  5 Estate and gift                            45                      16,162                   1,571                9,200                                                            Dollars   Credit
     taxes
  6 Railroad                                3,576                       1,127                         1                 14                                                            Dollars   Credit
     retirement taxes
  7 Federal Reserve                        26,255                       5,788                         0                     0                                                         Dollars   Credit
     earnings
  8 Fines, penalties,                       1,653                         423                         0                     0                                                         Dollars   Credit
     interest, and
     other revenue
  9 Custom duties                                0                           0                       0                    0                                                           Dollars   Credit
 10 Subtotal                           -1,747,868                    -910,277                 -28,512              -50,638                                                            Dollars    N/A
 11 Amounts                                    486                                                                                                                                    Dollars   Debit
     collected for
     Non-Federal
     entities
 12 Total                              -1,747,382                    -910,277                 -28,512              -50,638                                                            Dollars    N/A

    Section: B              Section Name: PP Collections of Federal Revenue                                      Rounding Method: Millions                        Decimal: Zero

Line Line Description                    2006                          2005                    2004           Prior Years                                                              Line    NB
 No                                                                                                                                                                                 Attributes
  1 Individual income                   1,309,338                     690,831                  17,307               16,733                                                           Dollars Credit
     and tax
     withholdings
  2 Corporation                           259,140                     103,803                   1,669               15,814                                                            Dollars   Credit
     income taxes
  3 Unemployment                            5,080                       2,276                      52                  125                                                            Dollars   Credit
     taxes
  4 Excise taxes                           53,488                      18,999                      91                  196                                                            Dollars   Credit
  5 Estate and gift                            50                      18,806                   1,240                8,592                                                            Dollars   Credit
     taxes


                                                                                                  - 51 ­
                                                                                                                                                                                    11/14/2007 09:00:16

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

   Note: 16              Collections and Refunds of Federal Revenue                                                               Fiscal Year: 2007            Period: SEPTEMBER
  Entity: 2000           Department of the Treasury                                                                               Agency Notes:   Note 1, 21

 Status: Complete

Tab: Other Notes Info.

    Section: B               Section Name: PP Collections of Federal Revenue                                       Rounding Method: Millions                        Decimal: Zero

  6 Railroad                                 3,577                       1,094                          0                     2                                                         Dollars   Credit
    retirement taxes
  7 Federal Reserve                         24,141                       5,804                          0                     0                                                         Dollars   Credit
    earnings
  8 Fines, penalties,                        2,888                         436                          0                     0                                                         Dollars   Credit
    interest, and
    other revenue
  9 Customs duties                                0                           0                        0                    0                                                           Dollars   Credit
 10 Subtotal                            -1,657,702                    -842,049                  -20,359              -41,462                                                            Dollars    N/A
 11 Amounts                                     374                           0                        0                    0                                                           Dollars   Debit
    collected for non-
    Federal entities
 12 Total                               -1,657,328                    -842,049                  -20,359              -41,462                                                            Dollars    N/A

    Section: C               Section Name: Federal Tax Refunds Disbursed                                           Rounding Method: Millions                        Decimal: Zero

Line Line Description                     2007                          2006                     2005           Prior Years                                                              Line     NB
 No                                                                                                                                                                                   Attributes
  1 Individual income                        1,823                     235,151                   17,839                6,242                                                           Dollars   Debit
     and tax
     withholdings
  2 Corporation                              1,241                       8,122                    4,278               14,509                                                            Dollars   Debit
     income taxes
  3 Unemployment                                   0                        75                       16                   36                                                            Dollars   Debit
     taxes
  4 Excise taxes                                 416                       570                      253                1,131                                                            Dollars   Debit
  5 Estate and gift                                0                       256                      490                  223                                                            Dollars   Debit
     taxes
  6 Railroad                                       0                           5                        1                     7                                                         Dollars   Debit
     retirement taxes
  7 Federal Reserve                                0                           0                        0                     0                                                         Dollars   Debit
     earnings
  8 Fines, penalties,                              0                           0                        0                     0                                                         Dollars   Debit
     interest, and
     other revenue
  9 Customs Duties                               0                           0                        0                    0                                                            Dollars   Debit
 10 Total                                    3,480                     244,179                   22,877               22,148                                                            Dollars    N/A




                                                                                                    - 52 ­
                                                                                                                                                                                         11/14/2007 09:00:16

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

   Note: 16             Collections and Refunds of Federal Revenue                                                                     Fiscal Year: 2007            Period: SEPTEMBER
  Entity: 2000          Department of the Treasury                                                                                     Agency Notes:   Note 1, 21

 Status: Complete

Tab: Other Notes Info.

    Section: D              Section Name: PP Fed Tax Refunds Disbursed for the FY                                       Rounding Method: Millions                        Decimal: Zero

Line Line Description                    2006                         2005                       2004                Prior Years                                                              Line     NB
 No                                                                                                                                                                                        Attributes
  1 Individual income                           612                  225,503                     13,465                     5,606                                                           Dollars   Debit
     and tax
     withholdings
  2 Corporation                             1,238                      8,805                      3,906                    16,514                                                            Dollars   Debit
     income taxes
  3 Unemployment                                  0                      86                          19                        38                                                            Dollars   Debit
     taxes
  4 Excise taxes                                  0                     479                         46                        178                                                            Dollars   Debit
  5 Estate and gift                             429                     240                        332                        279                                                            Dollars   Debit
     taxes
  6 Railroad                                      0                     -31                          15                        19                                                            Dollars   Debit
     retirement taxes
  7 Federal Reserve                               0                          0                           0                         0                                                         Dollars   Debit
     earnings
  8 Fines, penalties,                             0                          0                           0                         0                                                         Dollars   Debit
     interest, and
     other revenue
  9 Customs duties                              0                          0                          0                         0                                                            Dollars   Debit
 10 Total                                   2,279                    235,082                     17,783                    22,634                                                            Dollars    N/A

    Section: E              Section Name: Miscellaneous                                          No Data Flag: YES      Rounding Method: Millions                        Decimal: User-Defined

Line Line Description    2007 - SEPTEMBER              2006 - SEPTEMBER                Previously Rptd       Line Item Changes                                                                Line     NB
 No                                                                                                                                                                                        Attributes
  1 Portion due from                                                                                                                                                                        Dollars   Debit
     identified non­
     compliance
     assessments
  2 Portion due from                                                                                                                                                                         Dollars   Debit
     pre-assessment
     work in process




                                                                                                    - 53 ­
                                                                                                                                                                                                      11/14/2007 09:00:16

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

    Note: 16          Collections and Refunds of Federal Revenue                                                                               Fiscal Year: 2007               Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                                               Agency Notes:     Note 1, 21

 Status: Complete

Tab: Other Notes Info.

      Section: F            Section Name: Tax Gap                                                                                  Rounding Method: Millions                          Decimal: Zero

Line Line Description CY Low end of range               CY High end of range           PY Low end of range            PY High end of range                                                                 Line     NB
 No                                                                                                                                                                                                     Attributes
  1 Tax gap estimate                              0                          345                               0                         345                                                             Dollars   Debit




Tab: Text Data

 Line No           Question                                                                                                  Answer
1                  Disclose the basis of accounting related to Collections and Disbursements of Federal                      The Department's Statement of Custodial Activity is presented on a modified accrual
                   Revenue.                                                                                                  basis of accounting. Revenues are recognized as cash is collected. The Balance Sheet
                                                                                                                             includes an estimated amount for taxes receivable and payable to the General Fund of
                                                                                                                             the United States government (ref: Department Note 1, M)
2                  Provide a brief description of any other material types of revenue transactions that relate to            See IRS stand alone Audited Financial Statements, Notes 1H, I, and supplemental
                   the custodial responsibility of the collecting entity (SFFAS No. 7, par. 65.2).                           information.
3                  Disclose the reasons for any trust fund revenues that are not recorded in accordance with                 Trust Fund Revenues are recorded in accordance with applicable law.
                   applicable law (SFFAS No. 7, par. 66).
4                  Provide any other relevant information pertaining to this note.                                           Ref: IRS Standalone audited financial statements.
                                                                                                                             NOTE: IRS could not calculate a Tax Gap Low End Estimate, they were only able to
                                                                                                                             provide the High End.




                                                                                                             - 54 ­
                                                                                                                                                                                 11/14/2007 09:00:16

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

    Note: 17            Prior-Period Adjustments                                                                                   Fiscal Year: 2007        Period: SEPTEMBER
    Entity: 2000        Department of the Treasury                                                                                 Agency Notes:     None

 Status: Complete

Tab: Other Notes Info.

      Section: A            Section Name: Prior Period Adjustments                                   No Data Flag: YES   Rounding Method: Millions               Decimal: Zero

Line Line Description    2007 - SEPTEMBER                                                                                                                                             Line    NB
 No                                                                                                                                                                                Attributes
  1 Amounts that                                                                                                                                                                    Dollars Credit
     adjusted CY
     beginning net
     position - for
     change in
     accounting
     principles
  2 Amounts that                                                                                                                                                                     Dollars    Credit
     adjusted CY
     beginning net
     position - for
     correction of
     errors in PP not
     restated

      Section: B            Section Name: Prior-Period Adjustments - Restatements                    No Data Flag: YES   Rounding Method: Millions               Decimal: Zero

Line Line Description         Credit Amount C               Debit Amount D                                                                                                            Line       NB
 No                                                                                                                                                                                Attributes
  1                                                                                                                                                                                 Dollars      N/A
  2                                                                                                                                                                                 Dollars      N/A
  3                                                                                                                                                                                 Dollars      N/A
  4                                                                                                                                                                                 Dollars      N/A
  5                                                                                                                                                                                 Dollars      N/A
  6                                                                                                                                                                                 Dollars      N/A
  7                                                                                                                                                                                 Dollars      N/A
  8                                                                                                                                                                                 Dollars      N/A
  9                                                                                                                                                                                 Dollars      N/A
 10                                                                                                                                                                                 Dollars      N/A
Tab: Text Data                        No Data Flag: YES

 Line No           Question                                                                                          Answer
1                  Describe the adjustments to beginning net position that resulted from changes in accounting
                   principles and all corrections of errors that were not restated.
2                  Describe the corrections of error that were restated.
3                  Describe any Federal prior-period adjustments.
4                  Provide any other relevant information pertaining to this note.



                                                                                                        - 55 ­
                                                                                                                                                                              11/14/2007 09:00:16

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                      GF006 - FR Notes Report

    Note: 18            Contingencies (SFFAS Nos. 5 and 12)                                                                      Fiscal Year: 2007          Period: SEPTEMBER
   Entity: 2000         Department of the Treasury                                                                               Agency Notes:   Note 16

  Status: Complete

 Tab: Other Notes Info.

     Section: A             Section Name: Insurance Contingencies (Reasonably Possible Only)     No Data Flag: YES    Rounding Method: User-Defined              Decimal: User-Defined

Line Line Description     2007 - SEPTEMBER              2006 - SEPTEMBER               Previously Rptd       Line Item Changes                                                      Line       NB
 No                                                                                                                                                                              Attributes
  4                                                                                                                                                                               Dollars     Credit
  5                                                                                                                                                                               Dollars     Credit
  6                                                                                                                                                                               Dollars     Credit
  7                                                                                                                                                                               Dollars     Credit
  8                                                                                                                                                                               Dollars     Credit
  9 Other insurance                                                                                                                                                               Dollars     Credit
     contingencies
 10 Total                                                                                                                                                                          Dollars     N/A

     Section: B             Section Name: Insurance in force (Sum of Policy Face Value and       No Data Flag: YES    Rounding Method: User-Defined              Decimal: User-Defined
                                          Dividends Paid)

Line Line Description     2007 - SEPTEMBER              2006 - SEPTEMBER               Previously Rptd       Line Item Changes                                                      Line       NB
 No                                                                                                                                                                              Attributes
  3                                                                                                                                                                               Dollars     Credit
  4                                                                                                                                                                               Dollars     Credit
  5                                                                                                                                                                               Dollars     Credit
  6                                                                                                                                                                               Dollars     Credit
  7                                                                                                                                                                               Dollars     Credit
  8 Other insurance                                                                                                                                                               Dollars     Credit
     in force
  9 Total                                                                                                                                                                          Dollars     N/A

     Section: C             Section Name: Civil Litigation, Claims and Assessments               No Data Flag: YES    Rounding Method: User-Defined              Decimal: User-Defined

Line Line Description     CYAccrued/Estimated        CY Estimated Range(Low          CY Estimated Range CY Claim amount(Unable       PYAccrued/Estimated PY Estimated Range(Low    Line    NB
 No                                 amount                            end)                  (High end)      to determine loss)      amount rued/Estimated                 end)  Attributes
                                                                                                                                                amount
   1 Probable                                                                                                                                                                    Dollars Credit
   2 Reasonably                                                                                                                                                                  Dollars Credit
     Possible
Line Line Description     PY Estimated Range         PY Claim amunt (unable                                                                                                         Line     NB
 No                               (High end)                 to determine)                                                                                                       Attributes
  1 Probable                                                                                                                                                                      Dollars   Credit
  2 Reasonably                                                                                                                                                                    Dollars   Credit
     Possible



                                                                                                    - 56 ­
                                                                                                                                                                                      11/14/2007 09:00:16

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

    Note: 18            Contingencies (SFFAS Nos. 5 and 12)                                                                           Fiscal Year: 2007          Period: SEPTEMBER
   Entity: 2000         Department of the Treasury                                                                                    Agency Notes:   Note 16

  Status: Complete

 Tab: Other Notes Info.

     Section: D             Section Name: Environmental Litigation, Claims, and Assessments     No Data Flag: YES       Rounding Method: User-Defined                 Decimal: User-Defined

Line Line Description     CYAccrued/Estimated             CY Estimated Range        CY Estimated Range      CY Claim amunt(unable         PY Accrued/Estimated    PY Estimated Range    Line    NB
 No                                 amount                        (Low end)                (High end)               to determine)                    amount               (Low end)  Attributes
  1 Probable                                                                                                                                                                          Dollars Credit
  2 Reasonably                                                                                                                                                                        Dollars Credit
     Possible
Line Line Description     PY Estimated Range         PY Claim amount (unable                                                                                                               Line     NB
 No                            (High Range)                    to determine)                                                                                                            Attributes
  1 Probable                                                                                                                                                                             Dollars   Credit
  2 Reasonably                                                                                                                                                                           Dollars   Credit
     Possible

     Section: E             Section Name: Other Contingencies                                                           Rounding Method: Millions                     Decimal: Zero

Line Line Description     2007 - SEPTEMBER               2006 - SEPTEMBER             Previously Rptd         Line Item Changes                                                            Line    NB
 No                                                                                                                                                                                     Attributes
  1 Terrorism Risk                              0                           0                                                     0                                                      Dollars Credit
     Insurance
     Program -- See
     text data
  2                                                                                                                                                                                       Dollars   Credit
  3                                                                                                                                                                                       Dollars   Credit
  4                                                                                                                                                                                       Dollars   Credit
  5                                                                                                                                                                                       Dollars   Credit




                                                                                                   - 57 ­
                                                                                                                                                                                                    11/14/2007 09:00:16

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

    Note: 18          Contingencies (SFFAS Nos. 5 and 12)                                                                                Fiscal Year: 2007                  Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                                         Agency Notes:       Note 16

 Status: Complete

Tab: Other Notes Info.
Tab: Text Data

Line No            Question                                                                                           Answer
1                  Describe the risk insurance programs that are in force.                                            None
2                  Provide the nature of the isurance contingencies.                                                  None
3                  Provide the nature of the litigation contingencies, including the range of loss for probable       Treasury is subject to contingent liabilities which include litigation cases. These
                   liabilities.                                                                                       contingent liabilities arise in the normal course of operations and their ultimate
                                                                                                                      disposition is unknown.

                                                                                                                      Based on information currently available, however, it is management's opinion that the
                                                                                                                      expected outcome of these matters, individually or in the aggregate, will not have a
                                                                                                                      materially adverse effect on the financial statements, except for the litigation described
                                                                                                                      in 5.

                                                                                                                      Treasury is a party in various administrative proceedings, legal actions, and claims
                                                                                                                      brought by or against it. At September 30, 2007 and 2006, no claims were reported in
                                                                                                                      which a loss is probable, and no contingencies existed relative to proceedings and
                                                                                                                      claims for which it is reasonably possible that a loss may be incurred.
4                  Provide the nature of the litigation contingencies including the range of loss for reasonably      Treasury is subject to contingent liabilities which include litigation cases. These
                   possible contingencies.                                                                            contingent liabilities arise in the normal course of operations and their ultimate
                                                                                                                      disposition is unknown.

                                                                                                                      Based on information currently available, however, it is management's opinion that the
                                                                                                                      expected outcome of these matters, individually or in the aggregate, will not have a
                                                                                                                      materially adverse effect on the financial statements, except for the litigation described
                                                                                                                      in 5.

                                                                                                                      Treasury is a party in various administrative proceedings, legal actions, and claims
                                                                                                                      brought by or against it. At September 30, 2007 and 2006, no claims were reported in
                                                                                                                      which a loss is probable, and no contingencies existed relative to proceedings and
                                                                                                                      claims for which it is reasonably possible that a loss may be incurred.




                                                                                                             - 58 ­
                                                                                                                                                                                                  11/14/2007 09:00:16

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

    Note: 18          Contingencies (SFFAS Nos. 5 and 12)                                                                              Fiscal Year: 2007                  Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                                       Agency Notes:       Note 16

 Status: Complete

Tab: Other Notes Info.
Tab: Text Data

Line No            Question                                                                                         Answer
5                  Provide the total claim amount for cases assessed as "unable to determine" if significant.
                   Also, provide a statement on whether this materiality affects the financial statements.          Based on the information provided by legal counsel and in the opinion of management,
                                                                                                                    the ultimate resolution of the following legal actions, for which a range of potential loss
                                                                                                                    could not be determined, may materially affect Treasury's financial position or results.
                                                                                                                    These specific cases are summarized as follows:

                                                                                                                    ¿ The American Council of the Blind and Others: Plaintiffs have filed suit against the
                                                                                                                    Department under Section 504 of the Rehabilitation Act seeking the redesign of U.S.
                                                                                                                    currency. A judge has ruled that the current U.S. currency design violates this Act and
                                                                                                                    this ruling has been appealed. Should the appellate court find for the plaintiffs in this
                                                                                                                    case, the Department may be required to make changes to U.S. currency that would
                                                                                                                    result in capital investment costs of up to $320 million, as well as increased annual
                                                                                                                    expenditures of up to $174 million. Any such costs would be charged to the Federal
                                                                                                                    Reserve as part of the billing rate for the production of U.S. currency.

                                                                                                                    ¿ Cobell v. Kempthorne (formerly Cobell v. Norton): Native Americans allege that the
                                                                                                                    Department of Interior and the Department have breached trust obligations with respect
                                                                                                                    to the management of the plaintiffs¿ individual Indian monies. The plaintiffs have not
                                                                                                                    made claims for specific dollar amounts in the Federal district court proceedings, but in
                                                                                                                    public statements the tribes have asserted that the potential loss could reach $27.5
                                                                                                                    billion.

                                                                                                                    ¿ Tribal Trust Fund Cases: Numerous cases have been filed in which Native American
                                                                                                                    Tribes seek a declaration that the U.S. has not provided the tribes with a full and
                                                                                                                    complete accounting of their trust funds, and seek an order requiring the government to
                                                                                                                    provide such an accounting. In addition, there are a number of other related cases for
                                                                                                                    damages which do not name the Department as a defendant. It is probable that
                                                                                                                    additional tribes may file claims. It is not possible at this time to determine the number
                                                                                                                    of suits that may be filed or the amount of damages that may be claimed.

                                                                                                                    ¿ Other Legal Actions: The Department is also involved in employment related legal
                                                                                                                    actions (e.g., Discrimination, Equal Employment Opportunity Commission, Merit System
                                                                                                                    Protection Board, etc.) which were reported to be reasonably possible, but for which an
                                                                                                                    estimate of potential loss cannot be determined at this time.




                                                                                                           - 59 ­
                                                                                                                                                                                              11/14/2007 09:00:16

                                                                                         U.S. Department of the Treasury
                                                                                          Financial Management Service
                                                                                     Governmentwide Financial Report System
                                                                                             GF006 - FR Notes Report

    Note: 18          Contingencies (SFFAS Nos. 5 and 12)                                                                          Fiscal Year: 2007                  Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                                   Agency Notes:       Note 16

 Status: Complete

Tab: Other Notes Info.
Tab: Text Data

Line No            Question                                                                                     Answer
6                  Provide any other relevant information pertaining to this note.                              POSSIBLE LEGAL ACTIONS

                                                                                                                The Terrorism Risk Insurance Act (TRIA) was signed into law on November 26, 2002.
                                                                                                                This law was enacted to address market disruptions resulting from terrorist attacks on
                                                                                                                September 11, 2001. The act helps to ensure available and affordable commercial
                                                                                                                property and casualty insurance for terrorism risk, and simultaneously allows private
                                                                                                                markets to stabilize. If a certified act of terrorism occurs, insurers may be eligible to
                                                                                                                receive reimbursement from the Federal government for insured losses above a
                                                                                                                designated deductible amount. Insured losses above this amount will be shared
                                                                                                                between insurance companies and the Federal government. The Terrorism Risk
                                                                                                                Insurance Program is activated upon the certification of an ¿act of terrorism¿ by the
                                                                                                                Secretary of the Treasury in concurrence with the Secretary of State and the Attorney
                                                                                                                General.

                                                                                                                The original TRIA program expired on December 31, 2005. However, this program was
                                                                                                                subsequently extended through December 31, 2007 when President Bush signed the
                                                                                                                Terrorism Risk Insurance Extension Act of 2005. This law includes the following
                                                                                                                changes: a reduced Federal role in terrorism risk insurance markets by increasing
                                                                                                                insurer deductibles and the exclusion of certain types of previously covered insurance.
                                                                                                                The act also reduces the Federal governments¿ share of insured losses. Another
                                                                                                                noteworthy change is a ¿Program Trigger¿ provision which precludes Federal
                                                                                                                payments unless insured losses from a certified terrorism event exceed $100 million in
                                                                                                                FY 2007 and $100 million in FY 2008. Legislation has been introduced to extend the
                                                                                                                program beyond 2007.




                                                                                                      - 60 ­
                                                                                                                                                                                              11/14/2007 09:00:16

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

   Note: 19             Commitments                                                                                                       Fiscal Year: 2007             Period: SEPTEMBER
  Entity: 2000          Department of the Treasury                                                                                        Agency Notes:   Note 16, 20 for Undelivered Orders, No lease Note

 Status: Complete

Tab: Other Notes Info.

    Section: A              Section Name: Capital leases-Asset                                                             Rounding Method: Millions                          Decimal: Zero

Line Line Description              CY Federal               CY Non-Federal                    PY Federal            PY Non-Federal                                                                 Line        NB
 No                                                                                                                                                                                             Attributes
  1                                                                                                                                                                                              Dollars      Debit
  2                                                                                                                                                                                              Dollars      Debit
  3                                                                                                                                                                                              Dollars      Debit
  4                                                                                                                                                                                              Dollars      Debit
  5 Various Office                                                         25                              2                         20                                                          Dollars      Debit
     Equip mainly IRS
  6 Accumulated                                                            12                              1                          6                                                           Dollars     Credit
     depreciation/amor
     tization
  7 Net assets under                                                       13                              1                         14                                                           Dollars      N/A
     capital leases
Threshold
 Line Description                                              Question                                                               Answer
 Other Notes Info - Various Office Equip mainly IRS (CY        Please provide explanations for any amounts that have                  The Department does not have a capital lease note because the balances
 Non-Federal)                                                  changed by 10 percent or more between the                              are insignificant. Accordingly, a variance analysis was not perfromed.
                                                               current fiscal year and prior fiscal year. (unaudited)
 Other Notes Info - Accumulated depreciation/amortization      Please provide explanations for any amounts that have                  The Department does not have a capital lease note because the balances
 (CY Non-Federal)                                              changed by 10 percent or more between the                              are insignificant. Accordingly, a variance analysis was not perfromed.
                                                               current fiscal year and prior fiscal year. (unaudited)

    Section: B              Section Name: Capital leases - Liability                                                       Rounding Method: Millions                          Decimal: Zero

Line Line Description              CY Federal               CY Non-Federal                   PY Federal             PY Non-Federal                                                                 Line    NB
 No                                                                                                                                                                                             Attributes
  1 Future minimum                                                           6                             1                          9                                                          Dollars Credit
     lease programs
  2 Imputed interest                                                         1                                                        1                                                           Dollars     Debit
  3 Executory costs                                                          2                                                        4                                                           Dollars     Debit
     including any
     profit
  4 Total capital                                                          -3                           -1                           -4                                                           Dollars      N/A
     lease liability




                                                                                                       - 61 ­
                                                                                                                                                                                                11/14/2007 09:00:16

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

   Note: 19              Commitments                                                                                                     Fiscal Year: 2007               Period: SEPTEMBER
  Entity: 2000           Department of the Treasury                                                                                      Agency Notes:     Note 16, 20 for Undelivered Orders, No lease Note

 Status: Complete

Tab: Other Notes Info.

    Section: B               Section Name: Capital leases - Liability                                                        Rounding Method: Millions                          Decimal: Zero

Threshold
 Line Description                                                 Question                                                             Answer
 Other Notes Info - Future minimum lease programs (CY             Please provide explanations for any amounts that have                The Department doesn't have a note disclosure because the balances are
 Non-Federal)                                                     changed by 10 percent or more between                                insignificant. Accordingly, a fluctuation analysis was not perfromed.
                                                                  current fiscal year and prior fiscal year. (unaudited)
 Other Notes Info - Executory costs including any profit (CY      Please provide explanations for any amounts that have                The Department doesn't have a note disclosure because the balances are
 Non-Federal)                                                     changed by 10 percent or more between the                            insignificant. Accordingly, a fluctuation analysis was not perfromed.
                                                                  current fiscal year and prior fiscal year. (unaudited)




    Section: C               Section Name: Commitments: Operating leases and undelivered                                     Rounding Method: Millions                          Decimal: Zero
                                           orders

Line Line Description             CY Federal                   CY Non-Federal                   PY Federal            PY Non-Federal                                                                 Line    NB
 No                                                                                                                                                                                               Attributes
  1 Operating leases                          488                             54                          477                       53                                                             Dollars Credit
  2 Undelivered                               470                         55,834                          248                   51,134                                                             Dollars Credit
     orders
Threshold
 Line Description                                                 Question                                                             Answer
 Other Notes Info - Undelivered orders (CY Federal)               Please provide explanations for any amounts that have                Addition of undelivered with advances to Federal agencies - $208M
                                                                  changed by 10% or more and or greater than $500,000
                                                                  between the current fiscal year and prior fiscal year.
                                                                  (unaudited)

    Section: D               Section Name: Other Commitments                                                                 Rounding Method: Millions                          Decimal: Zero

Line Line Description              CY Federal                  CY Non-Federal                   PY Federal            PY Non-Federal                                                                 Line    NB
 No                                                                                                                                                                                               Attributes
  1 Callable capital                                                      62,222                                                62,124                                                             Dollars Credit
     subscriptions for
     multilateral
     development
     banks
  9                                                                                                                                                                                                 Dollars    Credit
 10                                                                                                                                                                                                 Dollars    Credit
 11                                                                                                                                                                                                 Dollars    Credit
 12                                                                                                                                                                                                 Dollars    Credit



                                                                                                          - 62 ­
                                                                                                                                                                                             11/14/2007 09:00:16

                                                                                         U.S. Department of the Treasury
                                                                                          Financial Management Service
                                                                                     Governmentwide Financial Report System
                                                                                             GF006 - FR Notes Report

    Note: 19          Commitments                                                                                                    Fiscal Year: 2007                Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                                     Agency Notes:      Note 16, 20 for Undelivered Orders, No lease Note

 Status: Complete

Tab: Other Notes Info.

      Section: D            Section Name: Other Commitments                                                             Rounding Method: Millions                            Decimal: Zero

 13                                                                                                                                                                                               Dollars    Credit
 14 (I)                                                                                                                                                                                           Dollars    Debit
 15 Total                                                                -62,222                                           -62,124                                                                Dollars     N/A




Tab: Text Data

Line No            Question                                                                                       Answer
1                  Describe the lessee's leasing arrangements including the basis on which contingent rental      IRS -The capital lease liability as of September 30, 2007 and 2006, is $3 million and $5
                   payments are determined, the existence and terms of renewal or purchase options,               million, respectively, for photocopiers and ADP Equipment. The Service leases office
                   escalation clauses and restrictions imposed by lease agreement.                                space, vehicles and equipment under annual operating leases. These leases are
                                                                                                                  cancelable or renewable on an annual basis at the option of the Service. They do not
                                                                                                                  impose binding commitments on the Service for future rental payments on leases with
                                                                                                                  terms longer than one year.

                                                                                                                  Most Treasury entities have operating leases with GSA for office space which can be
                                                                                                                  cancelled upon notice.




2                  Provide any other relevant information pertaining to this note.                                Multilateral Development Banks (MDBs): The Treasury Department has subscribed to
                                                                                                                  capital for certain MDBs, portions of which are callable under certain limited
                                                                                                                  circumstances to meet the obligations of the respective MDBs. There has never been,
                                                                                                                  nor is there anticipated, a call on the Treasury Department subscriptions.




                                                                                                         - 63 ­
                                                                                                                                                                                          11/14/2007 09:00:16

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

   Note: 20             Dedicated Collections (Excluding Funds Identified as Earmarked and Reported in Note 22 - Earmarked                 Fiscal Year: 2007         Period: SEPTEMBER
                        Funds)
                                                                                                                                           Agency Notes:   None
  Entity: 2000          Department of the Treasury

 Status: Complete

Tab: Other Notes Info.

       Section: A           Section Name: Assets - Current Year                                      No Data Flag: YES         Rounding Method: User-Defined              Decimal: User-Defined

Line Line Description           Inv. in Fed debt           Fund balance with                    Interest D           Other Fed assets D       Non-Federal assets D         Total assets        Line      NB
 No                          securities - net D                 Treasury D                                                                                                                  Attributes
  1                                                                                                                                                                                          Dollars     N/A
  2                                                                                                                                                                                          Dollars     N/A
  3                                                                                                                                                                                          Dollars     N/A
  4                                                                                                                                                                                          Dollars     N/A
  5                                                                                                                                                                                          Dollars     N/A




       Section: B           Section Name: Assets - Prior year                                        No Data Flag: YES         Rounding Method: User-Defined              Decimal: User-Defined

Line   Line Description Inv. in Fed Debt Sec. ­            Fund balance with                    Interest D        Other Federal assets D      Non-Federal assets D         Total assets        Line      NB
 No                                      net D                  Treasury D                                                                                                                  Attributes
  1                                                                                                                                                                                          Dollars     N/A
  2                                                                                                                                                                                          Dollars     N/A
  3                                                                                                                                                                                          Dollars     N/A
  4                                                                                                                                                                                          Dollars     N/A
  5                                                                                                                                                                                          Dollars     N/A
 23    (I)                                                                                                                                                                                   Dollars     N/A
 24    (I)                                                                                                                                                                                   Dollars     N/A
 25    (I)                                                                                                                                                                                   Dollars     N/A

       Section: C           Section Name: Liabilities - Current Year                                 No Data Flag: YES         Rounding Method: User-Defined              Decimal: User-Defined

Line Line Description          Liability due and           Other liabilities C            Total liabilities                                                                                    Line      NB
 No                                   payable to                                                                                                                                            Attributes
                               beneficiaries C
  1                                                                                                                                                                                           Dollars    N/A
  2                                                                                                                                                                                           Dollars    N/A
  3                                                                                                                                                                                           Dollars    N/A
  4                                                                                                                                                                                           Dollars    N/A
  5                                                                                                                                                                                           Dollars    N/A




                                                                                                         - 64 ­
                                                                                                                                                                                           11/14/2007 09:00:16

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

    Note: 20            Dedicated Collections (Excluding Funds Identified as Earmarked and Reported in Note 22 - Earmarked                Fiscal Year: 2007            Period: SEPTEMBER
                        Funds)
                                                                                                                                          Agency Notes:   None
   Entity: 2000         Department of the Treasury

  Status: Complete

 Tab: Other Notes Info.

     Section: D              Section Name: Liabilities - Prior Year                                  No Data Flag: YES         Rounding Method: User-Defined                 Decimal: User-Defined

Line Line Description           Liability due and           Other liabilities C           Total liabilities                                                                                     Line      NB
 No                                    payable to                                                                                                                                            Attributes
                                beneficiaries C
   1                                                                                                                                                                                           Dollars    N/A
   2                                                                                                                                                                                           Dollars    N/A
   3                                                                                                                                                                                           Dollars    N/A
   4                                                                                                                                                                                           Dollars    N/A
   5                                                                                                                                                                                           Dollars    N/A
  23 (I)                                                                                                                                                                                       Dollars    N/A
  24 (I)                                                                                                                                                                                       Dollars    N/A
  25 (I)                                                                                                                                                                                       Dollars    N/A

     Section: E              Section Name: Current Year - Revenue, financing, expenses, and          No Data Flag: YES         Rounding Method: User-Defined                 Decimal: User-Defined
                                           other

Line Line Description Beginning net position              Exchange revenue ­ Exchange revenue - with              Nonexchange revenue ­     Nonexchange revenue ­    Other financing sources    Line      NB
 No                                        C                      Federal C             the public C                         Federal C           with the public C                         C Attributes
  1                                                                                                                                                                                           Dollars     N/A
  2                                                                                                                                                                                           Dollars     N/A
  3                                                                                                                                                                                           Dollars     N/A
  4                                                                                                                                                                                           Dollars     N/A
  5                                                                                                                                                                                           Dollars     N/A
Line Line Description     Other changes in fund        Program expenses D              Other expenses D            Ending Net Position                                                          Line      NB
 No                                 balance C                                                                                                                                                Attributes
  1                                                                                                                                                                                           Dollars     N/A
  2                                                                                                                                                                                           Dollars     N/A
  3                                                                                                                                                                                           Dollars     N/A
  4                                                                                                                                                                                           Dollars     N/A
  5                                                                                                                                                                                           Dollars     N/A




                                                                                                         - 65 ­
                                                                                                                                                                                             11/14/2007 09:00:16

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

       Note: 20            Dedicated Collections (Excluding Funds Identified as Earmarked and Reported in Note 22 - Earmarked              Fiscal Year: 2007             Period: SEPTEMBER
                           Funds)
                                                                                                                                           Agency Notes:   None
   Entity: 2000            Department of the Treasury

  Status: Complete

 Tab: Other Notes Info.

        Section: F             Section Name: Prior Year - Revenue, financing, expenses, and            No Data Flag: YES        Rounding Method: User-Defined                  Decimal: User-Defined
                                             other

Line    Line Description Beginning net position             Exchange revenue ­ Exchange revenue - with             Nonexchange revenue ­     Nonexchange revenue ­     Other financing sources    Line      NB
 No                                           C                     Federal C             the public C                        Federal C           with the public C                          C Attributes
  1                                                                                                                                                                                             Dollars     N/A
  2                                                                                                                                                                                             Dollars     N/A
  3                                                                                                                                                                                             Dollars     N/A
  4                                                                                                                                                                                             Dollars     N/A
  5                                                                                                                                                                                             Dollars     N/A
 23     (I)                                                                                                                                                                                     Dollars     N/A
 24     (I)                                                                                                                                                                                     Dollars     N/A
 25     (I)                                                                                                                                                                                     Dollars     N/A
Line   Line Description    Other changes in fund          Program expenses D             Other expenses D           Ending net position                                                           Line      NB
 No                                  balance C                                                                                                                                                 Attributes
   1                                                                                                                                                                                            Dollars     N/A
   2                                                                                                                                                                                            Dollars     N/A
   3                                                                                                                                                                                            Dollars     N/A
   4                                                                                                                                                                                            Dollars     N/A
   5                                                                                                                                                                                            Dollars     N/A
  23   (I)                                                                                                                                                                                      Dollars     N/A
  24   (I)                                                                                                                                                                                      Dollars     N/A
  25   (I)                                                                                                                                                                                      Dollars     N/A

        Section: G             Section Name: Other                                                     No Data Flag: YES        Rounding Method: User-Defined                  Decimal: User-Defined

Line    Line Description        CY - Revenues C             CY - Other financing               CY - Costs D             PY - Revenues C         PY - Other financing            PY - Costs D      Line      NB
 No                                                                  sources C                                                                           sources C                             Attributes
  1                                                                                                                                                                                             Dollars     N/A
  2                                                                                                                                                                                             Dollars     N/A
  3                                                                                                                                                                                             Dollars     N/A
  4                                                                                                                                                                                             Dollars     N/A
  5                                                                                                                                                                                             Dollars     N/A
 23     (I)                                                                                                                                                                                     Dollars     N/A
 24     (I)                                                                                                                                                                                     Dollars     N/A
 25     (I)                                                                                                                                                                                     Dollars     N/A




                                                                                                          - 66 ­
                                                                                                                                                                          11/14/2007 09:00:16

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

    Note: 20          Dedicated Collections (Excluding Funds Identified as Earmarked and Reported in Note 22 - Earmarked           Fiscal Year: 2007      Period: SEPTEMBER
                      Funds)
                                                                                                                                   Agency Notes:   None
    Entity: 2000      Department of the Treasury

 Status: Complete

Tab: Other Notes Info.
Tab: Text Data                        No Data Flag: YES

Line No            Question                                                                                               Answer
1                  State the legal authority for the administrative entity of each fund to use the collections
                   based on SFFAS No. 7, par. 85.
2                  Provide any other relevant information pertaining to this note.




                                                                                                                 - 67 ­
                                                                                                                                                                                              11/14/2007 09:00:16

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

    Note: 22              Earmarked Funds                                                                                                 Fiscal Year: 2007            Period: SEPTEMBER
   Entity: 2000           Department of the Treasury                                                                                      Agency Notes:   Note 22, Note 15, Note 8

  Status: Complete

 Tab: Other Notes Info.

     Section: A               Section Name: Assets - Current Year                                                             Rounding Method: Millions                       Decimal: Zero

Line Line Description           Cash and other             Fund balance with            Inv in U. S. Treas.                  Interest D Other Federal assets (with       Other Federal assets  Line          NB
 No                          monetary assets D                  Treasury D        Sec.(net of prem. & disc)                                  earmarked funds) D         (with non-earmarked Attributes
                                                                                                         D                                                                         funds) D
  13 Exchange                                21,345                          0                      16,436                          125                                                       Dollars        N/A
     Stabilization Fund
  18                                                                                                                                                                                              Dollars    N/A
  19                                                                                                                                                                                              Dollars    N/A
  20                                                                                                                                                                                              Dollars    N/A
  21                                                                                                                                                                                              Dollars    N/A
  22                                                                                                                                                                                              Dollars    N/A
  23 All other                                   28                      704                          5,422                          39                                                   19      Dollars    N/A
     earmarked funds
  24 Total                                   21,373                      704                         21,858                         164                                                   19      Dollars    N/A
Line Line Description         Other non-Federal               Total assets                                                                                                                         Line      NB
 No                                   assets D                                                                                                                                                  Attributes
  13 Exchange                              10,018                    47,924                                                                                                                      Dollars     N/A
     Stabilization Fund
  18                                                                                                                                                                                              Dollars    N/A
  19                                                                                                                                                                                              Dollars    N/A
  20                                                                                                                                                                                              Dollars    N/A
  21                                                                                                                                                                                              Dollars    N/A
  22                                                                                                                                                                                              Dollars    N/A
  23 All other                               1,376                    7,588                                                                                                                       Dollars    N/A
     earmarked funds
  24 Total                                  11,394                   55,512                                                                                                                       Dollars    N/A

     Section: B               Section Name: Assets - Prior Year                                                               Rounding Method: Millions                       Decimal: Zero

Line Line Description           Cash and other             Fund balance with         Inv. in U.S. Treas. Sec.     Other Federal assets ( Other Federal assets (with        Other non-Federal   Line          NB
 No                          monetary assets D                  Treasury D         (net of prem. & disc.) D       with earmarked funds) non-earmarked funds) D                     assets D Attributes
                                                                                                                                      D
  13 Exchange                                19,295                          0                       15,711                            0                        25                     9,334      Dollars    N/A
     Stabilization Fund
  18                                                                                                                                                                                              Dollars    N/A
  19                                                                                                                                                                                              Dollars    N/A
  20                                                                                                                                                                                              Dollars    N/A
  21                                                                                                                                                                                              Dollars    N/A
  22                                                                                                                                                                                              Dollars    N/A



                                                                                                         - 68 ­
                                                                                                                                                                                              11/14/2007 09:00:16

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

    Note: 22              Earmarked Funds                                                                                                Fiscal Year: 2007             Period: SEPTEMBER
   Entity: 2000           Department of the Treasury                                                                                     Agency Notes:    Note 22, Note 15, Note 8

  Status: Complete

 Tab: Other Notes Info.

     Section: B               Section Name: Assets - Prior Year                                                             Rounding Method: Millions                         Decimal: Zero

  23 All other                                    19                        633                        5,131                                                      58                   1,230      Dollars    N/A
     earmarked funds
  24 Total                                   19,314                         633                       20,842                         0                            83                  10,564      Dollars    N/A
Line Line Description              Total assets                                                                                                                                                    Line      NB
 No                                                                                                                                                                                             Attributes
  13 Exchange                               44,365                                                                                                                                               Dollars     N/A
     Stabilization Fund
  18                                                                                                                                                                                              Dollars    N/A
  19                                                                                                                                                                                              Dollars    N/A
  20                                                                                                                                                                                              Dollars    N/A
  21                                                                                                                                                                                              Dollars    N/A
  22                                                                                                                                                                                              Dollars    N/A
  23 All other                               7,071                                                                                                                                                Dollars    N/A
     earmarked funds
  24 Total                                  51,436                                                                                                                                                Dollars    N/A

     Section: C               Section Name: Liabilities and Net Position - Current Year                                     Rounding Method: Millions                         Decimal: Zero

Line Line Description           Benefits due and        Other Federal liabilities Other Fed. liabilities (with     Other non-Federal              Total liabilities    Ending net position C       Line      NB
 No                                  payable C          (with earmarked funds) non-earmarked funds) C                    liabilities C                                                          Attributes
                                                                                C
  13 Exchange                                                                                                                    9,878                        -9,878                              Dollars    N/A
     Stabilization Fund
  18                                                                                                                                                                                              Dollars    N/A
  19                                                                                                                                                                                              Dollars    N/A
  20                                                                                                                                                                                              Dollars    N/A
  21                                                                                                                                                                                              Dollars    N/A
  22                                                                                                                                                                                              Dollars    N/A
  23 All other                                                                 3                         219                     9,827                       -10,049                              Dollars    N/A
     earmarked funds
  24 Total                                                                    -3                        -219                  -19,705                        -19,927                              Dollars    N/A
Line Line Description Total liabilities and net                                                                                                                                                    Line      NB
 No                                  position                                                                                                                                                   Attributes
  13 Exchange                               9,878                                                                                                                                                Dollars     N/A
     Stabilization Fund
  18                                                                                                                                                                                              Dollars    N/A
  19                                                                                                                                                                                              Dollars    N/A
  20                                                                                                                                                                                              Dollars    N/A


                                                                                                          - 69 ­
                                                                                                                                                                                              11/14/2007 09:00:16

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

    Note: 22              Earmarked Funds                                                                                                Fiscal Year: 2007             Period: SEPTEMBER
   Entity: 2000           Department of the Treasury                                                                                     Agency Notes:    Note 22, Note 15, Note 8

  Status: Complete

 Tab: Other Notes Info.

     Section: C               Section Name: Liabilities and Net Position - Current Year                                     Rounding Method: Millions                         Decimal: Zero

 21                                                                                                                                                                                               Dollars    N/A
 22                                                                                                                                                                                               Dollars    N/A
 23 All other                               10,049                                                                                                                                                Dollars    N/A
    earmarked funds
 24 Total                                   19,927                                                                                                                                                Dollars    N/A




     Section: D               Section Name: Liabilities and Net Position - Priort Year                                      Rounding Method: Millions                         Decimal: Zero

Line Line Description           Benefits due and        Other Federal liabilities Other Fed. liabilities (with     Other non-Federal              Total liabilities    Ending net position C       Line      NB
 No                                  payable C          (with earmarked funds) non-earmarked funds) C                    liabilities C                                                          Attributes
                                                                                C
  13 Exchange                                                                                                                    9,480                        -9,480                              Dollars    N/A
     Stabilization Fund
  18                                                                                                                                                                                              Dollars    N/A
  19                                                                                                                                                                                              Dollars    N/A
  20                                                                                                                                                                                              Dollars    N/A
  21                                                                                                                                                                                              Dollars    N/A
  22                                                                                                                                                                                              Dollars    N/A
  23 All other                                                                 3                         326                     9,811                       -10,140                              Dollars    N/A
     earmarked funds
  24 Total                                                                    -3                        -326                  -19,291                        -19,620                              Dollars    N/A
Line Line Description Total liabilities and net                                                                                                                                                    Line      NB
 No                                  position                                                                                                                                                   Attributes
  13 Exchange                               9,480                                                                                                                                                Dollars     N/A
     Stabilization Fund
  18                                                                                                                                                                                              Dollars    N/A
  19                                                                                                                                                                                              Dollars    N/A
  20                                                                                                                                                                                              Dollars    N/A
  21                                                                                                                                                                                              Dollars    N/A
  22                                                                                                                                                                                              Dollars    N/A
  23 All other                             10,140                                                                                                                                                 Dollars    N/A
     earmarked funds
  24 Total                                 19,620                                                                                                                                                 Dollars    N/A



                                                                                                          - 70 ­
                                                                                                                                                                                              11/14/2007 09:00:16

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

    Note: 22              Earmarked Funds                                                                                              Fiscal Year: 2007              Period: SEPTEMBER
   Entity: 2000           Department of the Treasury                                                                                   Agency Notes:    Note 22, Note 15, Note 8

  Status: Complete

 Tab: Other Notes Info.

     Section: E               Section Name: Revenue, Financing, Expenses, and Other - Current                              Rounding Method: Millions                        Decimal: Zero
                                            Year

Line Line Description          Net position,             Investment revenue C      Individual income taxes       Unemployment and        Other taxes and receipts         Intragov. transfers  Line          NB
 No                   beginning of period C                                                              C          excise taxes C                             C    to/from earmarked funds Attributes
                                                                                                                                                                                            C
  13 Exchange                                34,885                      1,706                                                                                                                Dollars        N/A
     Stabilization Fund
  18                                                                                                                                                                                              Dollars    N/A
  19                                                                                                                                                                                              Dollars    N/A
  20                                                                                                                                                                                              Dollars    N/A
  21                                                                                                                                                                                              Dollars    N/A
  22                                                                                                                                                                                              Dollars    N/A
  23 All other                               -3,071                        237                                                                              1,822                        11       Dollars    N/A
     earmarked funds
  24 Total                                  -31,814                     -1,943                                                                             -1,822                       -11       Dollars    N/A
Line Line Description         Intragov. transfers          Program net cost or   Intragov. prog. net cost- Intragov. prog. net cost-    Non-program expenses           Net position, end of        Line      NB
 No                                 to/from non-       benefit payments-public   with earmarked funds D         with non-earmarked                         D                       period       Attributes
                            earmarked funds C                                D                                             funds D
 13 Exchange                                                            -1,455                                                                                                     -38,046        Dollars    N/A
    Stabilization Fund
 18                                                                                                                                                                                               Dollars    N/A
 19                                                                                                                                                                                               Dollars    N/A
 20                                                                                                                                                                                               Dollars    N/A
 21                                                                                                                                                                                               Dollars    N/A
 22                                                                                                                                                                                               Dollars    N/A
 23 All other                                 -867                        235                        118                        240                                                  2,461        Dollars    N/A
    earmarked funds
 24 Total                                      867                     -1,220                        118                        240                                                -35,585        Dollars    N/A




                                                                                                       - 71 ­
                                                                                                                                                                                                11/14/2007 09:00:16

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

    Note: 22              Earmarked Funds                                                                                                Fiscal Year: 2007              Period: SEPTEMBER
   Entity: 2000           Department of the Treasury                                                                                     Agency Notes:    Note 22, Note 15, Note 8

  Status: Complete

 Tab: Other Notes Info.

     Section: F               Section Name: Revenue, Financing, Expenses, and Other - Prior                                 Rounding Method: Millions                         Decimal: Zero
                                            Year

Line Line Description          Net position,             Investment revenue C      Individual income taxes        Unemployment and         Other taxes and receipts         Intragov. transfers  Line          NB
 No                   beginning of period C                                                              C           excise taxes C                              C    to/from earmarked funds Attributes
                                                                                                                                                                                              C
  13 Exchange                                33,552                      1,303                                                                                                                  Dollars        N/A
     Stabilization Fund
  18                                                                                                                                                                                                Dollars    N/A
  19                                                                                                                                                                                                Dollars    N/A
  20                                                                                                                                                                                                Dollars    N/A
  21                                                                                                                                                                                                Dollars    N/A
  22                                                                                                                                                                                                Dollars    N/A
  23 All other                               -2,533                        220                                                                                1,223                                 Dollars    N/A
     earmarked funds
  24 Total                                  -31,019                     -1,523                                                                               -1,223                                 Dollars    N/A
Line Line Description         Intragov. transfers          Program net cost or   Intragov. prog. net cost ­ Intragov. prog. net cost ­    Non-program expenses           Net position, end of        Line      NB
 No                                 to/from non-       benefit payments-public   with earmarked funds D non-earmarked funds D                                D                       period       Attributes
                            earmarked funds C                                D
 13 Exchange                                                              -30                                                                                                        -34,885        Dollars    N/A
    Stabilization Fund
 18                                                                                                                                                                                                 Dollars    N/A
 19                                                                                                                                                                                                 Dollars    N/A
 20                                                                                                                                                                                                 Dollars    N/A
 21                                                                                                                                                                                                 Dollars    N/A
 22                                                                                                                                                                                                 Dollars    N/A
 23 All other                                 -797                        849                         105                         228                                                  3,069        Dollars    N/A
    earmarked funds
 24 Total                                      797                        819                         105                         228                                                -31,816        Dollars    N/A




                                                                                                        - 72 ­
                                                                                                                                        11/14/2007 09:00:16

                                                      U.S. Department of the Treasury
                                                       Financial Management Service
                                                  Governmentwide Financial Report System
                                                          GF006 - FR Notes Report

   Note: 22          Earmarked Funds                                                       Fiscal Year: 2007            Period: SEPTEMBER
  Entity: 2000       Department of the Treasury                                            Agency Notes:   Note 22, Note 15, Note 8

 Status: Complete

Tab: Other Notes Info.
Tab: Text Data

Line No          Question                                                    Answer




                                                                   - 73 ­
                                                                                                                                                                                               11/14/2007 09:00:16

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

    Note: 22          Earmarked Funds                                                                                               Fiscal Year: 2007                  Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                                     Agency Notes:      Note 22, Note 15, Note 8

 Status: Complete

Tab: Other Notes Info.
Tab: Text Data

Line No            Question                                                                                       Answer
1                  Provide a general description of the individual earmarked funds reported in the Other Notes    Earmarked funds are financed by specifically identified revenues, often supplemented
                   Info tab (SFFAS No. 27, par. 33). Also describe how the entity accounts for and reports the    by other financing sources, which remain available over time. These specifically
                   fund (SFFAS No. 27, par. 23.1).                                                                identified revenues and other financing sources are required by statute to be used for
                                                                                                                  designated activities or purposes. SFFAS No. 27 ¿Identifying and Reporting
                                                                                                                  Earmarked Funds¿ issued by the FASAB defines the following three criteria for
                                                                                                                  determining an earmarked fund: 1) A statute committing the Federal Government to use
                                                                                                                  specifically identified revenues and other financing sources only for designated
                                                                                                                  activities, benefits or purposes; 2) Explicit authority for the earmarked fund to retain
                                                                                                                  revenues and other financing sources not used in the current period for future use to
                                                                                                                  finance the designated activities, benefits, or purposes; and 3) A requirement to
                                                                                                                  account for and report on the receipt, use, and retention of the revenues and other
                                                                                                                  financing sources that distinguishes the earmarked fund from the Government¿s
                                                                                                                  general revenues.

                                                                                                                  The majority of Treasury¿s earmarked fund activities are attributed to the ESF and the
                                                                                                                  pension and retirement funds managed by the Office of DCP. In addition, several
                                                                                                                  Treasury bureaus operate with ¿public enterprise revolving funds¿ and receive no
                                                                                                                  appropriations from the Congress. These bureaus are the BEP, the U.S. Mint, the
                                                                                                                  OCC, and the OTS. Other miscellaneous earmarked funds are managed by the BPD,
                                                                                                                  the DO, the FMS/FMD, and the TFF.

                                                                                                                  The following is a list of earmarked funds and a brief description of the purpose,
                                                                                                                  accounting, and uses of these funds.

                                                                                                                  Exchange Stabilization Fund (ESF)
                                                                                                                  ESF 20X4444 Exchange Stabilization Fund

                                                                                                                  D.C. Pensions
                                                                                                                  DCP 201099 Fines, penalties & forfeitures
                                                                                                                  DCP 20X1713 Federal payment ¿ D.C. Judicial Retirement
                                                                                                                  DCP 20X1714 Federal payment ¿ D.C. Federal Pension Fund
                                                                                                                  DCP 20X5511 D.C. Federal Pension Fund
                                                                                                                  DCP 20X8212 D.C. Judicial Retirement and Survivor¿s Annuity Fund

                                                                                                                  Public Enterprise Revolving Fund
                                                                                                                  BEP 20X4502 Bureau of Engraving & Printing Public Enterprise Fund
                                                                                                                  MNT 20X4159 Public Enterprise Revolving Fund
                                                                                                                  OCC 20X8413 Assessment Funds
                                                                                                                  OTS 20X4108 Public Enterprise Revolving Fund

                                                                                                                  Other Earmarked Funds
                                                                                                                  BPD 2061738 Payments to the Terrestrial Wildlife Habitat Restoration
                                                                                                                  BPD 20X5080 Gifts To Reduce Public Debt



                                                                                                         - 74 ­
                                                                                                                                                    11/14/2007 09:00:16

                                                      U.S. Department of the Treasury
                                                       Financial Management Service
                                                  Governmentwide Financial Report System
                                                          GF006 - FR Notes Report

   Note: 22          Earmarked Funds                                                          Fiscal Year: 2007                Period: SEPTEMBER
  Entity: 2000       Department of the Treasury                                               Agency Notes:      Note 22, Note 15, Note 8

 Status: Complete

Tab: Other Notes Info.
Tab: Text Data

Line No          Question                                                    Answer
                                                                             BPD 20X5080.001 Gift To Reduce Public Debt
                                                                             BPD 20X8207 Lower Brule Sioux Tribe Terrestrial Wildlife Habitat Restoration Trust
                                                                             Fund
                                                                             BPD 20X8209 Cheyenne River Sioux Terrestrial Wildlife Habitat Restoration Trust Fund
                                                                             DO 20X5407 Sallie Mae Assessments
                                                                             DO 20X5816 Confiscated and Vested Iraqi Property and Assets
                                                                             DO 20X8790 Gifts and Bequests Trust Fund
                                                                             FMD 205445 Debt Collection
                                                                             FMD 20X5081 Presidential Election Campaign
                                                                             FMD 20X8902 Esther Cattell Schmitt Gift Fund
                                                                             FMS 200/15445 Debt Collection Special Fund
                                                                             FMS 201/25445 Debt Collection Special Fund
                                                                             FMS 202/35445 Debt Collection Special Fund
                                                                             FMS 203/45445 Debt Collection Special Fund
                                                                             FMS 204/55445 Debt Collection Special Fund
                                                                             FMS 205/65445 Debt Collection Special Fund
                                                                             FMS 206/75445 Debt Collection Special Fund
                                                                             FMS 207/85445 Debt Collection Special Fund
                                                                             IRS 20X5510 Private Collection Agent Program
                                                                             TFF 20X5697 Treasury Forfeiture Fund




                                                                   - 75 ­
                                                                                                                                                                                                11/14/2007 09:00:16

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

    Note: 22          Earmarked Funds                                                                                                  Fiscal Year: 2007                 Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                                       Agency Notes:      Note 22, Note 15, Note 8

 Status: Complete

Tab: Other Notes Info.
Tab: Text Data

Line No            Question                                                                                          Answer
2                  State the legal authority for the administrative entity of each fund to use the revenues and      The ESF uses funds to purchase or sell foreign currencies, to hold U.S. foreign
                   other financing sources based on SFFAS No. 27, par. 23.1                                          exchange and SDR assets, and to provide financing to foreign governments. ESF
                                                                                                                     accounts and reports its holdings to FMS on the SF224, ¿Statement of Transactions,¿
                                                                                                                     as well as to the Congress and Treasury¿s policy office. The Gold Reserve Act of
                                                                                                                     1934, Bretton Woods Agreement Act of 1945, P.L. 95-147 and P.L. 94-564 established
                                                                                                                     and authorized the use of the Fund. SDR in the IMF, Investments in U.S. Securities
                                                                                                                     (BPD), and Investments in Foreign Currency Denominated assets are the sources of
                                                                                                                     revenues or other financing sources. ESF¿s earnings and realized gains on foreign
                                                                                                                     currency denominated assets represent inflows of resources to the Government, and
                                                                                                                     the revenues earned are the result of intra-governmental inflows.
                                                                                                                     D.C. Pension Funds provide annuity payments for retired D.C. teachers, police officers,
                                                                                                                     judges, and firefighters. The sources of revenues are through annual appropriations,
                                                                                                                     employees¿ contributions, and interest earnings from investments. All proceeds are
                                                                                                                     earmarked fund. Note 15 provides detailed information on various funds managed by
                                                                                                                     the Office of DCP.

                                                                                                                     These Treasury¿s four non-appropriated bureaus, BEP, Mint, OCC, and OTS, operate
                                                                                                                     ¿public enterprise funds¿ account for the revenue and expenses related to the
                                                                                                                     production and sale of numismatic products and circulating bureaus coinage (Mint), the
                                                                                                                     currency printing activities (BEP), and support of oversight functions of banking (OCC)
                                                                                                                     and thrift operations (OTS). 31 USC 142 established the revolving fund for the BEP to
                                                                                                                     account for revenue and expenses related to the currency printing activities. Public
                                                                                                                     Law 104-52 (31 USC §5136) established the Public Enterprise Fund for the U.S. Mint
                                                                                                                     to account for all revenue and expenses related to the production and sale of
                                                                                                                     numismatic products and circulating coinage. Revenues and other financing sources at
                                                                                                                     the Mint are mainly from the sale of numismatic and bullion coins, and the sale of
                                                                                                                     circulating coins to the Federal Reserve Banks system. 12 USC 481 established the
                                                                                                                     Assessment Funds for the OCC, and 103 Stat. 278 established the Public Enterprise
                                                                                                                     Revolving Fund for the OTS. Revenue and financing sources are from the bank
                                                                                                                     examination and assessments for the oversight of the national banks, savings
                                                                                                                     associations, and savings and loan holding companies. These earmarked funds do not
                                                                                                                     directly contribute to the inflows of resources to the government; however, revenues in
                                                                                                                     excess of costs are returned to the General Fund of the U.S. government. There are
                                                                                                                     minimal transactions with other government agencies.
                                                                                                                     There are other earmarked funds at several Treasury bureaus, such as donations to the
                                                                                                                     Presidential Election Campaign Fund, funds related to the debt collection program, gifts
                                                                                                                     to reduce public debt, and other enforcement related activities. Public laws, statutory
                                                                                                                     laws, U.S. Code, and the Debt Collection Improvement Act, established and authorized
                                                                                                                     the use of these funds. Sources of revenues and other financing sources include
                                                                                                                     contributions, cash and property seized in enforcement activities, public donations, the
                                                                                                                     sale of forfeited properties, and debt collection




                                                                                                            - 76 ­
                                                                                                                                                                                               11/14/2007 09:00:16

                                                                                         U.S. Department of the Treasury
                                                                                          Financial Management Service
                                                                                     Governmentwide Financial Report System
                                                                                             GF006 - FR Notes Report

    Note: 22          Earmarked Funds                                                                                                 Fiscal Year: 2007                 Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                                      Agency Notes:       Note 22, Note 15, Note 8

 Status: Complete

Tab: Other Notes Info.
Tab: Text Data

Line No            Question                                                                                         Answer

3                  Explain any changes in legislation during or subsequent to the reporting period and before       None
                   the issuance of the financial statements that significantly changes the purpose of the fund or
                   that redirects a material portion of the accumulated balance (SFFAS No. 27, par. 23.3).
4                  Provide the sources of revenue and other financing for amounts reported in columns 2             The Federal government does not set aside assets to pay future benefits or other
                   through 5 of Sections E and F in the Other Notes Info tab (SFFAS No. 27, par. 23.2).             expenditures associated with earmarked funds. Treasury bureaus and other Federal
                                                                                                                    agencies invest some of the earmarked funds that they collect from the public. The
                                                                                                                    funds are invested in securities issued by the Treasury Bureau of Public Debt (BPD),
                                                                                                                    which are shown a Treasury¿s balance sheet as ¿Federal Debt and Interest Payable¿
                                                                                                                    (under Intra-Governmental Liabilities). The cash collected by BPD is deposited in the
                                                                                                                    General Fund of the U.S. Government, which uses the cash for general government
                                                                                                                    purposes.

                                                                                                                    The investments provide the Treasury bureaus and other Federal agencies with
                                                                                                                    authority to draw upon the General Fund of the U.S. Government to make future benefit
                                                                                                                    payments or other expenditures. When Treasury bureaus or other Federal agencies
                                                                                                                    require redemption of these securities to make expenditures, the Government finances
                                                                                                                    those expenditures out of accumulated cash balances, by raising taxes or other
                                                                                                                    receipts, by borrowing from the public or repaying less debt, or by curtailing other
                                                                                                                    expenditures. This is the same way that the Government finances all other
                                                                                                                    expenditures.

                                                                                                                    The securities are an asset to the Treasury bureaus and other Federal agencies and a
                                                                                                                    liability of the BPD. The General Fund of the United States Government is liable to
                                                                                                                    BPD. Because Treasury bureaus and other Federal agencies are parts of the U.S.
                                                                                                                    Government, these assets and liabilities offset each other from the standpoint of the
                                                                                                                    Government as a whole. For this reason, they do not represent an asset or a liability in
                                                                                                                    the U.S. government-wide financial statements. In addition, because BPD is a
                                                                                                                    subcomponent of the Treasury Department reporting entity, balances related to the
                                                                                                                    investments made by Treasury bureaus are eliminated from these consolidated
                                                                                                                    financial statements.

                                                                                                                    Also refer to 2 above.
5                  Provide any other relevant information pertaining to this note.                                  We included OPM expenses and liabilities as transactions with other earmarked funds.
                                                                                                                    We cannot determine the extent of transactions with other earmarked funds.




                                                                                                           - 77 ­
                                                                                                                                                                     11/14/2007 09:00:16

                                                                                         U.S. Department of the Treasury
                                                                                          Financial Management Service
                                                                                     Governmentwide Financial Report System
                                                                                             GF006 - FR Notes Report

    Note: 23          Statement of Social Insurance                                                                           Fiscal Year: 2007      Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                              Agency Notes:   None

 Status: Complete

Tab: Other Notes Info.
Tab: Text Data                        No Data Flag: YES

Line No            Question                                                                                     Answer
7                  Provide any other relevant information pertaining to this note.




                                                                                                      - 78 ­
                                                                                                                                  11/14/2007 09:00:16

                                                      U.S. Department of the Treasury
                                                       Financial Management Service
                                                  Governmentwide Financial Report System
                                                          GF006 - FR Notes Report

   Note: 24          Social Insurance                                                      Fiscal Year: 2007      Period: SEPTEMBER
  Entity: 2000       Department of the Treasury                                            Agency Notes:   None

 Status: Complete

Tab: Other Notes Info.




                                                                   - 79 ­
                                                                                                                                                                                     11/14/2007 09:00:16

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 25           Stewardship Land                                                                                                Fiscal Year: 2007        Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                      Agency Notes:   None

  Status: Complete

 Tab: Other Notes Info.

       Section: A           Section Name: Stewardship Land - Physical units of predominate             No Data Flag: YES
                                          use

Line Line Description     CY Beginnng Balance                    CY Acquired                 CY Withdrawn           CY Ending Balance     Py Beginning Balance         PY Acquired        Line      NB
 No                                                                                                                                                                                    Attributes
  7 (I) All other                                                                                                                                                                        Units      N/A
Line Line Description          PY Withdrawn              PY Ending Balance                                                                                                                Line      NB
 No                                                                                                                                                                                    Attributes
  7 (I) All other                                                                                                                                                                        Units      N/A



Tab: Text Data                        No Data Flag: YES

 Line No            Question                                                                                            Answer
 1                  Provide a brief statement explainng how the stewardship land relates to the mission of the
                    agency.
 2                  Provide a brief description of the agency's stewardship policies for stewardsip land.
 3                  Provide any other information relevant information pertaining to this note.




                                                                                                           - 80 ­
                                                                                                                                                                                         11/14/2007 09:00:16

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

       Note: 26            Heritage Assets                                                                                          Fiscal Year: 2007            Period: SEPTEMBER
   Entity: 2000            Department of the Treasury                                                                               Agency Notes:   Note 12 -Disclosure on MT Building

  Status: Complete

 Tab: Other Notes Info.

        Section: A             Section Name: Collection Type Heritage Assets- Physical Units        No Data Flag: YES


Line    Line Description           CY Beginning                    CY Added                  CY Withdrawn               CY Ending             PY Beginning                  PY Added          Line      NB
 No                                                                                                                                                                                        Attributes
  1     (I)                                                                                                                                                                                  Units      N/A
  2     (I)                                                                                                                                                                                  Units      N/A
  3     (I)                                                                                                                                                                                  Units      N/A
  4     (I)                                                                                                                                                                                  Units      N/A
  5     (I)                                                                                                                                                                                  Units      N/A
Line   Line Description           PY Withdrawn                    PY Ending                                                                                                                   Line      NB
 No                                                                                                                                                                                        Attributes
  1    (I)                                                                                                                                                                                   Units      N/A
  2    (I)                                                                                                                                                                                   Units      N/A
  3    (I)                                                                                                                                                                                   Units      N/A
  4    (I)                                                                                                                                                                                   Units      N/A
  5    (I)                                                                                                                                                                                   Units      N/A

        Section: B             Section Name: Non-Collection Type Heritage Assets (Physical          No Data Flag: YES
                                             Units)

Line    Line Description        CY Beg. Balance                    CY Added                  CY Withdrawn       CY Ending Balance     PY Beginning Balance                  PY Added          Line      NB
 No                                                                                                                                                                                        Attributes
  1     (I)                                                                                                                                                                                  Units      N/A
  2     (I)                                                                                                                                                                                  Units      N/A
  3     (I)                                                                                                                                                                                  Units      N/A
  4     (I)                                                                                                                                                                                  Units      N/A
  5     (I)                                                                                                                                                                                  Units      N/A
Line   Line Description           PY Withdrawn           PY Ending Balance                                                                                                                    Line      NB
 No                                                                                                                                                                                        Attributes
  1    (I)                                                                                                                                                                                   Units      N/A
  2    (I)                                                                                                                                                                                   Units      N/A
  3    (I)                                                                                                                                                                                   Units      N/A
  4    (I)                                                                                                                                                                                   Units      N/A
  5    (I)                                                                                                                                                                                   Units      N/A




                                                                                                       - 81 ­
                                                                                                                                                                                 11/14/2007 09:00:16

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

    Note: 26          Heritage Assets                                                                                       Fiscal Year: 2007            Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                            Agency Notes:   Note 12 -Disclosure on MT Building

 Status: Complete

Tab: Other Notes Info.
Tab: Text Data                       No Data Flag: YES

Line No            Question                                                                                        Answer
1                  Provide a brief statement explaining how heritage assets relate to the mission of the agency.
2                  Provide a brief description of the agency's stewardship policies for each major category of
                   the heritage assets.
3                  Provide any other relevant information pertaining to this note.




                                                                                                          - 82 ­
                         U.S. Department of the Treasury
                   Government-wide Financial Reporting System
            Additional Note to the Special-Purpose Financial Statements
                    Entity – 2000 Department of the Treasury


Additional Note 27 – Summary of Significant Accounting Policies

A. Basis of Presentation

The Budget and Accounting Procedures Act of 1950 allows the Secretary of the Treasury
to stipulate the format and requirements of executive agencies to furnish financial and
operational information to the President and Congress to comply with Government
Management Reform Act of 1994 (GMRA) (Pub. L. No. 103-356), which requires the
Secretary of the Treasury to prepare and submit annual audited financial statements of the
executive branch. The Secretary of the Treasury developed guidance in the U.S
Department of the Treasury’s Financial Manual (TFM) Volume 1, Part 2, Chapter 4700
to provide agencies with instructions to meet the requirements of GMRA. The TFM
Chapter 4700 requires agencies to:

   1. Reclassify all line items and amounts on their comparative, audited consolidated,
      department level Balance Sheet, Statement of Net Cost, Statement of Changes in
      Net Position/Income Statement, and Statement or Note on Custodial Activity (if
      applicable) to the Closing Package reclassified financial statement formats.
      Statement of Social Insurance information will be reported in GFRS Module
      GF006, FR Notes.

   2. List Closing Package line item amounts identified as Federal (items to be
      eliminated in the Government-wide consolidation) by trading partner and amount.

   3. Report notes dependent upon the Reclassified Balance Sheet line items and other
      notes required in the FR.

   4. Disclose other information not contained in the primary FR financial statements
      and notes required to meet the standards promulgated by FASAB.

   5. Provide explanations for any data that has changed by the established threshold or
      more between fiscal 2006 and fiscal 2007 and also between fiscal 2006 as
      reported in fiscal 2007 and fiscal 2006 reported last year, as required by GFRS.

The TFM Chapter 4700 requires agencies to use the Government-wide Financial Report
System to input the above information. For purposes of the Special-purpose financial
statements, Closing Package is comprised of the following GFRS Modules:
   1. Closing Package Financial Statement Report (GF003F)
   2. Trading Partner Summary Note Report (GF004F)
   3. Closing Package Line Reclassification Summary Report (GF003G)
   4. FR Notes Report (GF006)
   5. Other Data Report (GF007)

The generic format for the special-purpose financial statements is based on the U.S.
Standard General Ledger (USSGL) crosswalk to the FR financial statements and notes. In
May 2007, Treasury issued TFM Transmittal Letter No. 637 effective for fiscal year 2007
that revised the mapping of certain USSGL accounts to the special-purpose financial
statements and resulted in agencies reclassifying the accompanying fiscal year 2006
special-purpose financial statements to conform with the fiscal year 2007 presentation.
Therefore, certain amounts in the fiscal year 2006 columns on the accompanying special-
purpose financial statements differ from the amounts in the columns labeled “previously
reported.”

B. Reporting Entity

The accompanying financial statements include the operations of the U.S. Department of
the Treasury (Treasury Department), one of 25 Cabinet level agencies of the Executive
Branch of the United States Government, and certain custodial activities managed on
behalf of the entire U.S. government. The following paragraphs describe the activities of
the reporting entity.

The Treasury Department was created by Act (1 Stat.65) on September 2, 1789. Many
subsequent acts have affected the development of Treasury, delegating new duties to its
charge and establishing the numerous bureaus and divisions that now comprise the
Treasury Department. As a major policy advisor to the President, the Secretary has
primary responsibility for formulating and managing the domestic and international tax
and financial policies of the U.S. Government.

Further, the Secretary is responsible for recommending and implementing United States
domestic and international economic and fiscal policy; governing the fiscal operations of
the government; maintaining foreign assets control; managing the federal debt; collection
of income and excise taxes; representing the United States on international monetary,
trade and investment issues; overseeing Departmental overseas operations; and directing
the activities of the Treasury Department in manufacturing coins, currency, and other
products for customer agencies and the public.

The Treasury Department includes Departmental Offices (DO) and nine operating
bureaus. For financial reporting purposes, DO is comprised of: International Assistance
Programs (IAP), Office of Inspector General (OIG), Treasury Forfeiture Fund, Treasury
Franchise Fund, Exchange Stabilization Fund (ESF), Community Development Financial
Institutions Fund (CDFI), Office of D.C. Pensions (DCP), Treasury Inspector General for
Tax Administration (TIGTA), the Federal Financing Bank (FFB) and the Air
Transportation Stabilization Board (ATSB).




                                           2
The Treasury Department’s nine operating bureaus are: Office of the Comptroller of the
Currency (OCC); Bureau of Engraving and Printing (BEP); Financial Crimes
Enforcement Network (FinCEN); Financial Management Service (FMS); Internal
Revenue Service (IRS); U.S. Mint (Mint); Bureau of the Public Debt (BPD); Office of
Thrift Supervision (OTS), and the Alcohol and Tobacco Tax & Trade Bureau (TTB).

The Treasury Department’s financial statements reflect the reporting of its own entity
activities, which include appropriations it receives to conduct its operations and revenue
generated from those operations. They also reflect the reporting of certain non-entity
(custodial) functions it performs on behalf of the U.S. government and others. Non-entity
activities include the collection of federal revenue, servicing the federal debt, disbursing
certain federal funds, and maintaining certain assets and liabilities for the U.S.
government as well as for others. The Treasury Department’s reporting entity does not
include the “General Fund” of the U.S. government, which maintains receipt,
disbursement and appropriation accounts for all federal agencies.

Transactions and balances among the Treasury Department’s entities have been
eliminated from the Consolidated Balance Sheets, the Consolidated Statements of Net
Cost, and the Consolidated Statements of Changes in Net Position.

C. Basis of Accounting & Presentation

The financial statements have been prepared from the accounting records of the Treasury
Department in conformity with accounting principles generally accepted in the United
States, and the Office of Management and Budget (OMB) Circular A-136, “Financial
Reporting Requirements,” as amended. Accounting principles generally accepted for
federal entities are the standards prescribed by the Federal Accounting Standards
Advisory Board (FASAB). FASAB is recognized by the American Institute of Certified
Public Accountants as the official accounting standards-setting body of the U.S.
government.

These financial statements are provided to meet the requirements of the Government
Management Reform Act of 1994. They consist of the Consolidated Balance Sheets, the
Consolidated Statements of Net Cost, the Consolidated Statements of Changes in Net
Position, the Combined Statements of Budgetary Resources, and the Statements of
Custodial Activity. The statements and the related notes are prepared in a comparative
form to present both FY 2007 and FY 2006 information.

While these financial statements have been prepared from the books and records of the
Treasury Department in accordance with the formats prescribed by OMB, these financial
statements are in addition to the financial reports used to monitor and control budgetary
resources which are prepared from the same books and records.

Throughout these financial statements, intra-governmental assets, liabilities, earned
revenues, and costs have been classified according to the entity for these transactions.
Intra-governmental assets and liabilities are those from or to other federal entities.



                                             3
Intra-governmental earned revenues are collections or accruals of revenue from other
federal entities, and intra-governmental costs are payments or accruals of expenditure to
other federal entities.

The financial statements should be read with the realization that they are for a component of
a sovereign entity, that liabilities not covered by budgetary resources cannot be liquidated
without the enactment of an appropriation, and that the payment of all liabilities other than
for contracts can be abrogated by the sovereign entity.

D. Tax and Other Non-Entity Receivables

Tax receivables are not accrued until related tax returns are filed or assessments are
made. Prepayments of taxes are netted against liabilities. Accruals are made to reflect
penalties and interest on tax receivables through the balance sheet date. Tax receivables
consist of unpaid assessments (taxes and associated penalties and interest) due from
taxpayers for which the Treasury Department can support the existence of a receivable
through taxpayer agreement, such as filing a tax return without sufficient payment, or a
court ruling in favor of Treasury. Tax receivables are shown on the balance sheet net of
an allowance for doubtful accounts and abatements. The allowance for doubtful accounts
reflects an estimate of the portion deemed to be uncollectible based on historical
experience of similar taxes receivable.

E. Inventory and Related Property

Inventories and related property include inventory, operating materials and supplies, and
forfeited property. The Treasury Department values inventories at either standard cost or
lower of cost or market, except for finished goods inventories, which are valued at
weighted average unit cost. All operating materials and supplies are recorded as an
expense when consumed in operations.

Forfeited property is recorded at estimated fair market value at the time of seizure as
deferred revenue, and may be adjusted to reflect the current fair market value at the end
of the fiscal year. Property forfeited in satisfaction of a taxpayers liability is recorded
when title to the property passes to the U.S. government and a corresponding credit is
made to the related taxes receivable. Direct and indirect holding costs are not capitalized
for individual forfeited assets.

Mortgages and claims on forfeited assets are recognized as a valuation allowance and a
reduction of deferred revenue from forfeited assets when the asset is forfeited. The
allowance includes mortgages and claims on forfeited property held for sale and a
minimal amount of claims on forfeited property previously sold.

Revenue from the forfeiture of property is deferred until the property is sold or
transferred to a state, local or federal agency. Revenue is not recorded if the forfeited
property is ultimately destroyed or cannot be legally sold.




                                             4
F. Loans and Interest Receivable - from Other Federal Agencies

Intra-governmental entity Loans and Interest Receivable from other federal agencies
represent loans and interest receivable held by the Treasury Department. No subsidy
costs were recorded for loans purchased from federal agencies or for guaranteed loans
made to non-federal borrowers, because these are guaranteed (interest and principal) by
those agencies.

Intra-governmental non-entity Loans and Interest Receivable from other federal agencies
represent loans issued by Treasury to federal agencies on behalf of the U.S. government.
The Treasury Department acts as an intermediary issuing these loans, because the
agencies receiving these loans will lend these funds to others to carry out various
programs of the Federal Government.           Because of the Treasury Department’s
intermediary role in issuing these loans, the Treasury Department does not record an
allowance or subsidy costs related to these loans. Instead, loan loss allowances and
subsidy costs are recognized by the ultimate lender, the federal agency that issued the
loans.

G. Advances to the Black Lung Trust Fund

Advances have been provided to the Department of Labor’s Black Lung Trust Fund from
the General Fund of the U.S. government. The Bureau of Public Debt accounts for the
advances on behalf of the General Fund of the U.S. government. Advances to the Black
Lung Trust Fund are being accounted for pursuant to the Benefits Revenue Act which
states: “In the event that fund resources are not adequate to meet fund obligations, then,
Advances interest and principal are paid to the General Fund of the U.S. government
when the Secretary of the Treasury determines that funds are available in the trust fund
for such purposes.” The Black Lung Trust Funds are repayable with interest at a rate
determined by the Secretary of the Treasury to be equal to the current average market
yield on outstanding marketable obligations of the United States with remaining periods
to maturity comparable to the anticipated period during which the advance will be
outstanding. Advances made prior to 1982 carried rates of interest equal to the average
rate borne by all marketable interest-bearing obligations of the United States then
forming a part of the public debt.

H. Property, Plant, and Equipment

The Treasury’s Department’s property, plant, and equipment (PP&E) is recorded at cost
and depreciated using the straight line method over the estimated useful lives of the
assets. Major alterations and renovations are capitalized, while maintenance and repair
costs are charged to expense as incurred. The Treasury Department owns the Treasury
building - a multi-use heritage asset. Multi-use heritage assets are assets of historical
significance for which the predominant use is general government operations. All
acquisition, reconstruction, and betterment costs for the Treasury Department building
are capitalized as general PP&E and depreciated over their service life.




                                            5
The Treasury Department’s bureaus are diverse both in size and in operating
environment. Accordingly, Treasury’s internal use software capitalization policy
thresholds range from $25,000 to $50,000. For internally developed software, capitalized
costs will include the full cost (direct and indirect cost) incurred during the software
development stage. Treasury also uses a capitalization threshold range for bulk
purchases: $250,000 to $500,000 for non-manufacturing bureaus and $25,000 to $50,000
for manufacturing bureaus. Bureaus determine the individual items that comprised bulk
purchases. In addition, the Treasury Department’s bureaus may expense bulk purchases
if they conclude that total period costs would not be materially distorted and the cost of
capitalization is not economically feasible.

I. Federal Debt

Debt and associated interest are reported on the accrual basis of accounting. Certain debt
securities are issued at a discount or premium. Discounts and premiums are amortized
over the term of the security using the effective interest rate method.

J. Pension Costs, Other Retirement Benefits, and Other Post Employment Benefits

The Treasury Department recognizes the full costs of its employees’ pension benefits.
However, the liabilities associated with these costs are recognized by the Office of
Personnel Management (OPM) rather than Treasury.

Most employees of the Treasury Department hired prior to January 1, 1984, participate in
the Civil Service Retirement System (CSRS), to which the Treasury Department
contributes 8.51% of salaries for regular CSRS employees.

On January 1, 1987, the Federal Employees’ Retirement System (FERS) went into effect
pursuant to Public Law 99-335. Employees hired after December 31, 1983, are
automatically covered by FERS and Social Security. A primary feature of FERS is that it
offers a savings plan to which the Treasury Department automatically contributes 1% of
base pay and matches any employee contributions up to an additional 4% of base pay.
For most employees hired after December 31, 1983, the Treasury Department also
contributes the employer’s matching share for Social Security. For the FERS basic
benefit the Treasury Department contributes 10.7% for regular FERS employees.

Similar to federal retirement plans, OPM, rather than the Treasury Department, reports
the liability for future payments to retired employees who participate in the Federal
Employees Health Benefits Program (FEHBP) and Federal Employees Group Life
Insurance (FEGLI) Program. The Treasury Department reports the full cost of providing
other retirement benefits (ORB). The Treasury Department also recognizes an expense
and liability for other post employment benefits (OPEB), which includes all types of
benefits provided to former or inactive (but not retired) employees, their beneficiaries,
and covered dependents. Additionally, the Treasury Department’s OCC and OTS
separately sponsor certain benefit plans for their employees. OCC sponsors a defined life




                                            6
insurance benefit plan for current and retired employees. Additionally, OTS provides
certain health and life benefits for all retired employees that meet eligibility requirements.

K. Special Drawing Rights (SDRs) Certificates Issued to Federal Reserve Banks

The Special Drawing Rights Act of 1968 authorized the Secretary of the Treasury to issue
certificates, not to exceed the value of SDRs holdings, to the Federal Reserve Banks in
return for interest free dollar amounts equal to the face value of certificates issued. The
certificates may be issued to finance the acquisition of SDRs from other countries or to
provide resources for financing other ESF operations. Certificates issued are to be
redeemed by the Treasury Department at such times and in such amounts as the Secretary
of the Treasury may determine. Certificates issued to Federal Reserve Banks are stated at
their face value. It is not practical to estimate the fair value of Certificates Issued to
Federal Reserve Banks since these certificates contain no specific terms of repayment.

L. Federal Employee Benefits Payable - FECA Actuarial Liability

The Federal Employees’ Compensation Act (FECA) provides income and medical cost
protection to covered Federal civilian employees injured on the job, and employees who
have incurred a work-related injury or occupational disease. These future workers’
compensation estimates were generated from an application of actuarial procedures
developed to estimate the liability for FECA benefits. The actuarial liability estimates for
FECA benefits include the expected liability for death, disability, medical, and
miscellaneous costs for approved compensation cases.

M. Revenue and Financing Sources

The Treasury Department activities are financed either through exchange revenue it
receives from others or through non-exchange revenue and financing sources (such as
appropriations provided by the Congress and penalties, fines, and certain user fees
collected). User fees primarily include Internal Revenue Service reimbursable costs to
process installment agreements and accompanying photocopy and reproduction charges.
Exchange revenues are recognized when earned; i.e. goods have been delivered or
services have been rendered. Non-exchange revenues are recognized when received by
the respective Treasury Department collecting bureau. Appropriations used are
recognized as financing sources when related expenses are incurred or assets are
purchased. Revenue from reimbursable agreements is recognized when the services are
provided. The Treasury Department also incurs certain costs that are paid in total or in
part by other federal entities, such as pension costs. These subsidized costs are
recognized on the Consolidated Statement of Net Cost, and the imputed financing for
these costs is recognized on the Consolidated Statement of Changes in Net Position. As a
result, there is no effect on net position. Other non-exchange financing sources such as
donations and transfers of assets without reimbursements also are recognized for the
period in which they occurred on the Consolidated Statement of Changes in Net Position.




                                              7
The Treasury Department recognizes revenue it receives from disposition of forfeited
property as non-exchange revenue on the Consolidated Statement of Changes in Net
Position. The costs related to the forfeiture fund program are reported on the
Consolidated Statement of Net Cost.

N. Custodial Revenues and Collections

Non-entity revenue reported on the Treasury Department’s Statement of Custodial
Activity includes cash collected and received by the Treasury Department, primarily
taxes. It does not include revenue collected by other Federal agencies, such as user fees
and other receipts, which are remitted for general operating purposes of the U.S.
government or are earmarked for certain trust funds. The Statement of Custodial Activity
is presented on the “modified accrual basis.” Revenues are recognized as cash is
collected. The Balance Sheets include an estimated amount for taxes receivable and
payable to the General Fund of the U.S. government at September 30, 2007 and 2006.

O. Tax Assessments and Abatements

Under Internal Revenue Code Section 6201, the Treasury Department is authorized and
required to make inquiries, determinations, and assessments of all taxes which have not
been duly paid (including interest, additions to the tax, and assessable penalties) under
the law. Unpaid assessments result from taxpayers filing returns without sufficient
payment, as well as from tax compliance programs, such as examination, under-reporter,
substitute for return, and combined annual wage reporting. The Treasury Department
also has authority to abate the paid or unpaid portion of an assessed tax, interest, and
penalty. Abatements occur for a number of reasons and are a normal part of the tax
administration process. Abatements may result in claims for refunds or a reduction of the
unpaid assessed amount.

P. Permanent and Indefinite Appropriations

Permanent and indefinite appropriations are used to disburse tax refunds, income tax
credits, and child tax credits. These appropriations are not subject to budgetary ceilings
established by Congress. Therefore, refunds payable at year end are not subject to
funding restrictions. Refund payment funding is recognized as appropriations are used.
Permanent indefinite authority for refund activity is not stated as a specific amount and is
available for an indefinite period of time. Although funded through appropriations,
refund activity, in most instances, is reported as a custodial activity of the Treasury
Department, since refunds are, in substance, a custodial revenue-related activity resulting
from taxpayer overpayments of their tax liabilities.

The Treasury Department also receives two permanent and indefinite appropriations
related to debt activity. One is used to pay interest on the public debt securities; the other
is used to redeem securities that have matured, been called, or are eligible for early
redemption. These accounts are not annual appropriations; and do not have refunds.
Debt activity appropriations are related to the Treasury Department’s liability and would



                                              8
be reported on the Treasury Department’s Balance Sheet. Permanent indefinite authority
for debt activity is available for an indefinite period of time.

Additionally, the Treasury Department receives other permanent and indefinite
appropriations to make certain payments on behalf of the U.S. government. These
appropriations are provided to make payments to the Federal Reserve for services
provided. They also include appropriations provided to make other disbursements on
behalf of the U.S. government, including payments made to various individuals as the
result of certain claims and judgments rendered against the United States.

Q. Imputed Costs/Financing Sources

U.S. government entities often receive goods and services from other U.S. government
entities without reimbursing the providing entity for all the related costs. These
constitute subsidized costs which are recognized by the receiving entity. An offsetting
imputed financing source is also recognized by the receiving entity. The Treasury
Department recognized imputed costs and financing sources in fiscal years 2007 and
2006 to the extent directed by the OMB, such as: employees’ pension, post-retirement
health and life insurance benefits; other post-employment benefits for retired, terminated,
and inactive employees, which includes unemployment and workers compensation under
the FECA; and losses in litigation proceedings.

R. Income Taxes

As an agency of the Federal government, the Treasury Department is exempt from all
income taxes imposed by any governing body, whether it is a federal, state,
commonwealth, local, or foreign government.

S. Use of Estimates

The Treasury Department has made certain estimates and assumptions relating to the
reporting of assets, liabilities, revenues, expenses, and the disclosure of contingent
liabilities to prepare these financial statements. Actual results could differ from these
estimates. Financial statement line items subject to estimates include tax receivables;
depreciation; imputed costs; cost and earned revenue allocations; and, credit reform
subsidy costs.

T. Credit Risk

Credit risk is the potential, no matter how remote, for financial loss from a failure of a
borrower or a counter party to perform in accordance with underlying contractual
obligations. The Treasury Department takes on possible credit risk when it makes direct
loans or credits to foreign entities or becomes exposed to institutions which engage in
financial transactions with foreign countries. Given the history of the Treasury
Department with respect to such exposure and the financial policies in place in the U. S.
government and other institutions in which the United States participates, the Treasury



                                            9
Department has no expectation that credit losses will be incurred in the foreseeable
future. The Treasury Department also takes on credit risk related to loan guarantees,
committed but undisbursed direct loans and its Terrorism Risk Insurance Program. The
extent of the risk assumed by the Treasury Department is described in more detail in the
notes to the financial statements.

U. Earmarked Funds

Treasury has accounted for revenues and other financing sources for earmarked funds
separately from other funds. This method was adopted in accordance with the provisions
of the Federal Accounting Standards Advisory Board’s Statement of Federal Financial
Accounting Standards (SFFAS) No. 27, Identifying and Reporting Earmarked Funds,
which became effective October 1, 2006. This standard amended SFFAS No. 7, Revenue
and Other Financing Sources, by:

   •   elaborating the special accountability needs associated with dedicated collections;
   •   separating dedicated collections into two categories – earmarked funds and
       fiduciary activity; and
   •   defining, and providing accounting and reporting guidance for earmarked funds.

V. Allocation Transfers

The Treasury Department adopted the allocation transfer provisions of OMB Circular No.
A-136 Revised, Financial Reporting Requirements, effective October 1, 2006. The
Treasury Department is a party to allocation transfers with other federal agencies as both
a transferring (parent) entity and/or a receiving (child) entity. Allocation transfers are
legal delegations by one department of its authority to obligate budget authority and
outlay funds to another department. A separate fund account (allocation account) is
created in the U.S. Treasury as a subset of the parent fund account for tracking and
reporting purposes. All allocation transfers of balances are credited to this account, and
subsequent obligations and outlays incurred by the child entity are charged to this
allocation account as they execute the delegated activity on behalf of the parent.
Beginning in fiscal year 2007, parent federal agencies report both the proprietary and
budgetary activity and the child agency does not report any financial activity related to
budget authority allocated from the parent federal agency to the child federal agency. The
Treasury Department had no significant allocation transfers to report in fiscal year 2007.

The Treasury Department allocates funds, as the parent, to the Department of Energy.
OMB allows certain exceptions to allocation reporting for certain funds. Accordingly, the
Treasury Department has reported certain funds for which the Treasury Department is the
child in the allocation transfer, but per OMB guidance, will report all activities relative to
these allocation transfers in the Treasury Department’s financial statements. The
Treasury Department receives allocation transfers, as the child, from the Agency for
International Development.




                                             10
                                                                                                                                                                                          11/15/2007 10:32:15

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                           GF007 - Other Data Report


 Other Data: 01                Statement of Operations and Changes in Net Position                                                      Fiscal Year: 2007                   Period: SEPTEMBER
          Entity: 2000         Department of the Treasury                                                                                   Agency Notes:        Treasury
         Status: Complete


    Tab: Other Data Info.

        Section: A               Section Name: Nonexchange Revenue: Specific potential accruals not           No Data: YES      Rounding Method: Millions                         Decimal: Zero
                                               made as a result of using the modified cash basis of
                                               accounting.

Line Line Description               CY - Low Range               CY - High Range               PY - Low Range           PY - High Range                                                                     Line        NB
 No                                                                                                                                                                                                      Attributes
    1                                                                                                                                                                                                     Dollars       Debit
    2                                                                                                                                                                                                     Dollars       Debit
    3                                                                                                                                                                                                     Dollars       Debit
    4                                                                                                                                                                                                     Dollars       Debit
    5                                                                                                                                                                                                     Dollars       Debit


    Tab: Other Text Data

         Section: A                Section Name: Nonexchange Revenue: Specific potential accruals not
                                                 made as a result of using the modified cash basis of
                                                 accounting.

Line No        Question                                                                                                  Answer
1              Provide the practical and inherent limitations affecting the accrual of taxes and duties. (SFFAS         For IRS, this is referring to the difference between cash and accrual accounting. We use a
               No. 7, par.64)                                                                                           modified cash basis for the Custodial Financial Statements, because of the limitations in the
                                                                                                                        assessment process regarding the delay in the time when there is a legally enforceable
                                                                                                                        claim. Accrual accounting provides more accurate and complete information about
                                                                                                                        receivables and refund legally receivable and collectible concerning the components of the
                                                                                                                        Government's revenue stream, and is the reason we compute the allowance for doubtful
                                                                                                                        accounts (ADA). Since cash basis tax revenue still needs to be accounted for in conjunction
                                                                                                                        with ADA, forming the basis of our accounting methodology.

                                                                                                                        TTB records a year-end accrual for the known amount of tax revenue to be collected. This
                                                                                                                        information is obtained from tax forms that are submitted to the National Revenue Center,
                                                                                                                        but have not been individually processed and recorded in the accounting system. TTB is not
                                                                                                                        able to obtain the information necessary to record the majority of the earned custodial
                                                                                                                        revenue due to the fact that this amount is unknown until the taxpayer files a return.




                                                                                                             - 1 ­

                                                                                                                                                              11/15/2007 10:32:15

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                   GF007 - Other Data Report


 Other Data: 02             Taxes                                                                                      Fiscal Year: 2007           Period: SEPTEMBER
      Entity: 2000          Department of the Treasury                                                                         Agency Notes:   F
     Status: Complete


  Tab: Other Data Info.

    Section: A                Section Name: Taxes (SSFAS No.7, par. 67-69)                                      Rounding Method: Billions               Decimal: Zero

Line Line Description       2007 - SEPTEMBER             2006 - SEPTEMBER          Previously Rptd     Line Item Changes                                                      Line      NB
 No                                                                                                                                                                        Attributes
  1 Estimated realized                          65                          57                   57                        0                                                Dollars     Debit
    value of compliance
    assessments as of
    the end of the period
  2 Estimated realizable                                                                                                                                                    Dollars     Debit
    value of pre-
    assessment work-
    in-progress
  3 Changes in 1 and 2                          65                          57                   57                        0                                                Dollars     Debit
    above
  4 Other claims for                            21                          18                   18                        0                                                Dollars     Debit
    refunds not yet
    accrued but likely to
    be paid when
    administrative
    actions are
    completed
  5 Management's best                                                                                                                                                       Dollars     Debit
    estimate of
    unasserted claims for
    refunds
  6 Changes in 4 and 5                          21                          18                   18                        0                                                Dollars     Debit
    above
  7 Amount of                                  100                          97                   97                        0                                                Dollars     Debit
    assessments written
    off that continue to
    be statutorily
    collectible




                                                                                              - 2 ­

                                                                                                                                                                                       11/15/2007 10:32:15

                                                                                         U.S. Department of the Treasury
                                                                                          Financial Management Service
                                                                                     Governmentwide Financial Report System
                                                                                            GF007 - Other Data Report


 Other Data: 02                Taxes                                                                                                Fiscal Year: 2007                  Period: SEPTEMBER
        Entity: 2000           Department of the Treasury                                                                                Agency Notes:       F
       Status: Complete


    Tab: Other Data Info.

      Section: B                 Section Name: Provide the following amount if a range is estimable       No Data: YES      Rounding Method: Millions                          Decimal: Zero
                                               and not included in Sec. A (SFFAS No. 7 par 67)

Line Line Description                        CY Low                       CY High                     PY Low                PY High                                                                      Line          NB
 No                                                                                                                                                                                                   Attributes
    1 Realizable value of                                                                                                                                                                               Dollars    Debit
      pre-assessment
      work-in-progress
    2 Changes in line 1                                                                                                                                                                                 Dollars    Debit
      above
    3 Management's best                                                                                                                                                                                 Dollars    Debit
      estimate of
      unasserted claims for
      refunds
    4 Changes in line 3                                                                                                                                                                                 Dollars    Debit
      above
    Tab: Other Text Data

       Section: A                  Section Name: Taxes (SSFAS No.7, par. 67-69)

Line No       Question                                                                                               Answer
1             Provide the explicit definitions of estimated amounts of the size of the tax gap.                     The tax gap is the difference between the amount of tax imposed by law and what taxpayers
                                                                                                                    actually pay on time. The tax gap arises from the three types of noncompliance: not filing
                                                                                                                    required tax returns on time or at all (the nonfiling gap), underreporting the correct amount of
                                                                                                                    tax on timely filed returns (the underreporting gap), and not paying on time the full amount
                                                                                                                    reported on timely filed returns (the underpayment gap). Of these three components, only
                                                                                                                    the underpayment gap is observed; the nonfiling gap and the underreporting gap must be
                                                                                                                    estimated. The tax gap, estimated to be about $345 billion for Tax Year 2001, represents the
                                                                                                                    amount of noncompliance with the tax laws. Underreporting of tax liability accounts for 82
                                                                                                                    percent of the gap, with the remainder almost evenly divided between nonfiling (eight
                                                                                                                    percent) and underpaying (ten percent). Part of the estimate is based on data from a study
                                                                                                                    of individual returns filed for tax year 2001. It does not include any taxes that should have
                                                                                                                    been paid on income from illegal activities. Each instance of noncompliance by a taxpayer
                                                                                                                    contributes to the tax gap, whether or not the IRS detects it, and whether or not the IRS
                                                                                                                    detects it, and whether or not the taxpayer is even aware of the noncompliance.
                                                                                                                    Some of the tax gap arises from intentional (willful) noncompliance, and some of it arises
                                                                                                                    from unintentional mistakes.

                                                                                                                    The collection gap is the cumulative amount of tax, penalties, and interest that has been
                                                                                                                    assessed over many years, but has not been paid by a certain point in time, and which the
                                                                                                                    IRS expects to remain uncollectible. In essence, it represents the difference between the
                                                                                                                    total balance of unpaid assessments and the net taxes receivable reported on IRS's balance



                                                                                                         - 3 ­

                                                                                                                                                              11/15/2007 10:32:15

                                                                               U.S. Department of the Treasury
                                                                                Financial Management Service
                                                                           Governmentwide Financial Report System
                                                                                  GF007 - Other Data Report


 Other Data: 03           Annual Revenues and Expenditures                                                         Fiscal Year: 2007               Period: SEPTEMBER
       Entity: 2000       Department of the Treasury                                                                  Agency Notes:     Treasury
      Status: Complete


  Tab: Other Data Info.

    Section: A              Section Name: Revenues from the Public                           No Data: YES

Line Line Description                       HI                       SMI                  OASDI                                                                               Line      NB
 No                                                                                                                                                                        Attributes




    Section: B              Section Name: Revenue from Other Government Accounts (to be      No Data: YES   Rounding Method: Millions                   Decimal: Zero
                                          completed by Department of Treasury only)

Line Line Description       Other Government                                                                                                                                  Line      NB
 No                                                                                                                                                                        Attributes
  1 Transfers                                                                                                                                                               Dollars     Debit
  2 Interest credits                                                                                                                                                        Dollars     Debit
  3 Total                                                                                                                                                                   Dollars     N/A




                                                                                            - 4 ­

                                                                                                                                                                  11/15/2007 10:32:15

                                                                              U.S. Department of the Treasury
                                                                               Financial Management Service
                                                                          Governmentwide Financial Report System
                                                                                 GF007 - Other Data Report


 Other Data: 09           Stewardship Investments                                                                    Fiscal Year: 2007                 Period: SEPTEMBER
        Entity: 2000      Department of the Treasury                                                                    Agency Notes:       Treasury
       Status: Complete


  Tab: Other Data Info.

      Section: A            Section Name: Investment in Non-Federal physical property (SFFAS   No Data: YES   Rounding Method: Millions                     Decimal: Zero
                                          No. 8, par 87)

Line Line Description                 FY 2007                   FY 2006                   FY 2005             FY 2004                     FY 2003                                 Line      NB
 No                                                                                                                                                                            Attributes
  1                                                                                                                                                                             Dollars     Debit
  2                                                                                                                                                                             Dollars     Debit
  3                                                                                                                                                                             Dollars     Debit
  4                                                                                                                                                                             Dollars     Debit
  5                                                                                                                                                                             Dollars     Debit
  6 Other non-Federal                                                                                                                                                           Dollars     Debit
    physical property

      Section: B            Section Name: Research and Development: Investment in              No Data: YES   Rounding Method: Millions                     Decimal: Zero
                                          Development (SFFAS No. 8, par. 100)

Line Line Description                 FY 2007                   FY 2006                   FY 2005             FY 2004                     FY 2003                                 Line      NB
 No                                                                                                                                                                            Attributes
  1                                                                                                                                                                             Dollars     Debit
  2                                                                                                                                                                             Dollars     Debit
  3                                                                                                                                                                             Dollars     Debit
  4                                                                                                                                                                             Dollars     Debit
  5                                                                                                                                                                             Dollars     Debit
  6 Other investment in                                                                                                                                                         Dollars     Debit
    development




                                                                                               - 5 ­

                                                                                                                                                                 11/15/2007 10:32:15

                                                                               U.S. Department of the Treasury
                                                                                Financial Management Service
                                                                           Governmentwide Financial Report System
                                                                                  GF007 - Other Data Report


 Other Data: 09            Stewardship Investments                                                                   Fiscal Year: 2007                Period: SEPTEMBER
        Entity: 2000       Department of the Treasury                                                                    Agency Notes:     Treasury
       Status: Complete


  Tab: Other Data Info.

      Section: C             Section Name: Investment in Human Capital (SFFAS No. 8, par 94)    No Data: YES   Rounding Method: User-Defined               Decimal: User-Defined

Line Line Description                  FY 2007                   FY 2006                   FY 2005             FY 2004                   FY 2003                                 Line      NB
 No                                                                                                                                                                           Attributes
  1                                                                                                                                                                            Dollars     Debit
  2                                                                                                                                                                            Dollars     Debit
  3                                                                                                                                                                            Dollars     Debit
  4                                                                                                                                                                            Dollars     Debit
  5                                                                                                                                                                            Dollars     Debit
  6 Other Investments in                                                                                                                                                       Dollars     Debit
    human capital


      Section: D             Section Name: Research and Development: Investment in Basic        No Data: YES   Rounding Method: User-Defined               Decimal: User-Defined
                                           Research (SFFAS No. 8, par. 100)

Line Line Description                  FY 2007                   FY 2006                   FY 2005             FY 2004                   FY 2003                                 Line      NB
 No                                                                                                                                                                           Attributes
  1                                                                                                                                                                            Dollars     Debit
  2                                                                                                                                                                            Dollars     Debit
  3                                                                                                                                                                            Dollars     Debit
  4                                                                                                                                                                            Dollars     Debit
  5                                                                                                                                                                            Dollars     Debit
  6 Other investments in                                                                                                                                                       Dollars     Debit
    basic research




                                                                                               - 6 ­

                                                                                                                                                                                   11/15/2007 10:32:15

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                          GF007 - Other Data Report


 Other Data: 09                Stewardship Investments                                                                                 Fiscal Year: 2007                Period: SEPTEMBER
          Entity: 2000         Department of the Treasury                                                                                  Agency Notes:     Treasury
         Status: Complete


    Tab: Other Data Info.

        Section: E               Section Name: Research and Development: Investment in Applied               No Data: YES    Rounding Method: User-Defined                   Decimal: User-Defined
                                               Research (SFFAS No. 8, par 100)

Line Line Description                       FY 2007                      FY 2006                      FY 2005                    FY 2004                   FY 2003                                 Line      NB
 No                                                                                                                                                                                             Attributes
    1                                                                                                                                                                                            Dollars     Debit
    2                                                                                                                                                                                            Dollars     Debit
    3                                                                                                                                                                                            Dollars     Debit
    4                                                                                                                                                                                            Dollars     Debit
    5                                                                                                                                                                                            Dollars     Debit
    6 Other investment in                                                                                                                                                                        Dollars     Debit
      applied research

        Section: F               Section Name:

Line Line Description                                                                                                                                                                              Line      NB
 No                                                                                                                                                                                             Attributes




    Tab: Other Text Data

         Section: A                Section Name: Investment in Non-Federal physical property (SFFAS           No Data: YES
                                                 No. 8, par 87)

Line No        Question                                                                                                 Answer
1              Provide a description of Federally-owned physical property transferred to State and local
               governments. (SFFAS No. 8, par 87)
2              Provide a description of the major programs of Federal investments in non-Federal property.
               (SFFAS No.8 par. 87)




                                                                                                             - 7 ­

                                                                                                                                                                          11/15/2007 10:32:15

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                      GF007 - Other Data Report


Other Data: 09               Stewardship Investments                                                                            Fiscal Year: 2007              Period: SEPTEMBER
       Entity: 2000          Department of the Treasury                                                                            Agency Notes:    Treasury
      Status: Complete


    Tab: Other Text Data

      Section: B                 Section Name: Research and Development: Investment in                        No Data: YES
                                               Development (SFFAS No. 8, par. 100)

Line No      Question                                                                                                  Answer
1         Provide a description of the major programs of Federal investments in development. (SFFAS No.
          8, par. 100)
2         Provide a description of the progress of major development projects including the results with
          respect to projects completed or otherwise terminated during the year and the status of projects
          that will continue (SFFAS No. 8, par. 99)
  Tab: Other Text Data

      Section: C                 Section Name: Investment in Human Capital (SFFAS No. 8, par 94)              No Data: YES

Line No      Question                                                                                                  Answer
1           Provide a description of the major education and training programs considered Federal
            investments in human capital. (SFFAS No.8, par. 94)
    Tab: Other Text Data

      Section: D                 Section Name: Research and Development: Investment in Basic                  No Data: YES
                                               Research (SFFAS No. 8, par. 100)

Line No      Question                                                                                                  Answer
1         Provide a description of the major programs of Federal investments in basic research. (SFFAS
          No. 8, par. 100)
2         Provide a description of any major new discoveries made during the year (SFFAS No. 8, par. 99)
  Tab: Other Text Data

      Section: E                 Section Name: Research and Development: Investment in Applied                No Data: YES
                                               Research (SFFAS No. 8, par 100)

Line No      Question                                                                                                  Answer
1            Provide a description of the major programs of Federal investments in applied research. (SFFAS
             No. 8, par. 100)
2            Provide a description of any major new applications developed during the year (SFFAS No. 8,
             par. 99)




                                                                                                       - 8 ­

                                                                                                                                                                      11/15/2007 10:32:15

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                   GF007 - Other Data Report


 Other Data: 10              Deferred Maintenance                                                                          Fiscal Year: 2007               Period: SEPTEMBER
      Entity: 2000           Department of the Treasury                                                                       Agency Notes:     Treasury
      Status: Complete


  Tab: Other Data Info.

    Section: A                 Section Name: Range of Amounts                                     No Data: YES    Rounding Method: User-Defined                 Decimal: User-Defined

Line Line Description                  CY- Low      D           CY- High    D CY - Critical Maintenance          PY- Low     D             PY- High   D PY - Critical Maintenance    Line       NB
 No                                                                                                   D                                                                         D Attributes
  1 Buildings, structures,                                                                                                                                                          Dollars     N/A
    and facilities
  2 Furniture, fixtures,                                                                                                                                                            Dollars     N/A
    and equipment
  3 Other general                                                                                                                                                                   Dollars     N/A
    property, plant, and
    equipment
  4 Heritage assets                                                                                                                                                                 Dollars     N/A
  5 Stewardship land                                                                                                                                                                Dollars     N/A
    Section: B                 Section Name: Amount                                               No Data: YES    Rounding Method: User-Defined                 Decimal: User-Defined

Line Line Description                Current FY     D            Prior FY   D                                                                                                         Line      NB
 No                                                                                                                                                                                Attributes
  1 Buildings, structures,                                                                                                                                                          Dollars     N/A
    and facilities
  2 Furniture, fixtures,                                                                                                                                                            Dollars     N/A
    and equipment
  3 Other general                                                                                                                                                                   Dollars     N/A
    property, plant, and
    equipment
  4 Heritage assets                                                                                                                                                                 Dollars     N/A
  5 Stewardship land                                                                                                                                                                Dollars     N/A




                                                                                                - 9 ­

                                                                                                                                                                       11/15/2007 10:32:15

                                                                               U.S. Department of the Treasury
                                                                                Financial Management Service
                                                                           Governmentwide Financial Report System
                                                                                  GF007 - Other Data Report


 Other Data: 10            Deferred Maintenance                                                                           Fiscal Year: 2007                Period: SEPTEMBER
      Entity: 2000         Department of the Treasury                                                                         Agency Notes:    Treasury
     Status: Complete


  Tab: Other Data Info.

    Section: C               Section Name: Total life-cycle cost method (SFFAS No. 6, par 83)    No Data: YES      Rounding Method: User-Defined                Decimal: User-Defined

Line Line Description      PY balance cum. deficit Required Maintenance for      Maintenance performed       Difference between   Adj. to scheduled amts         Ending Cumulative    Line      NB
 No                          maintenance amt                  the period           during the period      forecast and actual      deemed necessary by                  Balance    Attributes
                                                                                                                                              PPEmgr
  1 (I) Buildings,                                                                                                                                                                   Dollars    Debit
    structures, and
    facilities
  2 (I) Furniture,                                                                                                                                                                   Dollars    Debit
    fixtures, and
    equiment
  3 (I) Other general                                                                                                                                                                Dollars    Debit
    property, plant, and
    equipment
  4 (I) Heritage assests                                                                                                                                                             Dollars    Debit
  5 (I) Stewardship land                                                                                                                                                             Dollars    Debit




                                                                                                - 10 ­

                                                                                                                                                                11/15/2007 10:32:15

                                                                              U.S. Department of the Treasury
                                                                               Financial Management Service
                                                                          Governmentwide Financial Report System
                                                                                 GF007 - Other Data Report


 Other Data: 11           Unexpended Budget Authority                                                                 Fiscal Year: 2007              Period: SEPTEMBER
      Entity: 2000        Department of the Treasury                                                                      Agency Notes:   Treasury
     Status: Complete


  Tab: Other Data Info.

    Section: A              Section Name: Unexpended budget authority                         No Data: YES     Rounding Method: User-Defined              Decimal: User-Defined

Line Line Description             Current Year               Prior Year          Previously Rptd      Line Item Changes                                                         Line      NB
 No                                                                                                                                                                          Attributes
  1 Total unobligated                                                                                                                                                         Dollars     Debit
    budget authority
    balance
  2 Total obligated                                                                                                                                                           Dollars     Debit
    budget authority
    balance




                                                                                            - 11 ­

                                                                                                                                                            11/15/2007 10:32:15

                                                                               U.S. Department of the Treasury
                                                                                Financial Management Service
                                                                           Governmentwide Financial Report System
                                                                                  GF007 - Other Data Report


 Other Data: 12           Tax Burden                                                                             Fiscal Year: 2007               Period: SEPTEMBER
      Entity: 2000        Department of the Treasury                                                                Agency Notes:     Treasury
     Status: Complete


  Tab: Other Data Info.

    Section: A              Section Name: Individual Income Tax Returns for Tax Year 2005 for
                                          the following AGI levels

Line Line Description                      AGI                                                                                                                              Line      NB
 No                                                                                                                                                                      Attributes
  1 Under $15,000               36,889,000.0000                                                                                                                            Units      N/A
  2 $15,000 under               29,739,000.0000                                                                                                                            Units      N/A
    $30,000
  3 $30,000 under               24,596,000.0000                                                                                                                            Units      N/A
    $50,000
  4 $50,000 under               28,867,000.0000                                                                                                                            Units      N/A
    $100,000
  5 $100,000 under              10,831,000.0000                                                                                                                            Units      N/A
    $200,000
  6 $200,000 or more             3,541,000.0000                                                                                                                            Units      N/A
    Section: B              Section Name: Individual AGI and Income Tax information ­                     Rounding Method: Millions                   Decimal: Zero
                                          Individual Income Tax Returns for Tax Year 2005

Line Line Description                      AGI          Total Income Tax                                                                                                    Line      NB
 No                                                                                                                                                                      Attributes
  1 Under $15,000                        197,723                      3,239                                                                                               Dollars     Debit
  2 $15,000 under                        655,562                    23,308                                                                                                Dollars     Debit
    $30,000
  3 $30,000 under                        961,071                    60,187                                                                                                Dollars     Debit
    $50,000
  4 $50,000 under                      2,033,408                   179,382                                                                                                Dollars     Debit
    $100,000
  5 $100,000 under                     1,434,585                   190,599                                                                                                Dollars     Debit
    $200,000
  6 $200,000 or more                   2,081,299                   471,549                                                                                                Dollars     Debit




                                                                                                - 12 ­

                                                                                                                                                            11/15/2007 10:32:15

                                                                              U.S. Department of the Treasury
                                                                               Financial Management Service
                                                                          Governmentwide Financial Report System
                                                                                 GF007 - Other Data Report


 Other Data: 12           Tax Burden                                                                             Fiscal Year: 2007               Period: SEPTEMBER
      Entity: 2000        Department of the Treasury                                                                 Agency Notes:    Treasury
     Status: Complete


  Tab: Other Data Info.

    Section: C              Section Name: Individual AGI and Income Tax Information-Individual             Rounding Method: Whole-Dollars             Decimal: Zero
                                          Income Tax Returns for Tax Year 2005

Line Line Description      Avg. AGI per return          Avg. Income Tax per                                                                                                 Line      NB
 No                                                               return                                                                                                 Attributes
  1 Under $15,000                          5,360                         88                                                                                               Dollars     Debit
  2 $15,000 under                         22,044                        784                                                                                               Dollars     Debit
    $30,000
  3 $30,000 under                         39,075                      2,447                                                                                               Dollars     Debit
    $50,000
  4 $50,000 under                         70,441                      6,214                                                                                               Dollars     Debit
    $100,000
  5 $100,000 under                       132,452                     17,598                                                                                               Dollars     Debit
    $200,000
  6 $200,000 or more                     587,772                   133,168                                                                                                Dollars     Debit
    Section: D              Section Name: Income Tax as a Percentage of AGI-Indvidual Income
                                          Tax Returns for Tax Year 2005

Line Line Description                      AGI                                                                                                                              Line      NB
 No                                                                                                                                                                      Attributes
  1 Under $15,000                         1.6000                                                                                                                          Percent     N/A
  2 $15,000 under                         3.6000                                                                                                                          Percent     N/A
    $30,000
  3 $30,000 under                         6.3000                                                                                                                          Percent     N/A
    $50,000
  4 $50,000 under                         8.8000                                                                                                                          Percent     N/A
    $100,000
  5 $100,000 under                       13.3000                                                                                                                          Percent     N/A
    $200,000
  6 $200,000 or more                     22.7000                                                                                                                          Percent     N/A




                                                                                                 - 13 ­

                                                                                                                                                            11/15/2007 10:32:15

                                                                               U.S. Department of the Treasury
                                                                                Financial Management Service
                                                                           Governmentwide Financial Report System
                                                                                  GF007 - Other Data Report


 Other Data: 12            Tax Burden                                                                            Fiscal Year: 2007               Period: SEPTEMBER
      Entity: 2000         Department of the Treasury                                                               Agency Notes:     Treasury
     Status: Complete


  Tab: Other Data Info.

    Section: E               Section Name: Income Subject to Tax & Total Income Tax After                 Rounding Method: Millions                   Decimal: Zero
                                           Credits:Corp. Income for Tax Year 2004

Line Line Description     Income Subject to Tax         Total Income Tax After                                                                                              Line      NB
 No                                                                Credits                                                                                               Attributes
  1 Zero Assets                            15,385                      4,076                                                                                              Dollars     Debit
  2 $1 under $500                           8,436                      1,536                                                                                              Dollars     Debit
  3 $500 under $1,000                       4,081                        960                                                                                              Dollars     Debit
  4 $1,000 under $5,000                    12,215                      3,519                                                                                              Dollars     Debit
  5 $5,000 under                            7,562                      2,446                                                                                              Dollars     Debit
    $10,000
  6 $10,000 under                          10,694                      3,511                                                                                              Dollars     Debit
    $25,000
  7 $25,000 under                          10,076                      3,282                                                                                              Dollars     Debit
    $50,000
  8 $50,000 under                          12,037                      3,918                                                                                              Dollars     Debit
    $100,000
  9 $100,000 under                         23,779                      7,529                                                                                              Dollars     Debit
    $250,000
 10 $250,000 or more                      753,124                    193,658                                                                                              Dollars     Debit
    Section: F               Section Name: Percentage of Income Tax After Credits to Taxable
                                           Income-Corporation Income for Tax Year 2004

Line Line Description     Income Subject to Tax                                                                                                                             Line      NB
 No                                                                                                                                                                      Attributes
  1 Zero Assets                           26.5000                                                                                                                         Percent     N/A
  2 $1 under $500                         18.2000                                                                                                                         Percent     N/A
  3 $500 under $1,000                     23.5000                                                                                                                         Percent     N/A
  4 $1,000 under $5,000                   28.8000                                                                                                                         Percent     N/A
  5 $5,000 under                          32.3000                                                                                                                         Percent     N/A
    $10,000
  6 $10,000 under                         32.8000                                                                                                                         Percent     N/A
    $25,000
  7 $25,000 under                         32.6000                                                                                                                         Percent     N/A
    $50,000
  8 $50,000 under                         32.5000                                                                                                                         Percent     N/A
    $100,000



                                                                                               - 14 ­

                                                                                                                                                       11/15/2007 10:32:15

                                                                            U.S. Department of the Treasury
                                                                             Financial Management Service
                                                                        Governmentwide Financial Report System
                                                                               GF007 - Other Data Report


Other Data: 12           Tax Burden                                                                          Fiscal Year: 2007              Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                              Agency Notes:   Treasury
    Status: Complete


 Tab: Other Data Info.

  Section: F               Section Name: Percentage of Income Tax After Credits to Taxable
                                         Income-Corporation Income for Tax Year 2004


 9 $100,000 under                       31.7000                                                                                                                      Percent   N/A
   $250,000
10 $250,000 or more                     25.7000                                                                                                                      Percent   N/A




                                                                                             - 15 ­

                                                                                                                                                                          11/15/2007 10:32:15

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                    GF007 - Other Data Report


 Other Data: 13              Other information                                                                              Fiscal Year: 2007                  Period: SEPTEMBER
      Entity: 2000           Department of the Treasury                                                                             Agency Notes:   Treasury
      Status: Complete


  Tab: Other Data Info.

    Section: A                 Section Name: Estimated amounts that may be paid out as other                         Rounding Method: Billions                      Decimal: Zero
                                             claims for tax refunds

Line Line Description        2007 - SEPTEMBER             2006 - SEPTEMBER            Previously Rptd       Line Item Changes                                                             Line      NB
 No                                                                                                                                                                                    Attributes
  1 Estimated payout                               15                        11                     11                          0                                                       Dollars     Debit
    (including principal
    and interest) for
    claims pending
    judicial review by the
    Federal Courts
  2 Claims under appeal                             6                         7                         7                       0                                                       Dollars     Debit


    Section: B                 Section Name: Other information related to taxes                                      Rounding Method: Millions                      Decimal: Zero

Line Line Description        2007 - SEPTEMBER             2006 - SEPTEMBER            Previously Rptd       Line Item Changes                                                             Line      NB
 No                                                                                                                                                                                    Attributes
  1 Payroll taxes paid by                    73,718                     64,734                  64,734                          0                                                       Dollars     Debit
    Federal agencies
    included in individual
    and FICA taxes
  2 Refundable portion                       16,137                     15,449                  15,449                          0                                                       Dollars     Debit
    of child care tax
    credits issued
  3 Amount of EITC                           38,274                     36,166                  36,166                          0                                                       Dollars     Debit
    refunds
  4 Amount of EITC                               6,425                   5,371                   5,371                          0                                                       Dollars     Debit
    refunds applied to
    reduce taxpayer
    liability




                                                                                                 - 16 ­

                                                                                                                                                                             11/15/2007 10:32:15

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                       GF007 - Other Data Report


 Other Data: 15              Risk Assumed-Federal Insurance and Guarantee Programs(SFFAS No. 5, par. 105, 106,and 114)            Fiscal Year: 2007               Period: SEPTEMBER
        Entity: 2000         Department of the Treasury                                                                               Agency Notes:    Treasury
       Status: Complete


    Tab: Other Data Info.

      Section: A               Section Name: Risk Assumed                                                 No Data: YES     Rounding Method: Millions                   Decimal: Zero

Line Line Description        2007 - SEPTEMBER             2006 - SEPTEMBER                 Previously Rptd        Line Item Changes                                                          Line      NB
 No                                                                                                                                                                                       Attributes
    1 Present value of                                                                                                                                                                     Dollars     Debit
      unpaid expected
      losses (net of
      associated
      premiums)
    2 Periodic changes                                                                                                                                                                     Dollars     Debit




    Tab: Other Text Data

       Section: A                Section Name: Risk Assumed                                                No Data: YES

Line No      Question                                                                                                Answer
1            Provide the indicators of the range of uncertainty around insurance related estimates and
             sensitivity of the estimates to changes in major assumptions (SFFAS No.5, par.114)
2            Provide the actuarial or financial methods used to measure the present value of unpaid expected
             losses (SFFAS No. 5. par. 114)




                                                                                                       - 17 ­

                                                                                                                                                                    11/15/2007 10:32:15

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                      GF007 - Other Data Report


 Other Data: 16              Stewardship Land                                                                             Fiscal Year: 2007              Period: SEPTEMBER
        Entity: 2000        Department of the Treasury                                                                        Agency Notes:   Treasury
       Status: Complete


    Tab: Other Data Info.

     Section: A                Section Name: Stewardship Land                                     No Data: YES

Line Line Description         Beginning Balance                     Acquired               Withdrawn         Ending Balance                                                         Line      NB
 No                                                                                                                                                                              Attributes
    1 Public Land                                                                                                                                                                  Units      N/A
    2 National Forest                                                                                                                                                              Units      N/A
      System
    3 National Wildlife                                                                                                                                                            Units      N/A
      Refuge System
    4 National Park                                                                                                                                                                Units      N/A
      System
    5 Mission Land                                                                                                                                                                 Units      N/A
    6 Water, Power, and                                                                                                                                                            Units      N/A
      Recreation
    7 All Other                                                                                                                                                                    Units      N/A
    Tab: Other Text Data

       Section: A               Section Name: Stewardship Land                                     No Data: YES

Line No      Question                                                                                        Answer
1            Describe the predominant uses of the stewardship land (SFFAS 29, par. 40c).
2            Provide the condition of the stewardship land (SFFAS 29, par. 41).




                                                                                                - 18 ­

                                                                                                                                                                           11/15/2007 10:32:15

                                                                               U.S. Department of the Treasury
                                                                                Financial Management Service
                                                                           Governmentwide Financial Report System
                                                                                  GF007 - Other Data Report


 Other Data: 17           Heritage Assets                                                                                   Fiscal Year: 2007                 Period: SEPTEMBER
        Entity: 2000      Department of the Treasury                                                                            Agency Notes:      Treasury
       Status: Complete


  Tab: Other Data Info.

      Section: A            Section Name: Collection Type Heritage Assets (SFFAS No. 29, par.    No Data: YES
                                          25d)

Line Line Description       CY:Physical units as of    CY:Physical units added      CY:Physical units     CY:Physical units as of PY:Physical units as of the   PY:Physical units added    Line      NB
 No                       the beginning of the year    during the fiscal year    withdrawn during the      the end of the year     beginning of the year        during the fiscal year  Attributes
                                                                                        fiscal year
  1                                                                                                                                                                                       Units      N/A
  2                                                                                                                                                                                       Units      N/A
  3                                                                                                                                                                                       Units      N/A
  4                                                                                                                                                                                       Units      N/A
  5                                                                                                                                                                                       Units      N/A

Line Line Description           PY:Physical units PY:Physical units as of the                                                                                                              Line      NB
 No                          withdrawn during the        end of the year                                                                                                                Attributes
                                    fiscal year
  1                                                                                                                                                                                       Units      N/A
  2                                                                                                                                                                                       Units      N/A
  3                                                                                                                                                                                       Units      N/A
  4                                                                                                                                                                                       Units      N/A
  5                                                                                                                                                                                       Units      N/A
      Section: B            Section Name: Non-Collection Type Heritage Assets (SFFAS No. 29,     No Data: YES
                                          par. 25d)

Line Line Description       CY:Physical units as of    CY:Physical units added      CY:Physical units     CY:Physical units as of PY:Physical units as of the   PY:Physical units added    Line      NB
 No                       the beginning of the year    during the fiscal year    withdrawn during the      the end of the year     beginning of the year        during the fiscal year  Attributes
                                                                                        fiscal year
  1                                                                                                                                                                                       Units      N/A
  2                                                                                                                                                                                       Units      N/A
  3                                                                                                                                                                                       Units      N/A
  4                                                                                                                                                                                       Units      N/A
  5                                                                                                                                                                                       Units      N/A

Line Line Description           PY:Physical units PY:Physical units as of the                                                                                                              Line      NB
 No                          withdrawn during the        end of the year                                                                                                                Attributes
                                    fiscal year
  1                                                                                                                                                                                       Units      N/A
  2                                                                                                                                                                                       Units      N/A



                                                                                                - 19 ­

                                                                                                                                                                         11/15/2007 10:32:15

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                          GF007 - Other Data Report


Other Data: 17                 Heritage Assets                                                                                 Fiscal Year: 2007              Period: SEPTEMBER
          Entity: 2000         Department of the Treasury                                                                         Agency Notes:    Treasury
         Status: Complete


    Tab: Other Data Info.

        Section: B               Section Name: Non-Collection Type Heritage Assets (SFFAS No. 29,          No Data: YES
                                               par. 25d)


    3                                                                                                                                                                                   Units   N/A
    4                                                                                                                                                                                   Units   N/A
    5                                                                                                                                                                                   Units   N/A




    Tab: Other Text Data

         Section: A                Section Name: Collection Type Heritage Assets (SFFAS No. 29, par.        No Data: YES
                                                 25d)

Line No        Question                                                                                               Answer
1           Provide the condition of each major category of the heritage assets (SFFAS 29, par. 26).
    Tab: Other Text Data

         Section: B                Section Name: Non-Collection Type Heritage Assets (SFFAS No. 29,         No Data: YES
                                                 par. 25d)

Line No        Question                                                                                               Answer
1              Provide the condition of each major category of the heritage assets (SFFAS 29, par. 26).




                                                                                                          - 20 ­

